No. _____
IN THE

Supreme Court of the United States
SEQUOIA CAPITAL OPERATIONS, LLC; TCV V, L.P.;

Petitioners,
v.
JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED; ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,

Respondents.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION FOR WRIT OF CERTIORARI
Stephen D. Hibbard
JONES DAY
555 California Street,
26th Floor
San Francisco, CA 94104

Todd R. Geremia

Counsel of Record

James M. Gross
Shirley M. Chan
JONES DAY
250 Vesey Street
New York, NY 10281
(212) 326-3939
trgeremia@jonesday.com

Counsel for Petitioners

i
QUESTION PRESENTED
Where an arbitration agreement contains a separate “delegation provision” that reserves for an arbitrator the authority to decide any disputes concerning
arbitrability, does Section 2 of the Federal Arbitration
Act require a court to decide any challenge to that provision’s validity before the court may proceed to address whether the parties’ underlying dispute is arbitrable?

ii
CORPORATE DISCLOSURE STATEMENT
Petitioner Sequoia Capital Operations, LLC has
no parent corporation and no publicly held corporation
owns 10% or more of its stock.*
This lawsuit improperly names as a defendant
“Technology Crossover Ventures.” Technology Crossover Ventures is a trade name, not a legal entity. For
purposes of this litigation, the correct legal entity that
conducts business using this trade name is TCV V,
L.P., a limited partnership organized under the law of
Delaware. TCV V, L.P. has no parent corporation and
no publicly held corporation owns 10% or more of its
stock.

*

Plaintiffs’ lawsuit improperly names Sequoia Capital Operations, LLC, which provides administrative and other services to
various fund entities that provide startup capital for entrepreneurs, but does not currently own, and never has owned, any securities or otherwise invested in any other Defendant in this action. Sequoia Capital Operations, LLC reserves all rights with
respect to its being named as a Defendant here.

iii
RELATED PROCEEDINGS
United States District Court (D. Vt.):

Jessica Gingras, et al. v. Joel Rosette, et al., No.

5:15-cv-101 (May 13, 2015)

United States Court of Appeals (2d Cir.):

Jessica Gingras, et al. v. Think Finance, Inc., et al.,

Nos. 16-2019-cv (L); 16-2132-cv; 16-2135-cv; 16-2138cv; 16-2140-cv (Con) (June 17, 2016)

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED..........................................i
CORPORATE DISCLOSURE STATEMENT .......... ii
RELATED PROCEEDINGS .................................... iii
TABLE OF AUTHORITIES ......................................vi
PETITION FOR A WRIT OF CERTIORARI ............ 1
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
STATUTORY PROVISION INVOLVED ................... 1
INTRODUCTION ....................................................... 2
STATEMENT OF THE CASE ................................... 4
REASONS FOR GRANTING THE WRIT ................. 9
I.

The Courts of Appeal Are Divided on
When a Delegation Provision Can Be
Disregarded.......................................................... 9

II. The Question Presented Will Determine
Whether Arbitration Agreements with a
Delegation Provision May Be Nullified
Peremptorily, Thwarting Congressional
Intent.................................................................. 11
III. The Second Circuit’s Decision Conflicts
with This Court’s Decisions and Is
Clearly Erroneous .............................................. 14
CONCLUSION ......................................................... 19

v
TABLE OF CONTENTS
(continued)

Page

APPENDIX A: Opinion of the United States
Court of Appeals, Second Circuit (April 24,
2019) ................................................................... 1a
APPENDIX B: Opinion and Order Regarding
Cross Motions for Jurisdictional Discovery
and Motions to Dismiss and to Compel Arbitration of the United States District
Court, District of Vermont (May 18, 2016) ..... 28a
APPENDIX C: Order Denying Petition for Rehearing / Rehearing En Banc of the United
States Court of Appeal, Second Circuit
(June 13, 2019) .............................................. 112a
APPENDIX D: Plaintiffs’ First Amended Complaint Filed in the United States District
Court, District of Vermont (August 4,
2015) ............................................................... 114a

vi
TABLE OF AUTHORITIES
Page(s)
CASES

Am. Express Co. v. Italian Colors Rest.,

570 U.S. 228 (2013) .............................................. 12

AT&T Mobility LLC v. Concepcion,

563 U.S. 333 (2011) .............................................. 12

Buckeye Check Cashing, Inc. v.
Cardegna,

546 U.S. 440 (2006) .............................................. 15

CompuCredit Corp. v. Greenwood,

565 U.S. 95 (2012) ................................................ 12

First Options of Chicago, Inc. v. Kaplan,

514 U.S. 938 (1995) .............................................. 14

Granite Rock Co. v. Int’l Broth. Of
Teamsters,

561 U.S. 287 (2010) .............................................. 12

Green Tree Fin. Corp.-Ala. v. Randolph,

531 U.S. 79 (2000) ................................................ 16

Hall St. Assocs. L.L.C. v. Mattel, Inc.,

552 U.S. 576 (2008) .............................................. 12

Henry Schein, Inc. v. Archer & White
Sales, Inc.,

139 S. Ct. 524 (2019) .................................... passim

Jones v. Waffle House, Inc.,

866 F.3d 1257 (11th Cir. 2017) ............................ 10

vii
TABLE OF AUTHORITIES
(continued)

Page(s)

Minnieland Private Day Sch., Inc. v.
Applied Underwriters Captive Risk
Assurance Co.,

867 F.3d 449 (4th Cir. 2017) ................................ 10

Moses H. Cone Mem’l Hosp. v. Mercury
Constr. Corp.,

460 U.S. 1 (1983) .............................................. 4, 16

Rent-A-Center, West, Inc. v. Jackson,

561 U.S. 63 (2010) ........................................ passim

Scherk v. Alberto-Culver Co.,

417 U.S. 506 (1974) .............................................. 12

Volt Info. Servs., Inc. v. Bd. of Trs. of
Leland Stanford Junior Univ.,

489 U.S. 468 (1989) .............................................. 12

STATUTES
9 U.S.C. § 1 et seq........................................................ 1
9 U.S.C. § 2. ....................................................... passim
28 U.S.C. § 1254 .......................................................... 1

1
PETITION FOR A WRIT OF CERTIORARI
Sequoia Capital Operations, LLC and TCV V, L.P.
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Second Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals is reported at
922 F.3d 112 and reproduced at App. 1a–27a. The
opinion of the district court is not reported, but is
available electronically at 2016 WL 2932163 and is reproduced at App. 28a–111a.
JURISDICTION
The court of appeals affirmed the district court’s
order denying the motions to compel arbitration on
April 24, 2019. App. 27a. Petitioners timely filed a petition for rehearing / rehearing en banc on May 13,
2019, which the court of appeals denied on June 13,
2019. Id. at 113a. Petitioners timely filed this petition
within 90 days of that order. This Court has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
The Federal Arbitration Act, 9 U.S.C. § 1 et seq.,
provides in § 2:
A written provision in any maritime transaction or a contract evidencing a transaction involving commerce to settle by arbitration a
controversy thereafter arising out of such contract or transaction, or the refusal to perform
the whole or any part thereof, or an agreement
in writing to submit to arbitration an existing
controversy arising out of such a contract,
transaction, or refusal, shall be valid, irrevocable, and enforceable, save upon such

2
grounds as exist at law or in equity for the revocation of any contract.
INTRODUCTION
This case presents a straightforward question regarding whether courts can disregard a separate
agreement to arbitrate a dispute—a so-called “delegation provision”—that reserves for an arbitrator the
power to decide whether a parties’ dispute is arbitrable. Section 2 of the Federal Arbitration Act (“FAA”)
provides that when parties enter into a written contract “to submit to arbitration an existing controversy
arising out of such a contract,” that agreement “shall
be valid, irrevocable, and enforceable, save upon such
grounds as exist at law or in equity for the revocation
of any contract.” 9 U.S.C. § 2. That mandate extends
to “agreement[s] to arbitrate threshold issues concerning the arbitration,” known as “delegation provisions.” Rent-A-Center, West, Inc. v. Jackson, 561 U.S.
63, 68 (2010). This Court has established and reiterated that, when parties agree to “arbitrate ‘gateway’
questions of ‘arbitrability,’ such as whether the parties have agreed to arbitrate or whether their agreement covers a particular controversy,” “the FAA operates on this additional arbitration agreement just as
it does on any other.” Id. at 68–70; see also Henry
Schein, Inc. v. Archer & White Sales, Inc., 139 S. Ct.
524, 529 (2019) (same).
Everyone agrees that the agreements to arbitrate
at issue here contain delegation provisions which
“clearly and unmistakably” provide that an arbitrator,
rather than a court, is to resolve the gateway issue of
whether each agreement to arbitrate is enforceable.
See App. 21a, 62a–63a, 143a. And everyone agrees

3
that under Section 2 of the FAA and this Court’s precedents, an agreement to arbitrate threshold issues
must be enforced, “save upon such grounds as exist at
law or in equity for the revocation of any contract.” Id.
at 23a; see also Rent-A-Center, 561 U.S. at 67 (each
quoting 9 U.S.C. § 2).
Where the parties disagree—and where the federal courts of appeal have diverged—is how a delegation provision should be treated once a party asserts a
challenge to its validity on a ground “at law or in equity for the revocation of any contract.” The Fourth
and Eleventh Circuits have concluded that in such circumstances, a court must actually adjudicate the merits of that challenge. The district court may then proceed to decide gateway issues of arbitrability for itself
only after ruling that a delegation provision is invalid
or otherwise not enforceable. In other words, in the
Fourth and Eleventh Circuits, a court cannot bypass
a delegation provision and decide gateway issues of
arbitrability for itself unless it first decides—upon application of traditional rules of contract interpretation—that the delegation provision is not enforceable.
The Second Circuit, by contrast, ruled in this case
that a court may set aside a plain delegation provision—and proceed to address whether the agreement
to arbitrate the underlying dispute is enforceable—
without first ruling on the validity of the delegation
provision. As the Second Circuit held here, so long as
a party seeking to avoid arbitration makes an allegation in its complaint that the delegation provision is
“fraudulent,” that allegation alone is “sufficient to
make the issue of arbitrability one for a federal court.”
App. 22a. Under the Second Circuit’s approach, the
court need not, and does not, actually decide whether

4
the delegation provision is valid before proceeding to
rule on arbitrability for itself. The court simply notes
that a party seeking to avoid arbitration has asserted
a challenge to the delegation provision.
The Second Circuit’s decision creates a clear split
of authority among the court of appeals as to when a
court can bypass a delegation provision. Its holding
that a mere allegation of invalidity is sufficient to discard a delegation provision—a separate agreement to
arbitrate arbitrability—represents a return to the old
judicial hostility to arbitration and a significant departure from this Court’s repeated guidance that arbitration agreements are to be enforced as any other
contracts and that any doubts regarding arbitrability
must be resolved in favor of arbitration. E.g., Moses H.
Cone Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S.
1, 24–25 (1983).
This Court’s review is necessary to once again reaffirm that under the FAA, “arbitration is a matter of
contract, and courts must enforce arbitration contracts according to their terms.” Henry Schein, 139 S.
Ct. at 529.
STATEMENT OF THE CASE
1. This lawsuit arises out of consumer loans entered into by plaintiffs Jessica Gingras and Angela
Given between 2011 and 2013 with Plain Green, LLC,
“an online lending operation, which holds itself out as
a ‘tribal lending entity wholly owned by the Chippewa
Cree Tribe of the Rocky Boy’s Indian Reservation,
Montana.’” App. 4a–5a. Prior to receiving those loans,
each plaintiff executed a loan agreement which provided for arbitration in the event of a dispute concerning the loans. Id. at 5a.

5
Relevant here, that arbitration agreement also
contained a delegation provision, by which the parties
agreed that gateway issues, including whether the
agreement to arbitrate is enforceable, would be decided by an arbitrator. As the court of appeals recounted:
One such provision is a delegation clause
whereby the parties agree that “any Dispute
… will be resolved by arbitration in accordance with Chippewa Cree tribal law.” The
agreement defines a “Dispute” as “any controversy or claim between” the borrower and
the lender, “based on a tribal, federal or state
constitution, statute, ordinance, regulation,
or common law.” “Dispute” includes “any issue concerning the validity, enforceability, or
scope” of the loan agreement itself or the arbitration provision specifically.

Id. (citations omitted).
Notwithstanding the arbitration agreement—and
the separate agreement to arbitrate arbitrability contained within it—plaintiffs brought this putative class
action lawsuit against Plain Green in the District of
Vermont, alleging that the loan agreements violate,
inter alia, Vermont and federal law. Id. at 6a. Plaintiffs also named as defendants various Plain Green executives, entities (and executives thereof) that serviced the loans made by Plain Green, and entities
which were merely investors in defendant Think Finance, Inc., a company that provides a technology
platform that serviced third-party lenders, including
Plain Green. Petitioners Sequoia Capital Operations,

6
LLC and TCV V, L.P. are members of that final category of investor defendants.1 Id. at 6a–7a.
In their operative complaint, plaintiffs did not dispute that they had executed an arbitration agreement
containing the aforementioned delegation clause. Instead, they alleged that the “arbitration agreement is
unenforceable because it is unconscionable, its purpose has been frustrated, and it is fraudulent.” Id. at
139a. They further alleged, without elaboration, that
“[t]he delegation provision of the Purported Arbitration Agreement is also fraudulent,” including its “attempt[] to include within the scope of the arbitration
agreement ‘any issue concerning the validity, enforceability, or scope of this loan or the Agreement to Arbitrate.’” Id. at 143a.
2. In response to the complaint, all defendants,
including the petitioners, moved to compel arbitration
pursuant to the loan agreements. Id. at 8a. As part of
that motion, defendants argued that pursuant to the
delegation clause, any question regarding the enforceability or validity of the arbitration agreement had
been reserved for the arbitrator to decide. Id. at 61a–
62a. Plaintiffs opposed, arguing that the “purported
arbitration agreement [and the delegation clause specifically] is unenforceable as, among other things ‘unconscionable’ and ‘fraudulent.’” Id. at 56a.
The district court rejected defendants’ arguments
regarding the delegation clause and denied their motions in full. On the question of who should decide the
1

In fact, Sequoia Capital Operations, LLC is even further removed, as it is a management company that advised funds that
invested in the technology platform; Sequoia Capital Operations,
LLC made no such investments itself.

7
enforceability of the agreement to arbitrate, the district court acknowledged the language in the delegation clause reserving “any issue concerning the validity, enforceability or scope of this loan or the Agreement to Arbitrate” for the arbitrator. Id. at 56a. The
court nonetheless concluded that the delegation provision could be ignored because plaintiffs “attacked
the arbitration clause directly and the delegation
clause specifically.” Id. at 64a. As the court explained,
by virtue of having alleged that the “delegation clause
itself is unconscionable,” the plaintiffs had raised a
“separate attack on the arbitration clause [that] satisfies the majority’s test in Rent-A-Center.” Id. “Since
Plaintiffs have made a specific attack on the delegation clause as unconscionable, the court, not the arbitrator, must determine whether the arbitration clause
is valid.” Id.
Having dispensed with the delegation provision
by noting plaintiffs’ “attack” on it, the district court
proceeded to decide for itself whether plaintiffs’ claims
were arbitrable. The district court concluded that
plaintiffs had alleged sufficient facts to call into question the validity of the arbitration agreement altogether, and therefore denied the defendants’ motion
to compel arbitration in full. Id. at 68a.
3. The Second Circuit affirmed that ruling. Like
the district court, the Second Circuit observed that “on
its face,” the delegation “clause appears to give the arbitrator blanket authority over the parties’ disputes.”
Id. at 21a. But, also like the district court, the Second
Circuit refused to enforce that delegation provision
because the plaintiffs’ complaint alleged that it was
unenforceable. Id. at 21a–22a.

8
In pertinent part, the Second Circuit’s decision began by quoting this Court’s directive in Rent-A-Center
that “if a party challenges the validity under 9 U.S.C.
§ 2 of the precise agreement to arbitrate at issue, the
federal court must consider the challenge before ordering compliance with that agreement under § 4.” Id.
at 21a (alterations omitted) (emphasis added) (quoting Rent-A-Center, 561 U.S. at 71). Rather than “consider[ing] the challenge,” however, the Second Circuit
instead simply noted that a challenge had been made,
observing that “[p]laintiffs mount a convincing challenge to the arbitration clause itself,” citing plaintiffs’
complaint as the only support for this observation. Id.
Because plaintiffs had alleged in their complaint “that
‘the delegation provision of the Purported Arbitration
Agreement is also fraudulent,’” the Second Circuit
concluded that plaintiffs had made an attack “sufficient to make the issue of arbitrability one for a federal court.” Id. (alteration omitted). A mere allegation
that the delegation provision was “fraudulent” was
thus grounds for the court to bypass the delegation
provision altogether and proceed to address for itself
the enforceability of the underlying agreement to arbitrate.
The Second Circuit also rejected in a footnote defendants’ argument that the district court’s refusal to
actually adjudicate Plaintiffs’ challenge to the validity
of the delegation provision conflicts with this Court’s
recent unanimous decision in Henry Schein, Inc. v.
Archer & White Sales, Inc., 139 S. Ct. 524 (2019). The
Second Circuit wrote that Schein considered “an exception to the threshold arbitrability question—the
so-called ‘wholly groundless’ exception—not a challenge to the validity of an arbitration clause itself,”

9
and thus, in the Second Circuit’s view, this Court’s decision in Schein is irrelevant to the instant action. App.
22a n.3.
The Second Circuit proceeded to address for itself
whether the arbitration agreements, as a whole, were
enforceable. Because it concluded that they were not,
the Second Circuit affirmed the denial of defendants’
motions to compel arbitration. Id. at 26a–27a. Petitioners timely filed a petition for panel rehearing / rehearing en banc, which the Second Circuit denied. Id.
at 113a.
This petition follows.
REASONS FOR GRANTING THE WRIT
I.

The Courts of Appeal Are Divided on When a
Delegation Provision Can Be Disregarded

By ruling that a delegation provision can be disregarded anytime a party merely alleges that it is unenforceable, the Second Circuit created a circuit split
with the Fourth and Eleventh Circuits.
This Court has instructed that it does not suffice
to simply allege that an agreement to arbitrate is unenforceable; rather, a party seeking to avoid an agreement to arbitrate must show, “upon such grounds as
exist at law or in equity,” that the provision is not enforceable. Rent-A-Center, 561 U.S. at 70 (quoting 9
U.S.C. § 2). Consistent with that guidance, both the
Fourth and Eleventh Circuits have held that a court’s
role under Rent-A-Center is not merely to check a box
that a delegation provision—a separate agreement to
arbitrate the issue of arbitrability—has been “attacked,” but to address and rule on its enforceability
when that has been properly put in issue.

10
In Minnieland Private Day Sch., Inc. v. Applied
Underwriters Captive Risk Assurance Co., 867 F.3d
449 (4th Cir. 2017), the Fourth Circuit held that RentA-Center mandates a two-step process to address this
issue: “[W]e first must decide whether [the party]
lodged a challenge against the delegation provision …,
in particular. Second, if we conclude that [the party]
specifically challenged the enforceability of the delegation provision, we then must decide whether the
delegation provision is unenforceable ‘upon such
grounds as exist at law or in equity.’” Id. at 455 (emphasis added) (quoting 9 U.S.C. § 2).
The Eleventh Circuit, too, has held that a court
may only proceed to review the enforceability of an
agreement to arbitrate as a whole if the court first “determine[s] that the delegation clause is itself invalid
or unenforceable.” Jones v. Waffle House, Inc., 866
F.3d 1257, 1264 (11th Cir. 2017) (quoting Parm v.
Nat’l Bank of Cal., N.A., 835 F.3d 1331, 1335 (11th
Cir. 2016)). As the Eleventh Circuit explained, “before
deciding whether the district court was correct to deny
the motion to compel arbitration, we must determine
whether we can address Jones’s challenge to the delegation provision, and, if so, whether the provision was
valid and enforceable.” Id. at 1264; see also id. at
1264–67 (after concluding that party challenged validity of delegation provision specifically, analyzing
whether delegation provision at issue was enforceable
and ruling that it was).
The Second Circuit here bypassed that second
step when it did not “decide” whether the delegation
provision is enforceable. Instead, the Second Circuit
held that it was enough that the plaintiffs had merely

11

alleged that the delegation provision was unenforcea-

ble, without ever actually considering and ruling on
the merits of that challenge. As the Second Circuit explained, by alleging in their complaint “that ‘the delegation provision of the Purported Arbitration Agreement is also fraudulent,’” plaintiffs had made a “specific attack on the delegation provision … sufficient to
make the issue of arbitrability one for a federal court.”
App. 21a–22a (alteration omitted).
In light of the Second Circuit’s decision, there is
now a clear split among the federal courts of appeal as
to whether, under the FAA, a court must actually adjudicate a challenge to the validity of a delegation
clause before disregarding it, or if a party’s allegation
of invalidity alone suffices. In the Fourth and Eleventh Circuits, such challenges must be resolved by a
court applying traditional rules of contract construction before a delegation provision can be bypassed.
But, in the Second Circuit—where many agreements
to arbitrate are considered by the federal courts—all
that a party seeking to avoid a delegation provision
has to do in order to bypass a delegation provision is
allege that it is unenforceable. This Court should
grant certiorari to resolve that conflict.
II. The Question Presented Will Determine Whether
Arbitration Agreements with a Delegation Provision May Be Nullified Peremptorily, Thwarting
Congressional Intent
Whether a delegation provision can be disregarded anytime a litigant simply alleges that it is not
enforceable is also an important question that impacts
any arbitrable dispute that is subject to a delegation
provision.

12
This Court has recognized repeatedly that the
FAA “was designed to allow parties to avoid the ‘costliness and delays of litigation,’ and to place arbitration
agreements ‘upon the same footing as other contracts,’” thereby “reversing centuries of judicial hostility to arbitration agreements.” E.g., Scherk v. AlbertoCulver Co., 417 U.S. 506, 510–511 (1974) (quoting
H.R. Rep. No. 96, 68th Cong., 1st Sess. 1, 2, (1924));
see also AT&T Mobility LLC v. Concepcion, 563 U.S.
333, 339 (2011) (same); Granite Rock Co. v. Int’l
Broth. Of Teamsters, 561 U.S. 287, 302 (2010) (same);
Hall St. Assocs. L.L.C. v. Mattel, Inc., 552 U.S. 576,
581 (2008) (same); Volt Information Services, Inc. v.
Bd. of Trustees of Leland Stanford Junior Univ., 489
U.S. 468, 474 (1989) (same). To ensure that Congress’
policy choice is respected, this Court has not hesitated
to step in when lower courts fail to enforce parties’ arbitration agreements in accordance with longstanding
contract law, including agreements to submit disputes
regarding arbitrability to an arbitrator. E.g., Henry
Schein, Inc. v. Archer & White Sales, Inc., 139 S. Ct.
524, 531 (2019) (vacating lower court’s order that refused to enforce delegation provision); Rent-A-Center,
West, Inc. v. Jackson, 561 U.S. 63, 76 (2010) (reversing order declining to enforce delegation provision);

see also American Express Co. v. Italian Colors Restaurant, 570 U.S. 228, 233 (2013); CompuCredit Corp.
v. Greenwood, 565 U.S. 95, 98 (2012); AT&T Mobility,

563 U.S. at 339 (each reiterating that lower courts
should enforce arbitration agreements according to
their terms).
To permit a delegation provision to be bypassed in
this manner whenever a party simply claims it is not
enforceable—as happened here—harkens back to the
old judicial antipathy to arbitration that Congress

13
overrode in enacting the Federal Arbitration Act and
that this Court has been at pains to eradicate in its
contemporary jurisprudence. Indeed, if a party to an
arbitration agreement can ask courts to decide issues
of arbitrability when the agreement contains a clear
and unmistakable delegation provision simply by alleging that there is a ground for “attacking” that provision, delegation provisions will be effectively nullified altogether.
Under the decision in this case, any party who
seeks to avoid an arbitration agreement and proceed
in federal court can now be expected to allege in a complaint or include a sentence in a brief asserting that
there is some ground for “attacking” the delegation
provision. Once a party does so, under the approach
taken by the Second Circuit here, it will be for a court
and not an arbitrator to decide whether a dispute is
arbitrable or an agreement to arbitrate is enforceable.
App. 21a–22a.
That result cannot be squared with the FAA’s
mandate to treat arbitration agreements as equivalent to other contracts. Indeed, no court would
properly rule that an ordinary contract can be simply
disregarded merely on the basis of one party’s mere
allegation that it is not enforceable. And yet, that was
the result here with respect to the separately enforceable delegation provision in the plaintiffs’ lending
agreements. This Court’s review is necessary to ensure that Congress’ goals in enacting the FAA and this
Court’s own jurisprudence upholding the enforceability of agreements to arbitrate are not erased.

14
III. The Second Circuit’s Decision Conflicts with This
Court’s Decisions and Is Clearly Erroneous
Not only did the Second Circuit create a circuit
split when it accepted as dispositive plaintiffs’ allegation that the delegation clause was unenforceable,
that decision also directly conflicts with this Court’s
decisions in Rent-A-Center and Schein. This Court
should review this case to correct that significant—
and troubling—error.
The Second Circuit itself recognized “[w]hen an
agreement ‘clearly and unmistakably’ delegates the
issue of arbitrability to the arbitrator, we will enforce
it.” App. 21a. That is mandated by this Court’s decision in Rent-A-Center, West, Inc. v. Jackson, 561 U.S.
63, 69 n.1 (2010).
Here, no one disputes that there is a delegation
provision in the agreements to arbitrate at issue that
“clearly and unmistakably” provides that an arbitrator is to resolve the gateway issue of whether the
agreements to arbitrate are enforceable. The agreements provide that “any Dispute” regarding, inter
alia, “‘the validity, enforceability, or scope’ of the loan
agreement itself or the arbitration provision specifically,” “will be resolved by arbitration.” App. 5a. This
language “clearly and unmistakably” provides that an
arbitrator is to decide whether the agreements to arbitrate are valid and enforceable. See First Options of
Chicago, Inc. v. Kaplan, 514 U.S. 938, 944 (1995). Indeed, the delegation clauses at issue here are strikingly similar to those upheld as enforceable in RentA-Center. See Rent-A-Center, 561 U.S. at 68, 69 & n.1
(concluding that clause providing for arbitrability of
“‘any dispute relating to the … enforceability … of this
Agreement [to arbitrate] including, but not limited to

15
any claim that all or any part of this Agreement is void
or voidable,’” to “clearly and unmistakably” give the
arbitrator authority to decide whether the agreement
to arbitrate was enforceable (ellipses in original)).
The next question, then, is whether the delegation
provision should be enforced. This Court has addressed how that inquiry is to proceed. A delegation
provision is a separate “‘agreement to arbitrate a gateway issue’” concerning arbitrability. See Schein, 139
S. Ct. at 529 (quoting Rent-A-Center, 561 U.S. at 70).
Just as a party may not challenge the validity of an
arbitration agreement by challenging the validity as a
whole of the contract of which it is a part, a party also
may not challenge the validity of a delegation provision by challenging the validity of the more general
agreement to arbitrate of which it is a part. See
Schein, 139 S. Ct. at 530; Rent-A-Center, 561 U.S. at
70–71. This is the “severability rule” mandated by § 2
of the FAA and this Court’s precedents. See id.; see

also generally Buckeye Check Cashing, Inc. v. Cardegna, 546 U.S. 440, 445, 449 (2006) (challenge to “validity of contract as a whole” “must go to the arbitrator” under this rule).

This Court has reiterated this rule on multiple occasions, most recently in Schein. As this Court explained there: “When the parties’ contract delegates
the arbitrability question to an arbitrator, a court may
not override the contract.” 139 S. Ct. at 529. “That is
true even if the court thinks that the argument that
the arbitration agreement applies to a particular dispute is wholly groundless.” Id. Once the parties agree
to submit questions of arbitratbility to an arbitrator,
“a court possesses no power to decide the arbitrability
issue.” Id.

16

Rent-A-Center, Schein, and their progeny thus

dictate that a delegation provision must be enforced,
separate and apart from the agreement to arbitrate of
which it is a part, “save upon such grounds as exist at
law or in equity for the revocation of any contract.”
Rent-A-Center, 561 U.S. at 70 (quoting 9 U.S.C. § 2).
That is, a delegation provision must be enforced pursuant to the FAA unless there is a specific ground for
refusing to enforce that “precise” delegation provision.
See Rent-A-Center, 561 U.S. at 71. Any doubts on this
issue, as with arbitrability generally, must be resolved in favor of arbitration. See Moses H. Cone
Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S. 1, 24–
25 (1983).
For Congress’ mandate to have teeth, a party cannot be permitted to avoid a delegation provision by
merely alleging that it is “fraudulent” or is otherwise
unenforceable. Rather, if the enforceability of a delegation provision, specifically, is put in issue, a court
should then address that issue and rule on it. This
Court recognized that fundamental principle in RentA-Center : “If a party challenges the validity under § 2
of the precise agreement to arbitrate, the federal court
must consider the challenge before ordering compliance with that agreement.” 561 U.S. at 71 (emphasis
added); see also Green Tree Fin. Corp.-Ala. v. Randolph, 531 U.S. 79, 91 (2000) (noting the Supreme
Court’s “prior holdings that the party resisting arbitration bears the burden of proving that the claims at
issue are unsuitable for arbitration”) (emphasis
added).
The Second Circuit took an opposite approach,
though, when it recognized that the delegation provision “appears to give the arbitrator blanket authority

17
over the parties’ disputes,” including as to whether
the agreements to arbitrate are enforceable, but then
declined to enforce that delegation provision or even
rule that it was unenforceable. Rather, the Second
Circuit stated only that the complaint alleges that
“‘the delegation provision of the Purported Arbitration
Agreement is also fraudulent.’” App. 21a–22a. But,
while the court made this observation after reciting
plaintiffs’ complaint allegations, the court did not actually rule on whether the delegation provision is unenforceable because it is “fraudulent” or for any other
reason. 2 Nor did Plaintiffs present a properly supported legal argument that the delegation provision,
specifically, was “fraudulent.”
In so ruling, the Second Circuit issued an opinion
directly contrary to this Court’s pronouncements in
Rent-A-Center and Schein that “[w]hen the parties’
contract delegates the arbitrability question to an arbitrator, a court may not override the contract,” including when “the court thinks that the argument
that the arbitration agreement applies to a particular
dispute is wholly groundless.” Schein, 139 S. Ct. at
529; Rent-A-Center, 561 U.S. at 70–71. While the Second Circuit summarily ruled that Schein has “no bearing on this case,” App. 22a n.3, Schein reiterates the
bedrock principles of federal arbitration law that
“courts must enforce arbitration contracts according
to their terms” and that an agreement to arbitrate a
2

Worse, that referenced allegation, in fact, is not focused on
the enforceability of the delegation provision, in particular, but
concerns the underlying loan transactions and certain features
of the agreement to arbitrate as a whole. See App. 143a (making
allegations about “Defendants’ widespread fraudulent practices”
and provisions for review of an award, including speculation concerning Defendants’ alleged “control” of tribal law).

18
“gateway” issue such as arbitrability is “simply an additional, antecedent agreement the party seeking arbitration asks the federal court to enforce,” 139 S. Ct.
at 529.

Schein also reinforces the rule from Rent-A-Center that a court must enforce a delegation provision in

accordance with Section 2 of the Federal Arbitration
Act because “‘the FAA operates on this additional arbitration agreement just as it does on any other.’”
Schein, 139 S. Ct. at 529 (quoting Rent-A-Center, 561
U.S. at 70). That is, regardless of the merits of the parties’ dispute regarding arbitrability, the delegation
provision must be separately enforced “save upon
such grounds as exist at law or in equity” to revoking
that agreement, specifically. See 9 U.S.C. § 2; see also
Schein, 139 S. Ct. at 529.
The Second Circuit’s decision turns those precedents on their head. This Court should grant certiorari to correct that error.

19
CONCLUSION
The Court should grant the petition for writ of certiorari.
September 11, 2019

Respectfully submitted,

Stephen D. Hibbard
JONES DAY
555 California Street,
26th Floor
San Francisco, CA 94104

Todd R. Geremia

Counsel of Record

James M. Gross
Shirley M. Chan
JONES DAY
250 Vesey Street
New York, NY 10281
(212) 326-3939
trgeremia@jonesday.com

Counsel for Petitioners

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket Nos.16-2019-cv (L); 16-2132-cv; 16-2135-cv;
16-2138-cv; 16-2140-cv (Con)
————
JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED, ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,
Plaintiffs-Appellees,
v.
THINK FINANCE, INC., TC LOAN SERVICE, LLC,
KENNETH E. REES, FORMER PRESIDENT AND CHIEF
EXECUTIVE OFFICER AND CHAIRMAN OF THE BOARD OF
THINK FINANCE, TC DECISION SCIENCES, LLC,
TAILWIND MARKETING, LLC, SEQUOIA CAPITAL
OPERATIONS, LLC, TECHNOLOGY CROSSOVER
VENTURES, JOEL ROSETTE, OFFICIAL CAPACITY AS
CHIEF EXECUTIVE OFFICER OF PLAIN GREEN, TED
WHITFORD, OFFICIAL CAPACITY AS A MEMBER OF PLAIN
GREEN’S BOARD OF DIRECTORS, TIM MCINERNEY,
Defendants-Appellants.
————
August Term, 2016
Argued: May 12, 2017
Decided: April 24, 2019
————
Appeal from the United States District Court
for the District of Vermont
No. 15-cv-101 – Geoffrey W. Crawford, Judge.
————

2a
Before: LEVAL, HALL, and CHIN, Circuit Judges.
Plaintiffs Jessica Gingras and Angela C. Given borrowed money from Plain Green, LLC, an online lending
operation owned by the Chippewa Cree Tribe of the
Rocky Boy’s Indian Reservation in Montana. The
terms of their loan agreements provide for interest
rates well in excess of caps imposed by Vermont law.
Gingras and Given sued, alleging violations of Vermont
and federal law. They seek an injunction against tribal
officers in charge of Plain Green and an award of
money damages against other Defendants.
Some Defendants moved to dismiss, arguing that
tribal sovereign immunity barred the suit. All Defendants moved to compel arbitration under the terms of
the agreements. The district court (Geoffrey W. Crawford,
Judge) denied both motions. We hold that tribal sovereign immunity does not bar this suit because Plaintiffs
may sue tribal officers under a theory analogous to
Ex parte Young for prospective, injunctive relief based
on violations of state and substantive federal law
occurring off of tribal lands. We further hold that the
arbitration clauses of the loan agreements are unenforceable and unconscionable.
AFFIRMED.
————
COLLEEN SINZDAK, Hogan Lovells US LLP,
Washington, DC (Morgan L. Goodspeed, Neal Kumar
Katyal, Hogan Lovells US LLP, Washington, DC;
Richard J. Zack, Matthew B. Homberger, Pepper
Hamilton LLP, Philadelphia, PA, on the brief), for
Defendants-Appellants Joel Rosette, Ted Whitford, and
Tim McInerney.

3a
LEWIS S. WIENER, Sutherland Asbill & Brennan LLP,
Washington, DC (Kymberly Kochis, Sutherland Asbill
& Brennan LLP, New York, NY; Ritchie E. Berger,
Dinse Knapp McAndrew, Burlington, VT; Stephen D.
Hibbard, Jones Day, San Francisco, CA; Todd R.
Geremia, Jones Day, New York, NY; Stephen D. Ellis,
Ellis Boxer & Blake PLLC, Springfield, VT; Richard L.
Scheff, David F. Herman, Montgomery McCracken
Walker & Rhoads LLP, Philadelphia, PA; Thomas
Hefferon, Sabrina Rose-Smith, Matthew Sheldon,
Goodwin Procter LLP, Washington, DC, on the brief),
for Defendants-Appellants Think Finance, Inc., TC
Decision Sciences, LLC, Tailwind Marketing, LLC, TC
Loan Service, LLC, Technology Crossover Ventures,
Kenneth E. Rees, and Sequoia Capital Operations,
LLC.
MATTHEW B. BYRNE, Gravel & Shea PC, Burlington,
VT (Kathleen M. Donovan-Maher, Steven J.
Buttacavoli, Anne F. O’Berry, Steven L. Groopman,
Berman DeValerio, Boston, MA, on the brief), for
Plaintiffs-Appellees.
Jeffrey R. White, Julie Braman Kane, American
Association for Justice, Washington, DC, as amicus
curiae in support of Plaintiffs-Appellees.
Scott L. Nelson, Allison M. Zieve, Public Citizen
Litigation Group, Public Citizen, Inc., Washington,
DC, as amicus curiae in support of PlaintiffsAppellees.
————

4a
HALL, Circuit Judge:
The federal government and many states have
laws designed to protect consumers against predatory
lending practices. In this case, we must determine
what happens when those laws conflict with the offreservation commercial activities of Indian tribes. In
so doing, we probe the boundaries of tribal sovereign
immunity and hold that, notwithstanding tribal sovereign immunity, federal courts may entertain suits
against tribal officers in their official capacities seeking
prospective, injunctive relief prohibiting off-reservation conduct that violates state and substantive federal
law. We also consider the specific lending agreements
between these Plaintiffs and these Defendants and
hold that the agreements’ arbitration clauses are unenforceable and unconscionable.
I.
Payday loans are ostensibly short-term cash advances
for people who face unexpected obligations or emergencies. The loans are typically for small sums that
are to be repaid quickly—in anywhere from several
weeks to a year. “Typically, online lenders charge fees
and interest that, when annualized, result in interest
rates far in excess of legal limits or typical borrowing
rates, often exceeding 300%, 500%, or even 1,000%.”
Vermont Attorney General’s Office, Illegal Lending:
Facts and Figures, at 1 (Apr. 2014). Many states
endeavored to curb such lending practices through
usury laws that set caps on interest rates. For example,
Vermont laws prescribe a maximum interest rate of
24% per annum. See Vt. Stat. Ann. tit. 9, § 41a.
A.
This suit involves payday loans made by Plain
Green, LLC, an online lending operation, which holds

5a
itself out as a ‘’tribal lending entity wholly owned by
the Chippewa Cree Tribe of the Rocky Boy’s Indian
Reservation, Montana.” J. App. 150. The borrowers
are Plaintiffs-Appellees Jessica Gingras and Angela
Given, who are Vermont residents. In July 2011, Gingras
borrowed $1,050 at an interest rate of 198.17% per
annum. She repaid that loan and borrowed an additional $2,900 a year later, this time with an interest
rate of 371.82%. She has not repaid the second loan.
Also in July 2011, Given borrowed $1,250 at a rate of
198.45%. Given paid off that loan in July 2012 and,
within a few days of repayment, took out another loan
for $2,000 at a rate of 159.46%. She also borrowed
$250 in May 2013 at a rate of 376.13%, which she
repaid quickly, and in July 2013 borrowed $3,000 at a
rate of 59.83%. Given has not repaid the most recent
loan.
To receive their loans, Gingras and Given were
required to sign loan agreements. Those loan agreements provide for arbitration in the event of a dispute
between the borrower and Plain Green. One such
provision is a delegation clause whereby the parties
agree that “any Dispute . . . will be resolved by
arbitration in accordance with Chippewa Cree tribal
law.” Id. 114– 15. The agreement defines a “Dispute”
as “any controversy or claim between” the borrower
and the lender, “based on a tribal, federal or state
constitution, statute, ordinance, regulation, or common
law.” Id. 115. “Dispute” includes “any issue concerning
the validity, enforceability, or scope” of the loan agreement itself or the arbitration provision specifically. Id.
A separate provision of the agreement vests authority
to decide the validity of a class action lawsuit waiver
and class-wide arbitration waivers in Chippewa Cree
tribal court, not in an arbitrator. Id. 265.

6a
The loan agreements also provide that Chippewa
Cree tribal law governs the loan agreement and any
dispute arising under it. An arbitrator, whom the
borrower may select from the American Arbitration
Association (“AAA”) or JAMS, “shall apply Tribal Law”
and any arbitral award must “be supported by substantial evidence and must be consistent with [the
loan agreement] and Tribal Law.” Id. Chippewa Cree
tribal courts are empowered to set aside the arbitrator’s award if it does not comply with tribal law.
See id.
The agreements’ command to apply tribal law also
includes provisions stating “[n]either this Agreement
nor the Lender is subject to the laws of any state of
the United States,” id. 263, and the agreements are
“subject solely to the exclusive laws and jurisdiction of
the Chippewa Cree Tribe of the Rocky Boy Indian
Reservation” such that “no other state or federal law
or regulation shall apply,” id. 258. To the extent that
AAA or JAMS policies and procedures conflict with
tribal law, tribal law prevails.
The loan agreements allow borrowers to opt out of
arbitration, but only if they exercise that option within
sixty days of receiving the loan. If a borrower opts out,
the agreements provide that their only recourse is to
sue under tribal law in tribal courts. Neither Gingras
nor Given opted out.
B.
Gingras and Given allege that the loan agreements
violate Vermont and federal law. The loans originated
from Plain Green, LLC. Plain Green’s Chief Executive
Officer is Defendant Joel Rosette; two members of
Plain Green’s Board of Directors, Ted Whitford and
Tim McInerney, are also defendants. Gingras and

7a
Given sued all three, whom we refer to as the Tribal
Defendants, in their official capacities for prospective
declaratory and injunctive relief.
The suit also names as defendants Think Finance,
Inc. and its former President, Chief Executive Officer,
and Chairman of the Board, Kenneth Rees. Plain
Green employs Think Finance and its subsidiaries,
Defendants TC Decision Sciences, LLC, Tailwind
Marketing, LLC, and TC Loan Service, LLC, to service
Plain Green loans. Defendants Sequoia Capital Operations, LLC and Technology Crossover Ventures provide
funding for the lending operation.
Plaintiffs allege that Think Finance and the Tribe
agreed on various terms for the loans, including charging annual interest rates between 60% and 360% and
establishing a maximum loan amount of $2,500. They
allege that this arrangement was created to “circumvent” the “stringent laws [that] have been enacted
to prescribe how loans can be made and to prevent
lenders from preying on indigent people,” and to “take
advantage of legal doctrines, such as tribal immunity,
to avoid liability for their actions” in violating various
federal and state lending laws. Id. 29.
C.
Gingras and Given brought this class action in the
District of Vermont, seeking, among other relief, an
order barring Defendants from continuing their current lending practices. Relevant to this appeal, the
Tribal Defendants moved to dismiss, arguing that they
are entitled to tribal sovereign immunity. The district
court disagreed and denied their motion. It concluded
that tribal sovereign immunity does not bar suit against
the Tribal Defendants in their official capacities for
prospective, injunctive relief under a theory analogous

8a
to Ex parte Young, 209 U.S. 123 (1908). Specifically,
the district court read the Supreme Court’s decision in
Michigan v. Bay Mills Indian Community, 572 U.S.
782 (2014), to condone that form of action to vindicate
violations of state law. See Gingras v. Rosette, No. 15cv-101, 2016 WL 2932163, at *4–7 (D. Vt. May 18,
2016).
All Defendants also moved to compel arbitration
pursuant to the loan agreements. The district court
denied those motions. It concluded that the arbitration
agreements are unconscionable and unenforceable
because they insulate Defendants from claims that
they have violated state and federal laws. See id. at
*13–18. In particular, it held that because the agreements apply tribal law exclusively and restrict all
arbitral awards review solely by a tribal court, the
neutral arbitral forum is illusory. All Defendants timely
appealed.
II.
We first ensure that we have appellate jurisdiction
of this interlocutory appeal. The district court denied
two types of motions relevant to this appeal: motions
to compel arbitration and motions to dismiss. Appellate
jurisdiction over the motions to compel arbitration
is easy enough—we exercise appellate jurisdiction
under the Federal Arbitration Act (“FAA”), 9 U.S.C.
§ 16(a)(1)(C).
As for the portion of the Tribal Defendants’ motion
to dismiss based on the denial of tribal sovereign
immunity, we have jurisdiction over that appeal, too.
Interlocutory review under the collateral order doctrine
is available when an order “conclusively determine[s]
the disputed question, resolve[s] an important issue
completely separate from the merits of the action, and

9a
[is] effectively unreviewable on appeal from a final
judgment.” Coopers & Lybrand v. Livesay, 437 U.S.
463, 468 (1978). As is the case here, denials of tribal
sovereign immunity at the motion to dismiss stage
conclusively determine the immunity question, and
that question is one completely separate from the
merits of the action. See Burlington N. & Santa Fe Ry.
Co. v. Vaughn, 509 F.3d 1085, 1090 (9th Cir. 2007).
Like Eleventh Amendment immunity, foreign sovereign
immunity, and qualified immunity, tribal sovereign
immunity is immunity from suit, not merely immunity
from liability. See Kiowa Tribe of Okla. v. Mfg. Techs.,
Inc., 523 U.S. 751, 754 (1998); Tamiami Partners, Ltd.
v. Miccosukee Tribe of Indians of Fla., 63 F.3d 1030,
1050 (11th Cir. 1995) (“Tribal sovereign immunity
would be rendered meaningless if a suit against a tribe
asserting its immunity were allowed to proceed to
trial.”). Thus, because denial of that immunity is “effectively unreviewable on appeal from a final judgment,”
Coopers & Lybrand, 437 U.S. at 468, we have jurisdiction over this interlocutory appeal.
III.
We review de novo the district court’s legal conclusions in denying the Tribal Defendants’ motion to
dismiss based on tribal sovereign immunity. See Garcia
v. Akwesasne Hous. Auth., 268 F.3d 76, 84 (2d Cir.
2001). We review the district court’s factual findings
for clear error. Id.
Indian tribes occupy a unique space in our constitutional structure. They are “domestic dependent nations”
that, on one hand, “exercise inherent sovereign authority,” but, on the other hand, are “subject to plenary
control by Congress.” Bay Mills, 572 U.S. at 788
(internal quotation marks omitted). Indian tribes are
“separate sovereigns pre-existing the Constitution,”

10a
Santa Clara Pueblo v. Martinez, 436 U.S. 49, 56
(1978), and possess all core aspects of sovereignty, at
least until Congress says otherwise, see Bay Mills, 572
U.S. at 788.
One of the “core aspects of sovereignty” that tribes
enjoy is the “common-law immunity from suit.” Id.
(quoting Santa Clara Pueblo, 436 U.S. at 58). That
immunity extends even to suits arising from a tribe’s
commercial activities off Indian lands. See Kiowa, 523
U.S. at 760. Absent waiver or an unequivocal abrogation of tribal sovereign immunity by Congress, tribes
are shielded from liability. See Santa Clara Pueblo,
436 U.S. at 58. Although the origins and the “wisdom”
of the tribal sovereign immunity doctrine have been
questioned, see Kiowa, 523 U.S. at 758; Bay Mills, 572
U.S. at 815 (Thomas, J., dissenting); New York v.
Shinnecock Indian Nation, 686 F.3d 133, 148–49
(Hall, J., dissenting), its existence is settled law, and
apply it we must.
The Tribal Defendants here argue that because
Plain Green is an “arm of the Tribe,” they are entitled
to immunity from all state law claims as well as
Plaintiffs’ federal RICO claim. We disagree and hold
that under a theory analogous to Ex parte Young, tribal
sovereign immunity does not bar state and substantive federal law claims for prospective, injunctive relief
against tribal officials in their official capacities for
conduct occurring off of the reservation.
A.
We consider in the first instance whether Plain Green
is an “arm of the tribe,” such that tribal sovereign
immunity theoretically shields its officers. Plaintiffs
contend that it is not because, as we have said, “a tribe
has no legitimate interest in selling an opportunity to

11a
evade state law.” Otoe-Missouria Tribe of Indians v.
N.Y. State Dep’t of Fin. Servs., 769 F.3d 105, 114 (2d
Cir. 2014). Plaintiffs thus argue that Plain Green is a
“fraudulent enterprise” that cannot be shielded by a
purchased cloak of immunity. Appellee Br. at 21.
We need not definitively answer this question, however, because Plaintiffs have not sued Plain Green.
Rather, they have sued several of Plain Green’s officers
in their official capacities on a theory analogous to
Ex parte Young. It is sufficient for us, therefore, to
assume that Plain Green and its officers would
ordinarily be immune save for some common law
exception, waiver, or congressional abrogation. As the
district court did, we proceed on that understanding.
B.
Tribal sovereign immunity notwithstanding, “[a]bsent
express federal law to the contrary, Indians going
beyond reservation boundaries have generally been
held subject to non-discriminatory state law otherwise
applicable to all citizens of the State.” Mescalero Apache
Tribe v. Jones, 411 U.S. 145, 148–49 (1973). The Tribal
Defendants here engaged in conduct outside of Indian
lands when they extended loans to the Plaintiffs in
Vermont. But, as the Supreme Court has said, there is
a difference between demanding that tribes comply
with a law and having the means available to force
them to do so. See Kiowa, 523 U.S. at 755.
Accordingly, Plaintiffs here rely on an exception
to sovereign immunity first announced in Ex parte
Young, 209 U.S. 123. Ex parte Young permits plaintiffs
seeking prospective, injunctive relief to sue state government officials for violations of federal law. Id. at
133. Given that tribal immunity arises from tribes’
statuses as sovereigns, it is unremarkable that they

12a
too can be sued for prospective, injunctive relief based
on violations of federal law. The question before us,
however, is whether Plaintiffs can sue tribal officials,
in their official capacities, for prospective, injunctive
relief to bar violations of state law. We hold that they
can.
The first and most obvious justification for our
affirmative answer to this question is that the
Supreme Court has already blessed Ex parte Youngby-analogy suits against tribal officials for violations
of state law. In Bay Mills, the Supreme Court considered Michigan’s lawsuit against the tribe for opening
a casino outside Indian lands. 572 U.S. at 785. The
Court held that the federal Indian Gaming Regulatory
Act (“IGRA”) did not abrogate tribal sovereign immunity,
and thus Michigan’s suit was barred. Id. The Court
made clear, however, that Michigan could still “resort
to other mechanisms, including legal actions against
the responsible individuals” to vindicate violations of
Michigan state law. Id. In exploring the limits of tribal
sovereign immunity for conduct beyond Indian land,
the Supreme Court recognized that “Michigan could
bring suit against tribal officials or employees (rather
than the Tribe itself) seeking an injunction.” Id. at 796
(emphasis added); see Santa Clara Pueblo, 436 U.S. at
59. We think this plain statement that tribal officials
can be sued to stop unlawful conduct by a tribe
definitively resolves the issue here.1

1

We join the Eleventh Circuit in so holding. See Alabama v.
PCI Gaming Auth., 801 F.3d 1278, 1290 (11th Cir. 2015) (“[T]ribal
officials may be subject to suit in federal court for violations of
state law under the fiction of Ex parte Young when their conduct
occurs outside of Indian lands.”).

13a
The Tribal Defendants disagree and offer three arguments why the Supreme Court did not intend to say
what it did. None is persuasive.
First, the Tribal Defendants argue that the Supreme
Court’s extended discussion of alternative remedies
available to Michigan was dicta—dicta that accidentally
overruled its “canonical” decision in Pennhurst State
School & Hospital v. Halderman, 465 U.S. 89 (1984).
But the Bay Mills opinion makes clear that the
availability of Ex parte Young-type actions for violations of state law was both necessary to the holding
and perfectly consistent with Pennhurst.
In considering whether the IGRA abrogated tribal
sovereign immunity, the Court noted that Congress
intended to fix a hole in the law that prevented states
from suing over gaming violations on Indian lands.
Bay Mills, 572 U.S. 790–93. It held that the IGRA did
not abrogate tribal sovereign immunity for gaming
violations occurring off Indian lands, however, because
states already had other ways to vindicate state gaming
law violations there. Id. at 794–95. The petitioners in
Bay Mills also asked the Court to revisit its decision in
Kiowa, which extended tribal sovereign immunity
to off-reservation commercial activity. Id. at 791.
The Court declined, largely on stare decisis grounds. It
noted that “[a]dhering to stare decisis is particularly
appropriate here given that the State, as we have
shown, has many alternative remedies: It has no need
to sue the Tribe to right the wrong it alleges.” Id. at
799 n.8.
Three distinct opinions in Bay Mills recognized the
availability of Ex parte Young actions for violations of
state law. Id. at 796; id. at 809 (Sotomayor, J., concurring) (rejecting the dissent’s “concern that, although
tribal leaders can be sued for prospective relief,”

14a
(citing majority op.), Tribes’ purportedly growing
coffers remain unexposed to broad damages liability.”
(citing dissenting op.)); id. at 822–24 (Thomas, J.,
dissenting). The ability to sue tribal officials for
violations of state law, then, was critical to the Court’s
analysis and necessary to its holding.
Bay Mills also did not upset decades of immunity
jurisprudence, as the Tribal Defendants contend. It is
true that in Pennhurst, the Supreme Court declined to
extend the Ex parte Young rationale to suits seeking
to hold state officials accountable for violations of that
state’s laws. 465 U.S. at 106. The Court said that “the
Young doctrine has been accepted as necessary to
permit the federal courts to vindicate federal rights
and hold state officials responsible to ‘the supreme
authority of the United States.’” Id. at 105 (quoting Ex
parte Young, 209 U.S. at 160). Indeed, for a suit
seeking an injunction against an official for violating
his own state’s laws,
the entire basis for the doctrine of Young and
Edelman disappears. A federal court’s grant
of relief against the state officials on the basis
of state law, whether prospective or retroactive, does not vindicate the supreme authority
of federal law. On the contrary, it is difficult
to think of a greater intrusion on state sovereignty than when a federal court instructs
state officials on how to conform their conduct
to state law.
Id. at 106.
That case and others subsequently declining to hold
state officials accountable for violations of their own
state laws raise real concerns about federal courts
infringing on state sovereignty. But this case does not.

15a
There is a minimal intrusion on sovereignty if federal
courts are available as forums for enforcing violations
of a state’s law against tribal officials because tribes
cannot empower their officials to violate state law the
way a state can interpret its own laws to permit a state
official’s challenged conduct. See Mescalero Apache,
411 U.S. at 148–49. Put differently, concerns of sovereignty oblige the federal courts not to instruct a state
official how to conform her conduct to her own state
law and not to instruct a tribal official how to conform
his conduct to his own tribal law. There are no concomitant sovereignty concerns, however, that prevent
the federal courts from instructing a tribal official how
to conform that official’s conduct to either state or
federal law. The Bay Mills Court’s recognition that
tribal officials may be sued for violations of state law
thus stands in harmony with Pennhurst.
The majority in Bay Mills acknowledged that its
holding was anything but novel. In discussing how
Michigan could seek an injunction against tribal
officials for violating Michigan law, the Court cited
Santa Clara Pueblo and said “[a]s this Court has
stated before, analogizing to Ex parte Young, tribal
immunity does not bar such a suit for injunctive relief
against individuals, including tribal officers, responsible for unlawful conduct.” Bay Mills, 572 U.S. at 796
(citation omitted). Bay Mills was not a wayward departure from, but rather a clear demarcation of, the outer
limits of tribal sovereign immunity.
The Tribal Defendants offer a second reason why
we should marginalize Bay Mills’s observation: the
Supreme Court must have intended to authorize only
individual capacity suits against tribal officials who
violate state law. We see no basis to give Bay Mills
such a cramped reading. The majority opinion states

16a
that “Michigan could bring suit against tribal officials
or employees (rather than the tribe itself) . . . .” Id. It
makes little sense that the Supreme Court would take
care to distinguish between tribal officials and employees, on the one hand, and the Tribe itself, on the other,
if the Court did not intend that there be a difference.
That passage is most logically read to mean that official capacity suits are available against tribal officials,
individual capacity suits are also available to be
brought, and tribal sovereign immunity bars only suits
against the Tribe itself.
In addition, the Tribal Defendants’ proffered reading
makes little sense because the only material difference
between individual and official capacity suits for
prospective, injunctive relief is that a judgment against
the latter is enforceable against future successive
officers whereas judgments against the former are not.
See, e.g., Lewis v. Clarke, 137 S. Ct. 1285, 1291 (2017).
From an efficiency perspective, it is impractical to
require a new lawsuit and a new injunction each time
a tribal official is replaced. We will not impose such a
requirement here.
Finally, the Tribal Defendants urge us to construe
Bay Mills as authorizing only states to sue tribal officials for prospective, injunctive relief based on violations
of state law and not as authorizing individuals to
bring those same suits. Yet “there is no warrant in [the
Supreme Court’s] cases for making the validity of an
Ex parte Young action turn on the identity of the
plaintiff.” Va. Office for Protection and Advocacy v.
Stewart, 563 U.S. 247, 256 (2011). The Supreme Court
in Bay Mills faced a suit brought by a state. It
therefore makes sense that it would speak in terms of
Michigan being able to sue, without reference to
individuals. Official capacity suits, however, have long

17a
been available to private parties. See Larson v.
Domestic & Foreign Commerce Corp., 337 U.S. 682,
689–92 (1949); Shields v. Utah Idaho Cent. R.R. Co.,
305 U.S. 177, 183–84 (1938); see also Vann v. U.S.
Dep’t of Interior, 701 F.3d 927, 929 (D.C. Cir. 2012)
(permitting official-capacity suits of travel officials
by private parties under analogy to Ex Parte Young).
States often rely on private parties to act as “private
attorneys general” to enforce state law. See, e.g., Vt.
Stat. Ann. tit. 9, § 2461 (authorizing private enforcement of the Vermont Consumer Protection Act). We
see no reason to depart from that tradition now.
Our holding balances the competing interests of
tribes and states as separate sovereigns. Absent this
mechanism for a state to enforce its laws against outof-state tribal officials, the state and its citizens would
seemingly be without recourse. Tribes and their officials
would be free, in conducting affairs outside of reserved
lands, to violate state laws with impunity. Given the
unique geographic and political position of Indian
tribes, allowing such conduct by tribes is especially
fraught. The Constitution vests original jurisdiction
in the Supreme Court for states to sue other states
(a relinquishment of sovereignty originating from the
Constitutional Convention, in which, regrettably, Indian
tribes were not allowed to participate), see U.S. Const.
art. III, § 2, cl. 2, but it provides no parallel avenue
for disputes between states and tribes. An Ex parte
Young-type suit protects a state’s important interest
in enforcing its own laws and the federal government’s
strong interest in providing a neutral forum for
the peaceful resolution of disputes between domestic
sovereigns, and it fairly holds Indian tribes acting
off-reservation to their obligation to comply with
generally applicable state law.

18a
C.
Apart from arguing that the Ex parte Young-like
theory is unavailable for violations of state law, the
Tribal Defendants also take issue with the application
of Ex parte Young for alleged violations of the federal
Racketeer Influenced and Corrupt Organizations Act
(“RICO”), 18 U.S.C. §§ 1961 et seq. We hold that
Plaintiffs’ RICO claims may proceed.
As the Tribal Defendants acknowledge, Ex parte
law. We have said, however, that the federal law und
Young suits are available for alleged violations of
federal er which a plaintiff seeks the injunction must
provide the plaintiff with a private right of action, and
the law must apply substantively to the tribe. See
Garcia, 268 F.3d at 88. The Tribal Defendants contend
that Plaintiffs’ RICO claim fails on both counts. We
disagree.
First, as the Tribal Defendants concede, binding
Circuit precedent compels us to hold that RICO authorizes private rights of action for injunctive relief. See
Chevron Corp. v. Donzinger, 833 F.3d 74, 137 (2d Cir.
2016) (holding that “a federal court is authorized to
grant equitable relief to a private plaintiff who has
proven injury to its business or property by reason of
a defendant’s violation of [18 U.S.C.] § 1962”).
Second, we hold that in these circumstances, RICO
applies substantively to the Tribe. The Tribal Defendants argue that government entities like the Tribe,
and “arms of the Tribe” like Plain Green, are not
subject to RICO liability because they are incapable of
forming the mens rea necessary to commit a predicate
act. They argue that specific intent to defraud is an
element of the predicate acts of mail and wire fraud,

19a
and thus the payday lending entity cannot be subject
to RICO liability.
Some district courts (and at least one treatise) endorse
a rule that government entities, and their officers sued
in their official capacities, cannot ordinarily be sued
under RICO. See, e.g., Frooks v. Town of Cortlandt,
997 F. Supp. 438, 457 (S.D.N.Y. 1998); Nu-Life Constr.
Corp. v. Bd. of Educ. of the City of N.Y., 779 F. Supp.
248, 251 (E.D.N.Y. 1991); Gregory P. Joseph, Civil
RICO: A Definitive Guide § 11A, at 109–13 (4th ed.
2015). At least as to suits for prospective, injunctive
relief, their reasoning is not persuasive. We agree with
the Third Circuit that courts exempting municipalities
from RICO liability on the ground that they are
incapable of forming a RICO mens rea have failed to
furnish a defensible explanation for their conclusion,
see Genty v. Resolution Trust Corp., 937 F.2d 899, 909
(3d Cir. 1991), particularly given that private corporations are routinely held liable for damages under RICO.
It appears that the reasoning in these and other
decisions has less to do with the inability of a public
entity to form a criminal intent than with concern
over the appropriateness of imposing the burden of
punitive damages on taxpayers based on misconduct
of a public official. For example, while the Ninth
Circuit in Lancaster Community Hospital v. Antelope
Valley Hospital District, 940 F.2d 397 (9th Cir. 1991),
summarily asserts that “government entities are
incapable of forming a malicious intent,” it relies on
the fact that “the taxpayers[] will pay if Lancaster’s
RICO claim is successful,” and, in light of RICO’s
treble damages provisions, be “made liable for extraordinary damages as a result of the actions of a few

20a
dishonest officials.” Id. at 404. This outcome, the court
observes, would offend “public policy.”2 Id.
But concern for the inappropriateness of saddling
the taxpayers with the financial burden of punitive
damages imposed on a government entity is plainly
not implicated where, as here, the relief sought is an
injunction and not money damages. Accordingly, we
hold that Plaintiffs’ RICO claim applies substantively
to the Tribal Defendants in this case.
IV.
We turn next to the motions of all the Defendants to
compel arbitration. The district court denied these
motions, concluding that the dispute belongs instead
in federal court because the loan agreements effectively insulate Defendants from claims that they have
violated federal and state law. See Gingras, 2016 WL
2932163, at *18. We affirm the district court’s ruling.

2

Furthermore, the Supreme Court’s ruling in Newport v. Fact
Concerts, Inc., 453 U.S. 247 (1981), on which Lancaster and other
decisions rely, did not base its analysis on the inability of municipalities to form “criminal” or “willful” intent. Rather, in holding
that Congress did not intend for punitive damages to be available
under § 1983, the Court relied on the fact that “municipal immunity
from punitive damages was well established at common law by
1871,” such that Congress would have explicitly stated its intention to displace that common law doctrine if it intended to do so.
Id. at 263. The Court cited state common law holdings, which
were in most cases explained in terms of avoiding an undue
financial burden on taxpayers, although in some cases based on
the inability of municipalities to form “criminal” or “willful”
intent necessary to support punitive damages. But Newport did
not adopt that rationale. It was merely mentioned as the justification some states had given for not allowing punitive damages
against municipalities. See id. at 260–66.

21a
A.
The first question is who decides arbitrability, a
question we review de novo to determine “whether
the issue of arbitrability is for the court or for the
arbitrator.” Bell v. Cendant Corp., 293 F.3d 563, 565
(2d Cir. 2002).
Parties to an arbitration agreement can, of course,
“agree to arbitrate ‘gateway’ questions of ‘arbitrability.’”
Rent-A-Center, W., Inc. v. Jackson, 561 U.S. 63, 68–69
(2010) (quoting Howsam v. Dean Witter Reynolds, Inc.,
537 U.S. 79, 83–85 (2002)). When an agreement
“clearly and unmistakably” delegates the issue of
arbitrability to the arbitrator, we will enforce it. See
id. at 69 n.1 (internal quotation marks omitted).
Defendants argue that the agreements unambiguously require the parties’ disagreements to be arbitrated.
The agreements refer “any dispute” to “binding
arbitration” and define “Dispute” to include “any issue
concerning the validity, enforceability, or scope of . . .
the Agreement to Arbitrate.” J. App. 114–15. Although
on its face this clause appears to give the arbitrator
blanket authority over the parties’ disputes, several
issues give us pause. These include provisions governing class actions, such as this, and the actual scope of
the arbitrator’s authority, given the broad authority of
tribal courts to set aside the arbitrator’s award. See id.
116.
In any event, “[i]f a party challenges the validity
under [9 U.S.C.] § 2 of the precise agreement to
arbitrate at issue, the federal court must consider the
challenge before ordering compliance with that agreement under § 4.” Rent-A-Center, 561 U.S. at 71.
Plaintiffs mount a convincing challenge to the arbitration clause itself. Their complaint alleges that “[t]he

22a
delegation provision of the Purported Arbitration
Agreement is also fraudulent.” J. App. 55. That
specific attack on the delegation provision is sufficient
to make the issue of arbitrability one for a federal
court. See Rent-A-Center, 561 U.S. at 71; see also 9
U.S.C. § 2. The district court was correct to decide it,
and we properly consider it on appellate review.3
B.
We next ask whether the arbitration agreements are
enforceable. The Federal Arbitration Act (“FAA”)
expresses a preference for enforcing arbitration clauses,
“save upon such grounds as exist at law or in equity
for the revocation of any contract.” 9 U.S.C. § 2.
Unconscionability is one such ground. Under Vermont
law, a contract provision may be unenforceable
where the provision is procedurally unconscionable,
substantively unconscionable, or both. See Glassford
v. BrickKicker, 35 A.3d 1044, 1048–49 (Vt. 2011). We
review de novo the district court’s denial of the motions
to compel arbitration. Lloyd v. J.P. Morgan Chase &
Co., 791 F.3d 265, 269 (2d Cir. 2015).
This case, and the tribe-payday lending partnership
it challenges, is not unique. Courts across the country
have confronted transparent attempts to deploy tribal
sovereign immunity to skirt state and federal consumer protection laws. Bay Mills, 572 U.S. at 825
(Scalia, J., dissenting). Part of this scheme involves
3

Defendants would have us believe that the Supreme Court’s
recent decision in Henry Schein, Inc. v. Arthur & White Sales,
Inc., 139 S. Ct. 524 (2019), requires a different outcome. But
Schein dealt with an exception to the threshold arbitrability
question—the so-called “wholly groundless” exception—not a
challenge to the validity of an arbitration clause itself. See id. at
529–31. As such, Schein has no bearing on this case.

23a
crafting arbitration agreements like the ones here, in
which borrowers are forced to disclaim the application
of federal and state law in favor of tribal law (that
may or may not be exceedingly favorable to the tribal
lending entity). Like the Fourth and Seventh Circuits,
we are not sold. We hold that the agreements here are
both unenforceable and unconscionable. See Hayes v.
Delbert Servs. Corp., 811 F.3d 666 (4th Cir. 2016);
Jackson v. Payday Fin., LLC, 764 F.3d 765 (7th Cir.
2014).
First, we conclude that the arbitration agreements
are unenforceable because they are designed to avoid
federal and state consumer protection laws. Similar to
the agreement in Hayes, Plaintiffs’ agreements here
require the application of tribal law only and disclaim
the application of state and federal law.4 See J. App.
116–17. The arbitration mechanism in these agree4

Defendants point to the arbitration agreements’ definition of
“disputes” to argue that, unlike the agreement in Hayes, these
agreements do not explicitly disclaim federal law. That definition
provides that a dispute includes claims based on a “federal
or state constitution, statute, ordinance, regulation, or common
law.” J. App. 115. But it is far from clear what import this
provision provides given that two pages later the agreements
specifically state that “[n]either this Agreement nor the Lender
is subject to the laws of any state of the United States.” Id. 117
(emphasis added). Further, and despite the lack of a similar
provision in the arbitration agreement explicitly disclaiming the
application of federal law, the loan agreements themselves insist
that the borrower “acknowledge[s] and consent[s] to be bound to
the terms of this Agreement, consent[s] to the sole subject matter
and personal jurisdiction of the Chippewa Cree Tribal Court, and
further agree[s] that no other state or federal law or regulation
shall apply to this Agreement, its enforcement or interpretation.”
Id. 109 (emphasis added). At best, then, Defendants can claim
that the agreements intentionally obfuscate, as opposed to
explicitly disclaim, the application of federal law.

24a
ments purports to offer neutral dispute resolution but
appears to disallow claims brought under federal and
state law. And the Supreme Court has made clear that
arbitration agreements that waive a party’s right to
pursue federal statutory remedies are prohibited. See
Am. Exp. Co. v. Italian Colors Rest., 570 U.S. 228, 235–
36 (2013). By applying tribal law only, arbitration for
the Plain Green borrowers appears wholly to foreclose
them from vindicating rights granted by federal and
state law. We agree with the Fourth Circuit that “[t]he
just and efficient system of arbitration intended by
Congress when it passed the FAA may not play host to
this sort of farce.” Hayes, 811 F.3d at 674.
Defendants’ argument that tribal law perhaps incorporates, or can be supplemented with, some federal
law or Montana law does not save the agreements.
It is altogether unclear what that incorporation or
supplementation would look like. Tribal law is generally unavailable outside of the reservation, and Plaintiffs
plausibly allege that any tribal law that would be
applied has been carefully tailored to protect Plain
Green’s interests. See J. App. 73 (“[The Tribe agreed
to] adopt a finance code that is acceptable to all parties
and provide for the licensing of an arm of the tribe to
engage in consumer lending.”). Tribal law provides
no guarantee that federal and state statutory rights
could be pursued, much less vindicated, in this arbitral
forum.
Second, we conclude that the arbitration agreements
are substantively unconscionable under Vermont law
because the arbitral forum for which they provide is
illusory. While the agreements provide for arbitration
to be conducted by an AAA or JAMS arbitrator at a
location convenient for the borrower, the mechanism
of tribal court review hollows out those protections.

25a
Rather than the sharply limited federal court review
of the arbitrators’ decisions as constrained by the FAA,
the review by tribal courts under these agreements
hands those courts unfettered discretion to overturn
an arbitrator’s award. See id. 116 (any arbitral award
“may be set aside by the tribal court upon judicial
review”). Ultimately, the tribal court is directed to
interpret its own law—alleged to be completely onesided in favor of the tribe—which effectively insulates
the tribe from any adverse award and leaves prospective litigants without a fair chance of prevailing in
arbitration. See Jackson, 764 F.3d at 778–79 (applying
Illinois law).
Adding to the unconscionability of arbitrating under
these terms are the allegations of corruption in tribal
government. Not only have several tribal officers pleaded
guilty to federal corruption crimes, but an FBI and
Interior Department investigation uncovered tribal
judges who felt intimidated enough to rule for the
Tribe when they otherwise may not have. See J. App.
279–81. Requiring non-tribal plaintiffs to be subject to
an illusory arbitration reviewed in toto by a tribal
court with a strong interest in avoiding an award
adverse to the lender is unconscionable.
Nor do the opt-out provisions save the agreements.
Plaintiffs must opt out within 60 days of entering
the agreement, which is unlikely for unsophisticated
payday loan borrowers who may well be stuck in a
cycle of debt and require a stream of new loans to pay
off old loans. Further, opting out merely puts plaintiffs
in tribal court—the same hostile forum in which they
would end up after arbitration.

26a
C.
Finally, we must determine whether any clause
ought to be severed from the agreements. Under the
FAA, “an arbitration provision is severable from the
remainder of the contract” unless there is a separate
challenge “directed specifically to the agreement to
arbitrate.” Rent-A-Center, 561 U.S. at 71. We are well
aware of our obligation to “rigorously enforce arbitration agreements according to their terms,” United
Bhd. of Carpenters & Joiners of Am. v. Tappan Zee
Constructors, LLC, 804 F.3d 270, 274 (2d Cir. 2015)
(internal quotation marks omitted), but Plaintiffs mount
a specific, separate challenge to the arbitration clause.
That that challenge overlaps with the challenges to
the balance of the loan agreement does not change our
analysis.
And as the district court recognized, Plaintiffs’ substantive challenges to the loan agreements are based
on federal and state consumer protection laws. The
challenge to the arbitration provisions is based on
unconscionability, which we have analyzed above. We
find no basis therefore to sever any particular provision of the arbitration agreement because, given the
pervasive, unconscionable effects of the arbitration
agreement interwoven within it, nothing meaningful
would be left to enforce.
V.
Plain Green is a payday lending entity cleverly
designed to enabled Defendants to skirt federal and
state consumer protection laws under the cloak of
tribal sovereign immunity. That immunity is a shield,
however, not a sword. It poses no barrier to plaintiffs
seeking prospective equitable relief for violations of
federal or state law. Tribes and their officers are

27a
not free to operate outside of Indian lands without
conforming their conduct in these areas to federal and
state law. Attempts to disclaim application of federal
and state law in an arbitral forum subject to exclusive
tribal court review fare no better. The judgment of the
district court is affirmed.5

5

The district court correctly concluded that, because an Ex
parte Young-style suit is limited to prospective injunctive relief,
it does not permit the type of constructive trust remedy for unjust
enrichment also sought here by Plaintiffs. See Gingras, 2016 WL
2932163, at *5, *26 n.26; see also Edelman v. Jordan, 415 U.S.
651, 665–66 (1974) (“equitable restitution” remedy impermissible
under Ex parte Young because it effectively constituted a money
judgment). A further question may be whether an injunction
barring the Tribe from recovering the principal of its loans might
cross the same line, either on the theory that the lent money
belongs to the Tribe, or that such injunctive relief “transfers”
from the tribe’s coffers an asset (the receivable), which is effectively equivalent to money. Without expressing any view, we note
this issue for the district court’s consideration at some appropriate point. As Plaintiffs’ demands include injunctive relief that
undoubtedly falls within the protected scope of Ex parte Young,
the question whether an injunction barring recovery of the
principal of a loan is outside the scope allowed by Ex parte Young
might be deferred to a later stage in the proceedings.

28a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF VERMONT
————
Case No. 5:15-cv-101
————
JESSICA GINGRAS AND ANGELA C. GIVEN, ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,
Plaintiffs,
v.
JOEL ROSETTE, TED WHITFORD, TIM MCINERNEY,
THINK FINANCE, INC., TC LOAN SERVICE, LLC,
KENNETH E. REES, TC DECISION SCIENCES, LLC,
TAILWIND MARKETING, LLC, SEQUOIA
CAPITAL OPERATIONS, LLC AND
TECHNOLOGY CROSSOVER VENTURES,
Defendants.
————
OPINION AND ORDER RE: CROSS MOTION FOR
JURISDICTIONAL DISCOVERY AND MOTIONS
TO DISMISS AND TO COMPEL ARBITRATION
(Docs. 43, 64, 65, 66, 67, 76, 77)
Plaintiffs have filed a class action against individuals and companies involved in an online lending
venture operated by the Chippewa Cree Tribe of the
Rocky Boy’s Indian Reservation in Montana (the Tribe).
They claim that the “payday” loans offered by Plain
Green, LLC violate federal and state law because of
the usurious interest rates (between 198 and 376%
annually) and other unlawful features of the loans
such as the lender’s automatic access to the consumer’s bank account to facilitate repayment.

29a
All Defendants have filed motions to dismiss or to
compel arbitration. (Docs. 64, 65, 66, 67, 76, 77.) Also
pending is Plaintiffs’ Motion for Jurisdictional Discovery
on the issues of subject-matter jurisdiction and arbitration. (Doc. 43.) The court heard argument on all of
the pending motions on December 16, 2015. Plaintiffs
filed Supplemental Authority and Supplemental Documents on January 18, 2016 (Doc. 107) and April 8,
2016 (Doc. 114), at which time the court took the
motions under advisement.
Background
The facts as they appear in Plaintiff’s 43-page First
Amended Complaint (“FAC”) (Doc. 18) may be
summarized as follows.1
Plaintiffs are Vermont residents who have borrowed
money from Plain Green, LLC. Plain Green holds itself
out as a “tribal lending entity wholly owned by the
Chippewa Cree Tribe of the Rocky Boy’s Indian Reservation.” (Doc. 18 ¶ 2.) The reservation is located in
Montana.
Plain Green operates its lending business over the
internet. It has no physical place of business in Vermont
or any property or employees in Vermont. Instead,
borrowers reply to an internet site and apply for credit
through an online application process. (Id. ¶ 21.) Within
the banking industry, these loans are commonly called
“payday loans” because they are frequently marketed
as loans sufficient to tide the borrower over until the
next paycheck. Plain Green employs subsidiaries of
Think Finance, Inc. to market, administer, and collect
its loans. (Id. ¶ 57.)
1

Additional factual allegations are recited as necessary in the
discussion below.

30a
Plaintiffs borrowed relatively small sums of money
from Plain Green for periods of up to one year.
Frequently one loan would follow close on the heels of
the repayment of the previous loan.
In July 2011, Plaintiff Jessica Gingras borrowed
$1,050 from Plain Green at a rate of 198.17%. She
repaid this loan with interest. During July and August
2012, she borrowed a total of $2,900 at a rate of
371.82%. She has not repaid the second loan. (Id.
¶¶ 48-50.)2
Plaintiff Angela Given borrowed $1,250 from Plain
Green in July 2011. She completed repayment a year
later. The annual interest rate was 198.45%. (Id. ¶ 60.)
Within a few days, in July 2012, she borrowed $2,000.
She completed repayment a year later in July 2013 at
an annual interest rate of 159.46%. (Id. ¶ 61.) She also
borrowed $250 in May 2013 which she repaid within a
few weeks at an annual interest rate of 376.13%. In
July 2013, she borrowed $3,000 at 59.83%. She has not
completed repayment of the most recent loan.
Plaintiffs allege that the high interest rates violate
Vermont’s usury laws which permit a maximum rate
of interest of 24%. See 9 V.S.A. § 41a. The loan
agreements contain other provisions which Plaintiffs
say violate state and federal law, including the provision for automatic access to the borrower’s bank
account in violation of the Electronic Funds Transfer
Act, 15 U.S.C. § 1693k(1). (Doc. 18 ¶¶ 181-195.)
Plaintiffs have not sued Plain Green. Instead, they
have sued Joel Rosette, who is the Chief Executive
2

In addition to loans taken out from Plain Green, Jessica
Gingras borrowed $1,200 from FBDLoans in March 2000. This
loan was transferred to ThinkCash (a company operated by
Kenneth Rees) and later transferred to Plain Green. (Id. ¶ 47.)

31a
Officer of Plain Green, and Ted Whitford and Tim
McInerney (the “Tribal Defendants”), who are members
of Plain Green’s Board of Directors. All three are sued
in their official capacity for declaratory and injunctive
relief only pursuant to the authority expressed in
Ex Parte Young, 209 U.S. 123 (1908).
Plaintiffs have also sued Think Finance, Inc.
(“Think Finance” or “TF”) and its former President,
Chief Executive Officer, and Chairman of the Board
Kenneth Rees. Think Finance is a Delaware corporation. Kenneth Rees is a citizen of Texas. The PAC
alleges that these defendants developed a plan to
make loans through a tribal entity in order to take
advantage of tribal immunity from state banking laws.
(Doc. 18 ¶ 80.) They control the operations of Plain
Green. They dictated the terms of the Tribe’s finance
code. In Plaintiffs’ view, Plain Green is a shell company created by Think Finance and Mr. Rees in order
to provide a layer of legal protection for a lending
business which the Federal Trade Commission and
state banking regulators have determined to be illegal.
(See id. ¶ 3; see also id. ¶ 37 (“Plain Green’s very
existence is an effort to avoid liability.”).) Plaintiffs
allege that the tribal law relevant to this lending
business and the tribal courts with potential jurisdiction over any dispute have been subverted by the
money generated by Plain Green.
The next group of defendants are subsidiaries of
Think Finance which perform various tasks in connection with the payday lending operation. These include
TC Decision Sciences, LLC, Tailwind Marketing, LLC,
and TC Loan Service, LLC. (These defendants,
together with Think Finance, Inc., are referred to as
the “Think Defendants.”)

32a
Finally, Plaintiffs have sued two of the financial
institutions which they claim provide the funding for
loans made by Plain Green. These are Sequoia Capital
Operations, LLC (Sequoia) and Technology Crossover
Ventures (TCV).3
Both of the loan agreements between Plain Green
and Plaintiffs contain arbitration clauses. The clauses
are detailed and cover several pages of the parties’
loan agreements.4 The arbitration provisions require
the borrowers to submit any dispute to binding
arbitration, including disputes with “related third
parties.” (Doc. 13-5 at 50.) The borrower may opt out
of the arbitration provision within 60 days of the
receipt of loan funds. (Id. at 49.) The borrower may
select the procedures of the American Arbitration
Association or JAMS and the arbitration may occur on
the reservation or within 30 miles of the borrower’s
residence at the choice of the borrower. Plain Green
will bear the cost of the arbitration including the filing
fee and the arbitrator’s costs. Each side pays its own
attorneys fees. The arbitrator may award attorneys
fees to the prevailing party.
The arbitrator is required to apply Chippewa Cree
tribal law to the dispute. He or she is not authorized
3

At the December 16, 2015 hearing, counsel for TCV remarked
that “Technology Crossover Ventures” does not exist, and that
Plaintiffs presumably intended to name “TCV V” as a defendant.
The court treats TCV V as the defendant in question, and refers
to it as “TCV.” Counsel for Sequoia Capital Operations, LLC
remarked that that entity is an operations organization that
makes no investments, and that Plaintiffs presumably intended
to name Sequoia Capital. The court treats Sequoia Capital as the
defendant in question, and refers to it as “Sequoia.”
4

The FAC incorporates the agreements by reference. (See Doc.
18 ¶ 118.)

33a
to hear class-wide claims. He or she must refer any
dispute over class arbitration to a tribal court of the
Chippewa Cree Tribe. The arbitrator must make written findings to support an award. Any award must be
supported by substantial evidence and must be consistent with the loan agreement. The tribal court has
authority to aside an award if these conditions are not
met. The arbitration agreement and the loan agreement as a whole are subject to tribal law and are not
subject to the laws of any state.
Analysis
I. Subject-Matter Jurisdiction
The pending motions to dismiss or to compel arbitration invoke almost all of the categories of defenses
outlined in Fed. R. Civ. P. 12(b). The court begins with
Rule 12(b)(1)—the defense of lack of subject-matter
jurisdiction.5 “A district court properly dismisses an
action under Fed. R. Civ. P. 12(b)(1) for lack of subject
matter jurisdiction if the court ‘lacks the statutory or
constitutional power to adjudicate it . . . .’” Cortlandt
St. Recovery Corp. v. Hellas Telecomms., S.À.R.L., 790
F.3d 411, 417 (2d Cir. 2015) (quoting Makarova v.
United States, 201 F.3d 110, 113 (2d Cir. 2000)). A
court lacks constitutional power to adjudicate a case

5

The various motions to compel arbitration raise an issue that
is also of great importance, but the court’s first obligation is to
satisfy itself that it has jurisdiction. See Goldman, Sachs & Co.
v. Golden Empire Sch. Fin. Auth., 764 F.3d 210, 213 (2d Cir. 2014)
(addressing jurisdiction prior to arbitrability); Bergman v. Spruce
Peak Realty, LLC, 847 F. Supp. 2d 653 (D. Vt. 2012) (noting that,
“[o]rdinarily, subject matter jurisdiction must ‘be established as
a threshold matter’” (quoting Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 94-95 (1998))).

34a
where “the plaintiff lacks constitutional standing to
bring the action.” Id.
“The plaintiff bears the burden of ‘alleg[ing] facts
that affirmatively and plausibly suggest that it has
standing to sue.’” Id. (alteration in original) (quoting
Amidax Trading Grp. v. S.W.I.F.T. SCRL, 671 F.3d
140, 145 (2d Cir. 2011)). “In resisting a motion to
dismiss under Rule 12(b)(1), plaintiffs are permitted
to present evidence (by affidavit or otherwise) of the
facts on which jurisdiction rests.” Gualandi v. Adams,
385 F.3d 236, 244 (2d Cir. 2004). “[C]ourts generally
require that plaintiffs be given an opportunity to
conduct discovery on these jurisdictional facts, at least
where the facts, for which discovery is sought, are
peculiarly within the knowledge of the opposing
party.” Id.
Plaintiffs assert the following five bases for federal
subject-matter jurisdiction: (1) federal question jurisdiction under 28 U.S.C. § 1331; (2) diversity jurisdiction
under 28 U.S.C. § 1332; (3) class action jurisdiction
under 28 U.S.C. § 1332; (4) jurisdiction under RICO,
18 U.S.C. § 1965; and (5) jurisdiction under the Federal
Consumer Financial Law, 12 U.S.C. § 5481. (Doc. 85
at 28.) Plaintiffs assert federal-question jurisdiction
on the basis of claims arising under the Consumer
Financial Protection Act of 2010 (“CFPA”), 12 U.S.C.
§§ 5531(a) and 5536(a), the Federal Trade Commission
Act (“FTCA”), 15 U.S.C. § 45, and the Electronic Funds
Transfer Act (“EFTA”), 15 U.S.C. § 1693k(1). They also
assert a civil RICO claim pursuant to 18 U.S.C.
§ 1962(c).
The Tribal Defendants seek dismissal under Rule
12(b)(1) asserting that: (1) the action is barred by
tribal sovereign immunity, and (2) the Plaintiffs lack
Article III standing. Plaintiffs argue that tribal

35a
immunity and subject-matter jurisdiction are distinct
concepts. They also assert that they have Article III
standing.
A. Tribal Sovereign Immunity
The first issue is whether tribal sovereign immunity
is a jurisdictional question at all. Plaintiffs assert that
Michigan v. Bay Mills Indian Community, 134 S. Ct.
2024 (2014), stands for the proposition that tribal
immunity and federal subject-matter jurisdiction are
entirely separate concepts. The court disagrees. In Bay
Mills, the Supreme Court observed that no provision
of the Indian Gaming Regulatory Act, 25 U.S.C. § 2701
et seq., limited the grant of jurisdiction under the
general federal-question statute, 28 U.S.C. § 1331.
Bay Mills, 134 S. Ct. at 2029 n.2. But that observation
related to the initial question of whether federal-question jurisdiction existed, not the subsequent question
of whether tribal sovereign immunity might destroy
subject-matter jurisdiction. See Ninigret Dev. Corp. v.
Narragansett Indian Wetuomuck Hous. Auth., 207
F.3d 21, 28 (1st Cir. 2000) (noting that a federal court
can address tribal sovereign immunity only after it
confirms that subject-matter jurisdiction exists).
Courts in the Second Circuit have held that Rule
12(b)(1) is a proper vehicle for invoking tribal sovereign immunity. See Garcia v. Akwesasne Hous. Auth.,
268 F.3d 76, 84 (2d Cir. 2001) (analyzing tribal
sovereign immunity as an issue of subject-matter jurisdiction); City of New York v. Golden Feather Smoke
Shop, Inc., No. 08-CV-3966(CBA), 2009 WL 705815, at
*2 (E.D.N.Y. Mar. 16, 2009) (“‘[A] motion to dismiss
based on tribal immunity is appropriately examined
under Fed. R. Civ. P. 12(b)(1).’” (quoting Bassett v.
Mashantucket Pequot Museum & Research Ctr. Inc.,
221 F. Supp. 2d 271, 276 (D. Conn. 2002))). Decisions

36a
from outside the Second Circuit—some post-dating
Bay Mills—are in accord.6 The court therefore analyzes the Tribal Defendants’ sovereign-immunity
claim in the Rule 12(b)(1) context.
“Indian tribes are domestic dependent nations that
exercise inherent sovereign authority.” Bay Mills, 134
S. Ct. at 2030 (internal quotation marks omitted).
“Among the core aspects of sovereignty that tribes
possess . . . is the ‘common-law immunity from suit
traditionally enjoyed by sovereign powers.’ Id. (quoting Santa Clara Pueblo v. Martinez, 436 U.S. 49, 58
(1978)). Tribal immunity applies to suits brought by
States as well as those brought by individuals. Id. at
2031. Tribal immunity also applies “for suits arising
from a tribe’s commercial activities, even when they
take place off Indian lands.” Id. (citing Kiowa Tribe
of Okla. v. Mfg. Techs., Inc., 523 U.S. 751 (I 998)).7
6

See Piston v. Garcia, 791 F.3d 1104, 1111 (9th Cir. 2015)
(tribal sovereign immunity is “quasi-jurisdictional” and may be
decided under Rule 12(b)(1)); Fort Yates Pub. Sch. Dist. No. 4 v.
Murphy ex rel. C.M.B., 786 F.3d 662, 670 (8th Cir. 2015) (“Tribal
sovereign immunity is a ‘jurisdictional threshold matter.’ (quoting Harmon Indus., Inc. v. Browner, 191 F.3d 894, 903 (8th Cir.
1999))); Furry v. Miccosukee Tribe of Indians of Fla., 685 F.3d
1224, 1228 (11th Cir. 2012) (“Tribal sovereign immunity is a jurisdictional issue.”); Memphis Biofuels, LLC v. Chickasaw Nation
Indus., Inc., 585 F.3d 917, 920 (6th Cir. 2009) (dismissal for lack
of jurisdiction proper if entity enjoyed tribal sovereign immunity);
Ninigret Dev. Corp. v. Narragansett Indian Wetuomuck Hous.
Auth., 207 F.3d 21, 28 (1st Cir. 2000) (“[T]ribal sovereign immunity is jurisdictional in nature . . . .”).
7

Four dissenting Justices in Bay Mills opined that Kiowa
was wrongly decided and has led to “inequities” and “mounting
consequences.” Bay Mills, 134 S. Ct. at 2045-46 (Thomas, J.,
dissenting). Notably, the dissenters gave one example of particular interest in this case, stating: “payday lenders (companies that
lend consumers short-term advances on paychecks at interest

37a
Generally, a plaintiff “cannot circumvent tribal immunity
by merely naming officers or employees of the Tribe
when the complaint concerns actions taken in defendants’ official or representative capacities and the
complaint does not allege they acted outside the scope
of their authority.” Chayoon v. Chao, 355 F.3d 141, 143
(2d Cir. 2004) (per curiam).
The answer to the Tribal Defendants’ sovereignimmunity claim stems from an exception to the general
rule stated in Chayoon. As individuals sued for injunctive and declaratory relief in their official capacity, the
Tribal Defendants are subject to suit by analogy to
Ex Parte Young. The Supreme Court has recognized
the application of the doctrine to tribe members. See
Bay Mills, 134 S. Ct. at 2035 (under analogy to
Ex Parte Young, tribal immunity does not bar suit “for
injunctive relief against individuals, including tribal
officers, responsible for unlawful conduct”); Santa
Clara Pueblo, 436 U.S. at 59.
The Second Circuit in Garcia noted two important
“qualifications” limiting a plaintiff’s ability to obtain
injunctive relief when she invokes the Ex Parte Youngtype exception. First, any law under which a plaintiff
seeks injunctive relief “must apply substantively” to
the tribe. Garcia, 268 F.3d at 88. An example of
a circumstance in which a law does not “apply
substantively” to a tribe is when the law specifically
exempts “an Indian tribe” from its prohibitions. See id.
(citing 42 U.S.C. § 2000e(b)). Second, a plaintiff “must
have a private cause of action to enforce the substanrates that can reach upwards of 1,000 percent per annum) often
arrange to share fees or profits with tribes so they can use tribal
immunity as a shield for conduct of questionable legality.” Id. at
2052.

38a
tive rule.” Id. The Tribal Defendants assert that
Plaintiffs’ federal claims fail on both counts. However,
the court does not read the “qualifications” articulated
in Garcia as components of the jurisdictional analysis.
The court treats the Tribal Defendants’ arguments on
these points as necessary below.8
The Tribal Defendants argue that Plaintiffs seek
more than prospective injunctive or declaratory relief,
and actually seek money damages from the Tribal
Defendants—a remedy not available under the Ex Parte
Young-type exception. (See Doc. 66 at 19 n.5.) The
FAC does indeed assert (apparently without excepting
the Tribal Defendants) that “funds should be returned
to the people who fell victim to Defendants’ illegal
scheme”; and further requests an “[e]quitable surcharge seeking return of all interest charged above a
reasonable rate and any financial charges associated
with the loan” and also “[a] constructive trust over
funds obtained illegally.” (Doc. 18 at 42–43.) The court
concludes that, to the extent the FAC seeks money
damages against the Tribal Defendants, that relief is
unavailable.9
Finally, the Tribal Defendants assert that the Ex
Parte Young-type exception applies only to violations
of federal law, and that as a result all of Plaintiffs’
state-law claims fail. (Doc. 66 at 23.) Ex Parte Young
8

Similarly, the court addresses below the Tribal Defendants’
assertion that Plaintiffs’ EFTA claim is time-barred, as well as
Defendants’ argument that RICO’s civil remedies provision does
not authorize equitable relief.
9

As a practical matter, Plaintiffs claim that only a tiny percentage of the revenues generated by Plain Green remain with
the Tribe. The term sheet outlining the discussion of revenues
allocates 5% to the Tribe. The rest goes to Think Finance and
other non-tribal companies. (Doc. 18-1.)

39a
is itself “inapplicable in a suit against state officials on
the basis of state law.” Pennhurst State Sch. & Hosp.
v. Haldeman, 465 U.S. 89, 106 (1984). Thus under the
Ex Parte Young doctrine, “a federal court’s grant of
injunctive relief against a state official may not be
based on violations of state law.” Dube v. State Univ.
of N.Y., 900 F.2d 587, 595 (2d Cir. 1990) (citing
Pennhurst, 465 U.S. at 106). Extending that reasoning
to tribal cases, the court in Frazier v. Turning Stone
Casino held that Ex Parte Young “only allows an
official acting in his official capacity to be sued in a
federal forum to enjoin conduct that violates federal
law.” 254 F. Supp. 2d 295, 310 (N.D.N.Y. 2003)
(emphasis added).
Frazier might have been persuasive authority prior
to the Supreme Court’s decision in Bay Mills. But
in Bay Mills the Supreme Court stated that, if a tribe
were to set up an off-reservation casino, the state
“could bring suit against tribal officials or employees
(rather than the Tribe itself) seeking an injunction for,
say, gambling without a license.” 134 S. Ct. at 2035.
That is because “a State, on its own lands, has many
other powers over tribal gaming that it does not possess (absent consent) in Indian territory,” and because,
when not on Indian lands, tribal officials “are subject
to any generally applicable state law.” Id. at 2034.
Thus, as other courts have recognized, Bay Mills
establishes that “tribal officials may be subject to suit
in federal court for violations of state law under the
fiction of Ex Parte Young when their conduct occurs
outside of Indian lands.” Alabama v. PCI Gaming
Auth., 801 F.3d 1278, 1290 (11th Cir. 2015).10
10

Even prior to Bay Mills, the Supreme Court had held that
sovereign immunity did not prevent suit to enjoin off-reservation
violations of state law by individual tribe members. Puyallup

40a
Plaintiffs assert that “the activities of the Plain
Green enterprise occurred outside the reservation.”
(Doc. 85 at 32.) The Tribal Defendants disagree (at
least in part), maintaining that the loan agreements
at issue were formed on the Tribe’s reservation. (Doc.
66 at 32.) In support of that argument, the Tribal
Defendants cite 2 Williston on Contracts § 6:62 (4th
ed.): “[I]f the acceptance is not made simultaneously
with the offer, and is made in a different place, . . . the
place of the contract is the place where the last act
necessary to the completion of the contract is done . . .”
The Tribal Defendants then rely on the following
assertion in Joel Rosette’s affidavit: “The act triggering the release of a loan to a borrower is Plain Green’s
final assessment of the consumer’s loan application.
Plain Green undertakes this final determination from
its office,” which is on the Tribe’s Reservation. (Doc.
66-1 ¶¶ 6, 9.)
The Tribal Defendants do not explain why the “final
assessment” of a consumer’s loan application is an
“acceptance” in the language of contract-formation. In
any case, even if the contract was formed on the Tribe’s
reservation, a substantial part of the events giving rise
to Plaintiffs’ claims occurred outside the reservation.11
The Second Circuit made a similar observation in
Otoe-Missouria Tribe of Indians v. New York State
Department of Financial Services, concluding that the
plaintiff-tribes in that case (which were also involved
in making short-term internet loans) had “provided
insufficient evidence to establish that they are likely
to succeed in showing that the internet loans should
Tribe, Inc. v. Dep’t of Game of State of Wash., 433 U.S. 165, 171
(1977).
11

The court reaches the same conclusion in its analysis of the
venue issue, infra.

41a
be treated as on-reservation activity.” 769 F.3d 105,
115 (2d Cir. 2014).
As the court observed in Otoe-Missouria:
Much of the commercial activity at issue
takes place in New York. That is where the
borrower is located; the borrower seeks the
loan without ever leaving the state, and
certainly without traveling to the reservation.
Even if we concluded that the loan is made
where it is approved, the transaction . . .
involves the collection as well as the extension of credit, and that collection clearly takes
place in New York. The loan agreements
permit the lenders to reach into the borrowers’ accounts, most or all of them presumably
located in New York . . . .
Id. Here, the circumstances are similar and the Tribal
Defendants have presented no more evidence than the
tribes in Otoe-Missouria. Thus, at least for the purposes of the motions to dismiss, the result predicted in
that case is the same in this one: the relevant conduct
occurred outside of Indian lands. The Tribal Defendants may thus be subject to suit under the Ex Parte
Young analogy.
Finally, the Tribal Defendants assert that nothing
in Bay Mills authorizes suits by private citizens based
on violations of state law. (Doc. 92 at 16.) It is true that
Plaintiffs in this case are private citizens, whereas in
Bay Mills and PCI Gaming the plaintiffs were States.
But Bay Mills does not explicitly limit the application
of the Ex Parte Young analogy to suits brought by
States. In fact, the Court stated that, “[u]nless federal
law provides differently, Indians going beyond reservation boundaries are subject to any generally applicable

42a
slate law.” Bay Mills, 134 S. Ct. at 2035 (internal
quotation marks omitted; emphasis added). That plain
language includes state laws that may be enforced by
private citizens. See Am. Indian Law Deskbook § 7:4
(noting that tribal officer-capacity suits under Bay
Mills are a “potential remedy for states and other
parties” (emphasis added)).12
Ultimately, tribal sovereign immunity may limit the
shape and nature of the relief against the Tribal
Defendants, but it is not a complete bar to a lawsuit
against them.
B. Standing
The Tribal Defendants, joined by the Think Defendants and TCV, contend that Plaintiffs lack standing
because they have not yet incurred injury or damages
and because they do not seek redress for injuries they
have sustained personally. (Doc 66 at 24-27)13 Plaintiffs respond that they continue to owe money on
unlawful loans and suffer reputational harm through
credit reporting of non-payment. The court agrees
with Plaintiffs that the FAC contains sufficient allegations to support individualized standing for each
Plaintiff. There is little dispute that both borrowed
money on terms which would violate Vermont’s usury
laws. (See Doc. 91 at 12, Amicus brief filed by the
Office of the Vermont Attorney General.) Whether
Plain Green is subject to these laws is in dispute, but

12

These conclusions make it unnecessary to consider the
Vermont Attorney General’s argument (Doc. 91 at 4) that Plain
Green is not a tribal entity or an “arm of the Tribe” to which tribal
immunity might apply in the first place.
13

The Think Defendants and TCV incorporate the Tribal
Defendants’ standing argument. (Doc. 65 at 20; Doc. 76 at 26.)

43a
Plaintiffs’ status as people alleging injury through
violations of state law is not.
Defendants’ arguments that no injury is sustained
because a person has an outstanding loan balance
which has not been reduced to judgment or otherwise
affected her interests is contrary to the allegations of
the FAC, which the court accepts as true at this stage
of the case. The specific relief sought by Plaintiffs
demonstrates their direct, personal stake in the dispute. They seek declaratory relief under statutes
including the Vermont Consumer Fraud Act. Such
relief could relieve them of any future repayment obligation. They seek repayment of any interest collected
above a legal rate. And they seek an injunction
shielding them from future collection efforts. (Doc. 18
at 43.) As these claims make clear, Plaintiffs’ interest
in the subject matter of this lawsuit and the clear
potential for relief in their individual cases confers
standing for purposes of Article III.
II. Personal Jurisdiction
The next step is to consider Rule 12(b)(2): whether
the court has personal jurisdiction over each of the
Defendants. The Tribal Defendants, Mr. Rees, Sequoia,
and TCV all assert that the court lacks personal
jurisdiction over them. (Doc. 66 at 32; Doc. 67-2 at 16;
Doc. 77-1 at 4; Doc. 76 at 14.) As with the subjectmatter jurisdiction issues, the personal-jurisdiction
issues require some relatively extensive analysis.
“On a motion to dismiss for lack of personal jurisdiction, the plaintiff bears the burden of showing that the
court has jurisdiction over the defendants.” Dodge v.
Manchester Police Dept, No. 5:13-CV-228, 2014 WL
4825632, at *4 (D. Vt. Sept. 25, 2014). “In the absence
of jurisdictional discovery, the court presumes the

44a
truth of the complaint’s allegations and construes the
complaint in the light most favorable to the plaintiff.”
Id. “A plaintiff must make a prima facie showing of
jurisdiction.” Id.
Personal jurisdiction may be either general or
specific in nature. Plaintiffs do not contend that any
of the defendants has a presence in Vermont which
would support general jurisdiction for all purposes.
They argue that the specific acts alleged in the FAC
give rise to personal jurisdiction for purposes of claims
arising out of those acts.
The exercise of personal jurisdiction over non-resident defendants raises issues of due process because
of the potential unfairness of compelling these parties
to defend actions in distant jurisdictions. The Due
Process Clause of the Fourteenth Amendment limits
the assertion of personal jurisdiction in diversity
cases. In federal question cases, similar protection is
afforded by the Due Process Clause of the Fifth
Amendment. Omni Capital Int’l, Ltd. v. Rudolf Wolff
& Co., 484 U.S. 97, 104 (1987).
Within the structure of the Federal Rules of Civil
Procedure, the permissible scope of effective service is
co-extensive with the limits of personal jurisdiction.
As amended in 1993, Fed. R. Civ. P. 4(k) provides for
service and therefore the exercise of personal jurisdiction over persons subject to the jurisdiction of state
courts of general jurisdiction and “when authorized by
a federal statute.” A variety of federal statutes, including the RICO statute, provide for nationwide service
of process. See 18 U.S.C. § 1965. The extension of
personal jurisdiction in these federal question cases
remains subject to the constitutional limits of due
process.

45a
With this background in mind, the questions the
court must answer in resolving the personal jurisdiction issues in this case are:
1. Would Defendants be subject to personal
jurisdiction in the courts of general jurisdiction in
Vermont under principles of due process expressed in
International Shoe Co. v. Washington, 326 U.S. 310
(1945)?
2. Alternatively, does the provision for nationwide
service of process in the RICO statute support the
court’s exercise of personal jurisdiction over
Defendants?
3. Does the exercise of the jurisdiction over the
state-law claims fall within the doctrine of pendent
personal jurisdiction?
A. Officials of Plain Green—the Tribal Defendants
Plaintiffs have sued three tribal members who play
important roles in Plain Green. These are Mr. Rosette,
the chief executive officer, and Ted Whitford and Tim
McInerney, two board members. All three are residents of Montana. They serve as proxies in this case
for Plain Green, and suit is filed against them in their
official capacity to avoid the defense of tribal sovereign
immunity. See supra; see also Bay Mills, 134 S. Ct. at
2035 (recognizing the application of Ex Parte Young to
suits against tribal leaders).
The FAC alleges that Mr. Rosette is “responsible for
all operations of Plain Green.” (Doc. 18 ¶ 6.) As CEO,
he “is responsible for and can stop the illegal activity
described in this Complaint.” (Id.) Mr. Whitford and
Mr. McInerney are board members. The FAC alleges
that the board of directors “has the power to fire the

46a
CEO of Plain Green and appoint a new CEO who will
comply with the law,” (Id. ¶¶ 7, 8.)
Personal jurisdiction over state or tribal officials
in an Ex Parte Young case raises special issues in
“minimum contacts” analysis. Is the court considering
the contacts between Vermont and the individuals,
or the contacts between the state and Tribe and
Vermont? See Tracy O. Appleton, Note, The Line
Between Liberty and Union: Exercising Personal Jurisdiction Over Officials From Other States, 107 Colum.
L. Rev. 1944 (Dec. 2007). The lower courts have differed on this issue, and it has not been resolved by the
Supreme Court. See Leroy v. Great W United Corp.,
443 U.S. 173, 180-81 (1979) (by-passing issue in order
to resolve case on non-constitutional pounds).
One line of authority looks to contacts between the
forum and the defendant state or tribe. In Great
Western United Corp. v. Kidwell, the Fifth Circuit held
that specific jurisdiction existed in Texas over an Idaho
official because of the effects of Idaho regulations on
business conducted in Texas. 577 F.2d 1256, 1267-68
(5th Cir. 1978), rev’d on other grounds sub nom., Leroy
v. Great W. United Corp., 443 U.S. 173 (1979); see
also Ass’n for Molecular Pathology v. U.S. Patent and
Trademark Office, 669 F. Supp. 2d 365 (S.D.N.Y.
2009), aff’d in part, rev’d in part, 653 F.3d 1329 (Fed.
Cir. 2011) (holding that state university officials in
Utah were subject to suit in New York due to the
actions of a university foundation in seeking to enforce
patents in the forum state). In these cases, whether an
individual official had personal contact with the forum
state was not necessary to a determination that the
court had jurisdiction. Personal jurisdiction for officials sued in a representative capacity arose from the
conduct of their state or agency.

47a
The Second Circuit considered these issues in Grand
River Enterprises Six Nations, Ltd. v. Pryor, 425 F.3d
158 (2d Cir. 2005), cert. denied, 549 U.S. 951 (2006).
In Pryor, parties challenging the action of 30 state
attorneys general in reaching a master settlement in
the nationwide cigarette litigation of the 1990s filed
suit in New York. The Second Circuit held that personal jurisdiction over state officials was present as a
result of the trips they or their representatives made
to New York City to negotiate the settlement. The decision followed traditional “minimum contacts” analysis
in predicating personal jurisdiction on physical presence of the named defendants within the forum state.
Had the master settlement agreement been negotiated
in Chicago, the federal courts in New York State would
have had no basis for jurisdiction over the state attorneys general from other states. Although the effects of
the master settlement agreement would still have
been felt in New York State (and every other state
which joined in the settlement), personal jurisdiction
over state officials would not be present except as a
result of the contacts of individuals with the forum
state.
Plaintiffs make no claim that the Tribal Defendants
ever visited Vermont or communicated with anyone in
Vermont. Instead, they rely on Plain Green’s contacts
with Vermont. They allege that Plain Green operated
a website which advertised loans across the United
States, including Vermont. Once Plaintiffs replied to
the advertisement from their homes in Vermont, Plain
Green sent them a series of emails and a loan application. Following approval of the loan, Plain Green
transferred the loan principal to their bank accounts
in Vermont. These frequent contacts would have been
sufficient to subject Plain Green to personal jurisdiction in Vermont at least for causes of action, like this

48a
one, which arise out of the particular contacts and
resulting loan transaction. See Chloe v. Queen Bee
of Beverly Hills, LLC, 616 F.3d 158 (2d Cir. 2010)
(interne sales of handbags from California to New
York residents satisfies minimum contacts requirements); Blue Compass Corp. v. Polish Masters of Am.,
777 F. Supp. 4, 5 (D. Vt. 1991) (California defendant
who advertised his business in at least one national
magazine and obtained one Vermont customer had
sufficient contacts with Vermont to support personal
jurisdiction).
But Plain Green’s contacts with Vermont are not
vicariously attributed to its officials any more than
directors of a corporation are subject to suit personally
in any forum where the actions of the corporation
satisfy the minimum contacts test. See Dumont v.
Corr. Corp. of Am., No. 2:14-cv-209, 2015 WL 3791407,
at *5 (D. Vt. June 17, 2015) (citing cases). In following
Pryor, the court rules that the absence of contacts
between Vermont and the Tribal Defendants means
that these Defendants would not be subject to suit in
a Vermont state court of general jurisdiction. The first
of the two potential bases for personal jurisdiction is
not present.
The court turns now to the question of whether the
grant of nationwide service within the RICO statute
provides a second basis for personal jurisdiction.
Section 1965(a) of Title 18 provides for suit in any
district court in which a defendant “resides, is found,
has an agent, or transacts his affairs.” Section 1965(b)
permits a suit for civil remedies to be filed in “any
district court of the United States in which it is shown
that ends of justice require that other parties residing
in any other district be brought before the court . . . .”

49a
The Second Circuit has never interpreted these
provisions to provide for nationwide personal jurisdiction over any defendant named in a RICO complaint.
In PT United Can Co. Ltd. v. Crown Cork & Seal Co.,
Inc., 138 F.3d 65 (2d Cir. 1998), the court held that
§ 1965(a) by its express terms required traditional
“minimum contacts” within the forum state for at least
one defendant. Section 1965(b) permits other defendants to be brought in from distant jurisdictions upon a
showing of necessity despite the absence of minimum
contacts. “There is no impediment to prosecution of a
civil RICO action in a court foreign to some defendants
if it is necessary, but the first preference, as set forth
in § 1965(a), is to bring the action where suits are
normally expected to be brought.” PT United, 138 F.3d
at 71-72. This restrictive reading has withstood the
test of time, and is still the law in this Circuit. See
Pincione v. D’Alfonso, 506 Fed. App’x 22 (2d Cir. 2012).
In the context of this case, § 1965(a) and (b) require
that at least one Defendant meet the minimum contacts test before parties not otherwise subject to suit
in Vermont can be sued here. None of the three Tribal
Defendants meet “minimum contacts” tests in Vermont.
Unless the presence of other defendants triggers the
“ends of justice” provision of § 1965(b), the absence of
contact between the Tribal Defendants and Vermont
places them outside the scope of the nationwide
jurisdiction permitted under certain circumstances by
the RICO statute.
B. Kenneth Rees and the Think Defendants
Plaintiffs allege that Mr. Rees and the companies
which lie controls performed the actual work of Plain
Green, including making the loans provided to
Plaintiffs. Assuming this to be true for purposes of the
motions to dismiss, the role of Rees and the Think

50a
Defendants in providing the leadership, underwriting,
marketing, and servicing for the Plain Green loans
subjects them to personal jurisdiction. They cannot
avoid personal jurisdiction for these actions by acting
in the name of Plain Green. If, as Plaintiffs allege,
these Defendants were the critical actors in making
loans on illegal terms to Vermont residents, then they
are subject to personal jurisdiction for claims arising
out of the acts they performed.
The use of the internet is an important factor in
analyzing the minimum contacts test for Rees and the
Think Defendants. Although Mr. Rees has visited
Vermont rarely and never for reasons related to Plain
Green, (see Doc. 67-1 ¶ 9), the Think Defendants have
entered the Vermont marketplace by creating a website which is accessible to any Vermont consumer with
an internet connection. The Second Circuit has recognized that this degree of “interactivity”—the direct
connection between an internet business located at a
great remove from the forum state and its customers
within the forum state—is a factor which supports a
finding of minimum contacts. See Best Van Lines, Inc.
v. Walker, 490 F.3d 239, 252 (2d Cir. 2007) (citing
Zippo Mfg. Co. v. Zippo Dot Com, Inc., 952 F. Supp.
1119 (W.D. Pa. 1997)).
Turning to the specific allegations, the FAC alleges
that Mr. Rees “personally designed and directed the
business activity described in the Complaint.” (Doc. 18
¶ 10.) After federal regulators shut down his former
business known as ThinkCash, Inc., Mr. Rees renamed
the business Think Finance, Inc. With a new identity
in hand, he approached the Tribe and offered to
“provide everything the Tribe needed to run a successful payday loan enterprise if the Tribe would let them
use the concept of tribal immunity to stymie state

51a
and federal regulators.” (Id. ¶ 23.) The Tribe created
Plain Green in order to join with Mr. Rees and Think
Finance in the payday lending business. (Doc. 18-1 (Term
Sheet for Think Finance-Chippewa Cree Transaction).)
The FAC charges Rees and the Think Defendants
with using their control over Plain Green to violate
state and federal law. These include seeking to avoid
state usury limits; blocking access to information about
borrowers’ accounts; and misrepresenting the nature
of the Plain Green loans to credit reporting agencies.
(Doc. 18 ¶¶ 32-35.) In Plaintiffs’ words, “[d]efendants
Rees and Think Finance intentionally and willfully
dominated and still dominate the operations of Plain
Green. Other than the sovereignty that they attempted
to purchase, Rees and Think Finance provided everything that the enterprise needed to operate.” (Id. ¶ 80.)
These allegations are neither conclusory nor implausible. They are factually detailed—at least as detailed
as is possible without the advantages of discovery.
They include a description of a similar business venture involving Mr. Rees and the First Bank of
Delaware which was dissolved following an FDIC
enforcement action and consent decree concerning
similar practices. (Id. ¶¶ 38-40.) They are consistent
with similar allegations in a case brought by the
Pennsylvania Attorney General’s office against Think
Finance, Inc. and other parties in the Eastern District
of Pennsylvania. See Pennsylvania v. Think Finance,
Inc., No. 14-cv-7139, 2016 WL 183289 (E.D. Pa. Jan.
14, 2016).
The critical issue for a determination of the court’s
personal jurisdiction over Rees and the Think Defendants is whether their activities satisfy the minimum
contacts test. Defendants assert that Mr. Rees has had
few personal contacts with Vermont, owns no property

52a
in the state, and has not visited since 1999 and then
for non-business reasons. But a personal, physical
presence in the state is not required to satisfy the
minimum contacts test. Plaintiffs allege that Mr. Rees
and the companies which he controls developed a
nationwide, illegal lending scheme which resulted in
predatory loans to Vermont residents. According to
the FAC, the actions he took in other states led to
predictable results in Vermont and other states where
borrowers responded to the website and took out loans.
This is typical of jurisdiction based on “minimum
contacts” arising from activities in one state which is
directed into others. See Calder v. Jones, 465 U.S. 783
(1984) (employees of a national publication subject to
personal jurisdiction for libel claim in the forum where
the results of targeted intentional conduct were felt).
The same analysis applies to the Think Defendants.
According to the FAC, all of these companies joined in
developing, marketing, and operating the loan operation. As designed by Mr. Rees and as executed by his
companies, the loans were made over the internet to
residents of many states, including Vermont. They
were marketed through Plain Green in order to skirt
state consumer protections. The affiliated corporations
which provided specific services such as marketing
and underwriting expected their efforts to result in
loans made in states including Vermont. The misconduct alleged by Plaintiffs is entirely intentional and
directed into Vermont (as well as many other states).
That Rees and the Think Defendants might have to
respond in court to defend their practices in a state
like Vermont where they enabled Plain Green to lend
money is hardly surprising or unfair.
The court concludes that Plaintiffs have made
plausible allegations sufficient to support a determi-

53a
nation of minimum contacts for purposes of personal
jurisdiction for the specific claims made in this case
against Rees and the Think Defendants. As the court’s
discussion indicates, they could have been sued on
these claims in the Vermont state courts on the basis
of their actions in developing the payday loan which
they operated through Plain Green and which they
directed into Vermont. Such conduct satisfies both the
minimum contacts test and the related requirement of
due process that the exercise of personal jurisdiction
meet general standards of fairness.
C. Sequoia Capital and Technology Crossover
Ventures
The court has an insufficient basis for making a
ruling about minimum contacts and due process requirements with respect to Sequoia and TCV because
Plaintiffs allege very little about their respective roles
in the Plain Green operation. As the following discussion of personal jurisdiction under RICO makes clear,
however, they are potentially subject to suit as additional defendants subject to the court’s jurisdiction in
the interests of justice. See 18 U.S.C. § 1965(b). The
court returns to the question of personal jurisdiction
over Sequoia and TCV in the course of its RICO
analysis below.
D. Nationwide Jurisdiction Under RICO
Because the court has determined that Rees and the
Think Defendants are subject to personal jurisdiction,
it returns to the question of whether 18 U.S.C.
§ 1965(b) permits the Tribal Defendants to be sued in
Vermont. The Second Circuit has interpreted § 1965(b)
to permit the exercise of jurisdiction over parties who
do not meet the minimum contacts test so long as at
least one other defendant meets the test and the

54a
exercise of jurisdiction is required by the “ends of
justice.” PT United, 138 F.3d at 71 n.5. The standard
is one of necessity and of last resort. “There is no
impediment to prosecution of a civil RICO action in a
court foreign to some defendants if it is necessary, but
the first preference, as set forth in § 1965(a), is to bring
the action where suits are normally expected to be
brought. Congress has expressed a preference in
§ 1965 to avoid, where possible, haling defendants into
far flung fora.” Id. at 71-72.
The court concludes that the ends of justice fairly
require jurisdiction in Vermont against the Tribal
Defendants pursuant to 18 U.S.C. § 1965(b). Several
reasons support this conclusion. First, the impact of
this lawsuit on the Tribal Defendants is modest. There
is no claim against them for money damages. They are
being asked only to cease violating federal and state
consumer protections. This court has no jurisdiction
over Plain Green and understands that Plaintiffs seek
only injunctive relief against its officials in the form of
an order requiring them to obey state and federal laws
that regulate lending in Vermont.
Second, it is not clear that there is another forum in
which all defendants can be sued (except pursuant to
§ 1965(b)). Only the Tribal Defendants are citizens of
Montana. The other parties and Mr. Rees are from
different states. While the record is not fully developed
on this point, no party has offered an alternative
forum in which personal jurisdiction is present for all
parties.
Third, there is nothing inherently unfair or unjust
about requiring representatives of a lender doing
business in Vermont to appear to defend their practices in this state. These Defendants are already ably
represented by highly qualified counsel. The payday

55a
lending business gives every indication of being a
highly lucrative business which can afford to appear
through counsel in the states in which it operates.
Finally, there is the issue of the viability of the RICO
claims. “Ends of justice” RICO jurisdiction can only be
exercised if the allegations state a viable RICO claim.
See 7 W 57th St. Realty Co., LLC v. Citigroup, Inc.,
No. 13 Civ. 981(PGG), 2015 WL 1514539, at *7 n.2
(S.D.N.Y. Mar. 31, 2015) (citing cases). For the reasons
discussed in detail below, the court concludes that the
FAC states viable RICO claims against the Tribal
Defendants. This case qualifies as one in which 18
U.S.C. § 1965(b) extends the personal jurisdiction of
the federal court to RICO claims against the Tribal
Defendants, who would not otherwise be subject to
suit in Vermont. Once the Tribal Defendants are
before the court on this basis, the doctrine of pendent
personal jurisdiction permits the court to hear the
other claims against them which arise from state law
or federal statutes other than RICO.
The court cannot reach the same conclusion as to
Sequoia and TCV. For the reasons discussed below,
the court concludes that the FAC fails to state a viable
RICO claim against those Defendants. Absent RICO
jurisdiction over those Defendants, the court reiterates its observation that there is an insufficient basis
for making a ruling about minimum contacts and due
process requirements with respect to them because
Plaintiffs allege very little about their respective roles
in the Plain Green operation. The court, will, however,
exercise its discretion to permit discovery on the
question of personal jurisdiction over Sequoia and
TCV. See Dorchester Fin. Sec., Inc. v. Banco BRJ, SA,
722 F.3d 81,84 (2d Cir. 2013) (per curiam) (court may
permit discovery in aid of Rule 12(b)(2) motion).

56a
III. Arbitration and Arbitrability
The court comes now to the question raised by all
Defendants: does this dispute belong in arbitration
instead of in court? Each Defendant asserts that the
dispute must go to arbitration. (Doc. 64 at 2; Doc. 66
at 27-31; Doc. 67-2 at 23; Doc. 77-1 at 8-10; Doc. 76 at
26-30.) Plaintiffs maintain that the purported arbitration agreement is unenforceable as, among other
things, “unconscionable” and “fraudulent.” (See Doc.
85 at 48-78.)
Neither Plaintiff made use of the “opt out” provision
during the first 60 days following receipt of her loan.
Both seek to apply state and federal consumer loan
protections to this case. Neither wishes to go to arbitration. And both seek to serve as class representatives.
For these reasons, the first issue for the court is to
determine whether Plaintiffs are bound by the arbitration clause and the related choice-of-law clause. The
questions which must be answered are:
1. What law governs the issue of arbitrability?
2. Does tribal law govern the enforceability of the
arbitration clause with respect to issues of unconscionability?
3. Can individual borrowers in Vermont who are
not normally subject to tribal law become subject
to tribal law through their consent to an arbitration
clause?
4. Is the tribal law, including its enforcement
through the arbitration clause, unenforceable on
grounds of unconscionability?
5. Are there other reasons raised by Plaintiffs which
prevent enforcement of the arbitration clause?

57a
6. Are all Defendants subject to the arbitration
clause?
The court begins with the question of the law that
governs.
A. What law governs?
The parties agree that the Federal Arbitration Act,
9 U.S.C. § 1 et seq., (the “FAA”) applies to the parties’
dispute. This case concerns two transactions in interstate commerce, conducted over the internet between
a lender located on an Indian reservation in Montana
and borrowers in Vermont. Section 2 of the FAA
provides for the enforceability of arbitration clauses
which appear in contracts subject to the Act “save
upon such grounds as exist at law or in equity for the
revocation of any contract.” This “savings clause”
requires the court to turn to state law (or possibly
tribal law) to resolve claims of unconscionability and
the other grounds for avoidance of contracts. Littlejohn
v. TimberQuest Park at Magic, LLC, 116 F. Supp. 3d
422, 430 (D. Vt. 2015) (claims of unconscionability “are
matters arising under state substantive law”); see also
Cap Gemini Ernst & Young, US., L.L.C. v. Nackel, 346
F.3d 360, 365 (2d Cir. 2003) (per curiam) (“[Q]uestions
of contractual validity relating to the unconscionability
of the underlying arbitration agreement must be
resolved first, as a matter of state law, before compelling arbitration pursuant to the FAA.”).
“[G]enerally, a choice-of-law clause in a contract will
apply to disputes about the existence or validity of that
contract.” Motorola Credit Corp. v. Uzan, 388 F.3d 39,
50 (2d Cir. 2004). In this case, the arbitration agreement includes a provision requiring the application of
Chippewa Cree tribal law to any dispute, including

58a
disputes over arbitrability.14 In considering whether
to follow the Chippewa Cree law as it relates to
enforcement of arbitration provisions, the court is
guided by several considerations. All of these favor the
application of Vermont law—the law of the forum—
instead of tribal law to this limited question.
The primary obstacle to the adoption by contract of
the Chippewa Cree law of arbitration is that no court
has ever been able to determine what that law is or
where it can be found. In a series of cases cited by
Defendants, other federal trial courts rejected claims
that the Chippewa Cree law concerning the arbitrability of claims against non-signatories provided a different
rule of decision than the laws of the forum state
because plaintiffs were unable to produce evidence of
a different rule under tribal law.15 In those cases,
14

Both arbitration agreements include the following choice-oflaw provision:
This Agreement and the Agreement to Arbitrate are
governed by the Indian Commerce Clause of the Constitution of the United States of America and the laws
of the Chippewa Cree Tribe. We do not have a presence
in Montana or any other state of the United States of
America. Neither this Agreement nor the Lender is
subject to the laws of any state of the United States.
(Doc. 13-5 at 52.)
15

See Gunson v. BMO Harris Bank, NA., 43 F. Supp. 3d 1396,
1400 (S.D. Fla. 2014) (“Luckily, the Court need not delve into the
nuances of tribal or Delaware law, as Gunson has not demonstrated that there is a conflict with Florida law.”); Booth v. BMO
Harris Bank, N.A., Civil Action No. 13-5968, 2014 WL 3952945,
at *4 n.4 (E.D. Pa. Aug. 11, 2014) (“Plaintiff has not alleged that
any true conflict exists, and according to [the defendants] no conflict does exist because the applicable tribal law allows estoppel.”);
Graham v. BMO Harris Bank, NA., No. 3:13cv1460(WWE), 2014
WL 4090548, at *5 (D. Ct. July 16, 2014) (“To the extent that
plaintiffs maintain that tribal law may apply to this controversy,

59a
plaintiff-borrowers sought to invoke tribal law on a
question of arbitrability. They were unable to demonstrate any difference between the law of the forum
state and tribal law because there was no source of
tribal law (with the limited exception of the Booth case
in which counsel represented that tribal law allowed
for the doctrine of estoppel).
This case is no different. Although Defendants seek
to apply the Chippewa Cree law concerning arbitration, they cannot direct the court to any specific
provisions of that law. In an extended footnote, the
Tribal Defendants argue that “Chippewa Cree law
provides a standard for evaluating unconscionability,
which may be supplemented by Montana or federal
law.” (Doc. 92 at 18 n.13.) Although they refer to the
Gunson decision, that is a decision in which the judge
rejected a similar claim due to a lack of showing of the
substance of Chippewa Cree law. Gunson v. BMO
Harris Bank, NA., 43 F. Supp. 3d 1396, 1400 (S.D. Fla.
2014).
The Tribal Defendants also cite section 10-3-602
of the Tribal Lending Code which bars arbitration
clauses which are “oppressive, unconscionable, unfair,
or in substantial derogation of a Consumer’s rights.”
(Doc. 92-1 at 11.) This section adopts the standards
of the American Arbitration Association (“AAA”) as
presumptive proof that an arbitration clause does not
violate the Lending Code. The rules and standards
promulgated by the AAA provide neutral procedures
which govern the arbitration hearing itself. These
the Court notes that plaintiffs have not demonstrated a conflict
with Connecticut law on estoppel. In fact, plaintiffs state that
they do not take a position on the applicability of any foreign law
but only point out that defendants have not addressed the issue
in their memoranda.”).

60a
standards do not define “unconscionability” or otherwise provide rules of decision for when a decision is
subject to arbitration. The reference to AAA standards
provides no insight into the substantive content of the
tribal law.
The denunciation of oppressive and unconscionable
arbitration clauses in the tribal lending law tells the
court nothing about what those terms might be. Section
10-3-602 of the tribal finance code represents a potential starting point. It is an invitation to regulators or
tribal courts to develop a body of law defining the
content of “unconscionability.” But Defendants offer
no evidence that such a body of law exists.
The court intends no disrespect to the tribal law or
to the judges of the tribal courts of the Tribe. The entry
of the Tribe into payday lending appears to be
relatively recent. The use and enforcement of arbitration provisions under tribal law do not appear to have
been a topic which the tribal lawmakers had reason to
consider in the past. The parties have not directed the
court to any prior decisions by the tribal courts on the
enforcement of agreements to arbitrate. At least on
the record provided to the court through the parties’
memoranda, Chippewa Cree law is almost entirely
silent on questions of arbitrability of disputes.
The absence of a body of tribal law means that a
reference to tribal law within the contract does little
to establish the terms of the parties’ agreement. If this
body of law is uncertain or not yet developed, the
reference to it fails to add anything to the parties’
agreement. In the absence of evidence of the content of
tribal law, the court reaches two conclusions. The first
is that it cannot enforce the contractual choice-of-law
provision because neither the court nor the parties
have been able to determine the content of the tribal

61a
law. The court cannot adopt by reference an unknown
body of law.
The second is that the only remaining choice for
substantive rules of decision about unconscionability
and the enforcement of the arbitration clause is Vermont
law. There is no viable alternative. But additionally,
as the brief submitted by the Vermont Attorney
General makes clear, Vermont has a strong interest in
the issues of consumer protection raised in this case.
The two plaintiff-borrowers are Vermont residents.
They entered into the loan agreements from their
homes in Vermont. They seek to vindicate banking
rules under Vermont law as well as federal law. The
choice of Vermont law concerning the potential unconscionability of the arbitration clauses is neither surprising
nor inherently unfair.
B. Who decides whether the claims made in
this case are subject to arbitration?
The parties disagree over whether the court or
the arbitrator have the authority to decide whether
the claims of unlawful lending practices are subject
to arbitration. Most commonly, the validity of an
arbitration agreement is an issue for determination
by the courts. See AT&T Techs., Inc. v. Commc’ns
Workers of Am., 475 U.S. 643, 649 (1986). Delegation
of such questions to the arbitrator herself is permitted
on the basis of clear and unmistakable evidence that
the parties have chosen to give such questions to an
arbitrator. See Rent-A-Center, W, Inc. v. Jackson, 561
U.S. 63, 69 n.1 (2010). In this case, Defendants rely
upon language in the arbitration agreement which
indicates that the question of arbitrability has been
delegated to the arbitrator. Specifically, they direct
the court’s attention to the definition of “disputes”
subject to arbitration which includes the following

62a
provision: “A Dispute [subject to arbitration] includes
. . . any issue concerning the validity, enforceability or
scope of this loan or the Agreement to Arbitrate.” (Doc.
13-5 at 50.)
In response, Plaintiffs argue that the delegation
clause does not really place the arbitrator in charge
with respect to issues concerning arbitrability. Disputes
concerning any claim for class-wide arbitration are
reserved to “a court of competent jurisdiction located
within the Chippewa Cree Tribe, and not by the
arbitrator.” (Doc. 13-5 at 51.) Since the claim in this
case is a class-wide claim, the arbitrator is without
authority to consider the scope of his or her authority
as an arbitrator. Plaintiffs also contend that Defendants have failed to provide proof of the content of
Tribal law concerning arbitration, including the extent
of the arbitrator’s authority to invalidate an arbitration agreement pursuant to § 2 of the FAA. They also
point to the inherent conflict within the arbitration
provisions between the authority of the arbitrator and
the broad scope of review and appellate supervision to
be exercised by the tribal court over any arbitration
award.
The court agrees with Plaintiffs that issues concerning the validity of the arbitration clause should be
decided by the court for two reasons.
First, the arbitration clause does not explicitly delegate authority on this subject to the arbitrator. Questions
related to the arbitrability of class action claims are
sent instead to the tribal court. More broadly, all decisions by the arbitrator are subject to plenary review by
the tribal court. The arbitration provisions include a
statement—remarkable in the context of arbitration
law—that “[t]he arbitration award will be supported
by substantial evidence and must be consistent with

63a
this Agreement and applicable law or may be set aside
by the tribal court upon judicial review.” (Doc. 13-5 at
51.)16 This provision removes much of the arbitrator’s
independent authority to make binding determinations on any issue, including legal issues concerning
the scope of the arbitration agreement. It effectively
refers these questions to the tribal court which has
broad authority to review for legal and factual error.
The arbitrations conducted pursuant to this agreement more closely resemble bench trials with a right
of appellate review rather than binding arbitrations.
Second, Plaintiffs’ challenge to the arbitration provision is separate and distinct from their attack on the
payday loan agreement. The challenge to the payday
loan agreement is one of illegality. Plaintiffs allege
that the exceedingly high interest rates and related
loan terms violate substantive restrictions on consumer lending imposed at the state and federal levels.
The challenge to the arbitration clause is different.
Plaintiffs allege that the tribal law and the tribal court
system have been corrupted by large investors from
outside the reservation. The claim is plausible for
purposes of federal pleading standards since Plaintiffs
have alleged a variety of facts which bring into question the independence and objectivity of the tribal
legal system. (The court makes no determination on
this issue on a motion to dismiss, but the claim—still
unproven—is sufficient to support discovery and,
potentially, proof of these allegations at trial.)
16

It is difficult to imagine what this means in practice. It
appears to anticipate that a record of the proceedings will be
kept and the transcript reviewed for evidentiary support of the
outcome. It also contemplates written findings of fact and
conclusions of law since a one-line award could not be reviewed
by the tribal court for consistency with tribal law.

64a
This separate attack on the arbitration clause satisfies the majority’s test in Rent-A-Center. Plaintiffs
have attacked the arbitration clause directly and the
delegation clause specifically. In paragraph 131 of the
FAC, Plaintiffs allege that “[tlhe delegation provision
of the Purported Arbitration Agreement is also fraudulent.” (Doc. 18 ¶ 131.) Plaintiffs identify the right of
review in the tribal courts of any decision by the
arbitrator as a basis for invalidity because Defendants
“had the ability to control the Tribe’s law and presumably could control actions taken by the tribal court. As
a result, any review by the tribal court would be
nothing more than a sham.” (Id.) Unlike the attack on
the contract as a whole which the Supreme Court
identified as subject to arbitration in Rent-a-Center,
this is a focused claim that the delegation clause itself
is unconscionable.
Since Plaintiffs have made a specific attack on the
delegation clause as unconscionable, the court, not the
arbitrator, must determine whether the arbitration
clause is valid. It is hard to see how the outcome could
be different. If Plaintiffs are able to prove that the
tribal legal system, both with respect to its law and to
its judiciary, are subject to improper influence and
control by Defendants, then delegating the question
of arbitrability to the very system under attack is
unlikely to result in a fair evaluation of Plaintiffs’
claim that the tribal justice cannot fairly evaluate
claims of its own shortcomings. It is an elementary
principle of justice that no one should serve as the
judge in their own cause. Nemo index in causa sua.

65a
C. Have Plaintiffs identified a sufficient basis
for a decision by the court that the
arbitration award is unconscionable?
Payday lending over the internet by lenders located
on Indian reservations has increased sharply in recent
years.17 Arbitration agreements very similar to the one
in this case have become common. Such agreements
typically require arbitration which is governed by
tribal law and conducted in a manner which permits
the tribe to exert influence or control over the outcome.
Such arbitration agreements commonly require the
application of tribal law in a manner calculated to
defeat state and federal consumer protections. Appellate
courts hearing these cases have become increasingly
candid in refusing to enforce the arbitration clauses
because these clauses represent an obvious effort to
deprive consumers of legal protections from unlawful
lending and collection practices.
In Hayes v. Delbert Services Corp., 811 F.3d 666 (4th
Cir. 2016), the Fourth Circuit struck down an arbitration clause on facts relatively similar to those in this
case. The lender—Western Sky—was an online lender
owned by a member of the Cheyenne River Sioux
Tribe. Its offices were located on the Cheyenne River
Indian Reservation in South Dakota. As in this case,
Western Sky issued short-term, extremely high interest
loans over the internet. Western Sky stopped issuing
loans following FTC enforcement action and numerous
private lawsuits. See FTC v. Payday Fin. LLC, 989
F. Supp. 2d 799, 822 (D.S.D. 2013) (disgorgement of
17

See Illegal Lending: Facts and Figures (Report by Vermont
Attorney General’s Office, Apr. 23, 2014), at 5, available at http://
ago.vermont.gov/assetstfiles/Consumer/Illegal_Lending/Illegal%
20Lending%20Report%20April%202014.pdf (noting that, increasingly, online lenders claim affiliation with Indian tribes).

66a
profits in the amount of $417,740). Before going out of
business, Western Sky assigned its loan service and
collection work to Delbert Services Corp. Delbert
sought dismissal of a borrower’s action complaining of
illegal loan collection activities by relying upon the
arbitration clause in the loan agreement.
In a strongly worded decision, the Fourth Circuit
held that an arbitration agreement which attempts to
preclude a consumer’s recourse to federal consumer
law protecting borrowers rendered the arbitration
provision invalid and unenforceable. The offending
provision, like the arbitration language at issue in this
case, stated that the arbitration agreement shall be
governed by tribal law. The court recognized that the
FAA favors arbitration as a legitimate exercise of the
right to form private contracts. However, said the
court:
[R]ather than use arbitration as a just and
efficient means of dispute resolution, Delbert
seeks to deploy it to avoid state and federal
law and to game the entire system. Perhaps
in the future companies will craft arbitration
agreements on the up-and-up and avoid the
kind of mess that Delbert is facing here.
Hayes, 811 F.3d at 676.
The facts of the Hayes case differ in some respects
from this case. Delbert—a debt collector—was not
located on an Indian reservation or in some other way
subject to tribal law. The arbitration clause required
arbitration by an authorized representative of the
tribe subject to the borrower’s right to select AAA,
JAMS, or another arbitration organization to “administer the arbitration.” Id. at 670. The arbitration

67a
clause stated that “no United States state or federal
law applies to this Agreement.” Id.
The present case is a little different. The arbitration
is not merely administered but actually conducted by
an AAA or JAMS arbitrator at a location convenient
for the borrower. There is no express disclaimer of all
federal law although there is such language with
respect to state law. But these differences are minor
and do not reach the heart of the Hayes decision, which
is that an arbitration agreement crafted to preclude
federal and state consumer protections is unenforceable as unconscionable. As in Hayes, the arbitration
clause states that it is governed by the Indian
Commerce Clause and “the laws of the Chippewa Cree
Tribe.” (Doc. 13-5 at 52.)18 By its express terms, therefore, the arbitration clause authorizes the arbitrator—
bound by her oath to implement the terms of the
parties’ contract—to follow a body of law which Plaintiffs claim does not include basic federal and state
protections against predatory loan practices because it
was drafted in order to avoid such regulation.
The Western Sky arbitration agreement fared no
better before the Seventh Circuit. In Jackson v. Payday
Financial, LLC, 764 F.3d 765 (7th Cir. 2014), cert.
denied, 135 S. Ct. 1894 (2015), the appellate panel
refused to enforce what it termed an “illusory” arbitration clause which required arbitration before a tribal
elder or three members of the tribal council with the
borrower’s participation by phone or videoconference.
id. at 768. In sharply critical terms, the court held
18

The reference to the Indian Commerce Clause is an irrelevancy which is repeated in many of the tribal lending agreements.
That clause is a grant of legislative authority to Congress to
regulate commerce “with the Indian Tribes.” It has nothing to do
with the authority of tribes to enact their own laws.

68a
the agreement to be unconscionable both because it
referred to arbitration procedures on the reservation
which did not exist and because it was drafted to
ensure partiality. id. at 779.
In the present case, the referral to AAA or JAMS
arbitration avoids the criticism that the arbitration
forum does not really exist. But the same fundamental
criticism applies. By incorporating the tribal financial
law and making all arbitrations reviewable by the
tribal court on both the law and the facts, the defendants have effectively insulated themselves from claims
that they have violated state and federal lending laws.
Those are Plaintiffs’ claims, in any event, and Plaintiffs are entitled to an opportunity to prove that they
are true.
IV. Forum Non Conveniens, Venue, and Indispensable Parties
Having determined that Defendants are properly
before the court and that Plaintiffs have alleged facts
which could render the arbitration clause unenforceable, the court turns to remaining issues related to
the court’s authority to hear this case. These are the
claims of forum non conveniens, venue (Rule 12(b)(3)),
and absence of indispensable parties (Rule 12(b)(7)).
A. Forum Non Conveniens
The Tribal Defendants argue that, if the court declines
to enforce the arbitration agreements, the court should
enforce the agreements’ forum-selection clauses and
dismiss the case under the doctrine of forum non
conveniens. (Doc. 66 at 31 n.20.) Mr. Rees joins in that
argument. (Doc. 67-2 at 23.) Forum non conveniens
allows a court to dismiss a case when “the forum
chosen by the plaintiff is so completely inappropriate
and inconvenient that it is better to stop the litigation

69a
in the place where brought and let it start all over
again somewhere else.” Grammenos v. Lentos, 457
F.2d 1067, 1074 n.5 (2d Cir. 1972). However, “since the
enactment of 28 U.S.C. § 1404(a), ‘the federal doctrine
of forum non conveniens has continuing applicability
only in cases where the alternative forum is abroad.’”
Saunders v. Morton, 269 F.R.D. 387, 400 (D. Vt. 2010)
(quoting Am. Dredging Co. v. Miller, 510 U.S. 443, 449
n.2 (1994)). No party proposes a foreign jurisdiction
where this case should be brought; thus forum non
conveniens does not apply.
The Tribal Defendants’ request is, apparently, that
the case be transferred to the District of Montana.
Transfer “[f]or the convenience of parties and witnesses” and “in the interest of justice” is authorized
under 28 U.S.C. § 1404(a), but Defendants raise no
real “convenience” argument. Their objections to the
presence of the case in this district as opposed to some
other court are either related to personal jurisdiction
or arbitrability. The court has already rejected dismissal on these grounds. The court will not dismiss the
case on forum non conveniens grounds or transfer the
case under § 1404.
B. Venue
Venue in this case is predicated on 18 U.S.C. § 1965
and the general venue statute at 28 U.S.C. § 1391(b)(2).
Either is a sufficient basis for venue in this court.
Section 1965(a) authorizes a civil RICO suit to be filed
in any district in which the defendant “transacts his
affairs.” Section 1391(b)(2) authorizes venue in any
district where “a substantial part of the events or
omissions giving rise to the claim occurred.” Plaintiffs’
allegations—that as a result of the actions of Rees and
the Think Defendants, Plain Green entered into multiple illegal loan transactions with Plaintiffs—satisfies

70a
either standard. Venue is proper in the District of
Vermont.
C. Indispensable Parties
The Tribal Defendants seek dismissal under Rules
12(b)(7) and 19 because Plaintiffs have not brought
suit against Plain Green or the Tribe itself. They argue
that since the FAC seeks to declare Plain Green’s
lending model to be illegal, the lawsuit cannot proceed
in the absence of Plain Green and the Tribe which
formed it. On that theory, since Plain Green and the
Tribe enjoy sovereign immunity, the claims against
the other Defendants must be dismissed. Plaintiffs
respond that the doctrine of Ex Parte Young permits
suit against tribal officials and satisfies concerns
about the effect of this court’s ruling on an absent
defendant.
The short answer to the claim of indispensable party
is that the presence of the Tribal Defendants in this
case satisfies the requirements of Rule 19. The essential purpose of the Ex Parte Young doctrine is to permit
suits for injunctive relief against entities such as
state agencies which would otherwise be subject to
sovereign immunity. In the case of tribes, the courts
have long recognized that tribal interests may be
adjudicated through Ex Parte Young. See Bay Mills,
supra. The application of Ex Parte Young to suits
against tribal officials extends to claims arising under
state as well as federal law. See Puyallup Tribe, Inc. v.
Dep’t of Game of State of Washington, 433 U.S. 165
(1977) (tribal officials subject to suit to enjoin violations of state law).
V. Plausibility and “Group Pleading”
The Think Defendants contend that Plaintiffs have
failed to allege plausibly that the Think Defendants

71a
have engaged in unlawful conduct, and that Plaintiffs’
“group pleading” allegations are insufficient to state a
claim against TC Loan Service, TC Decision Sciences,
and Tailwind Marketing. (Doc. 65 at 2.) Thus, before
considering the motions to dismiss in the context of
individual causes of action, the court considers the
plausibility of Plaintiffs’ allegations under principles
expressed in Bell Atlantic Corp. v. Twombly, 550 U.S.
544 (2007) and Ashcroft v. Iqbal, 556 U.S. 662 (2009).
Many of the allegations in the case are undisputed.
All parties agree that Plaintiffs took out a series of
loans from Plain Green at interest rates greatly in
excess of the 24% maximum allowed by Vermont’s
usury law. The parties agree that Think Finance, Inc,
provided services and support which enabled the
Tribe to form Plain Green and enter into the internetlending business. (Doc. 18-1.) In exchange for its
participation, the Tribe would receive approximately
5% of cash revenue generated by the loans. (Id.) Plain
Green entered into loan agreements with borrowers
which permitted electronic access to the borrowers’
accounts. These allegations are entirely plausible since
they are undisputed.
Where the parties disagree most sharply is over the
issue of whether Defendants are engaged in an illegal
business. Defendants view Plain Green as a sovereign
entity exempt from state usury requirements. There is
no limit on interest rates under the law of the Tribe.
For many years, banks operating in the United States
have avoided state usury laws by establishing themselves in states such as South Dakota and Delaware
which do not have usury restrictions.19 Through the
19

See Mark Furletti, The Debate Over the National Bank Act
and the Preemption of State Efforts to Regulate Credit Cards, 77
Temp. L. Rev. 425, 443 (2004) (reporting that in 2003, South

72a
doctrine of federal preemption, banks providing credit
card services and other loans have avoided the effects
of state law. (See Doc. 18 ¶ 38.)20 Defendants seek
similar treatment for Plain Green through tribal
immunity. Whether this argument succeeds presents
a mixed question of law and fact. Factual issues may
include the claim that the tribal lending law and the
courts that enforce it are corrupt or that the law does
not exist in important areas. The principal legal issue
concerns the conflict of tribal law and Vermont consumer protections in the context of loans made
through the internet. These issues do not raise questions about the plausibility of the pleadings.
A second area where the parties disagree concerns
the role of Mr. Rees and the Think Defendants in the
Plain Green loan business. The FAC alleges that Mr.
Rees “personally designed and directed the business
activity described in this Complaint.” (Doc. 18 ¶ 10.)
The FAC describes this business activity as an “illegal
scheme” and “a new way to prey on unsuspecting
people.” (Id. ¶ 23.) The FAC describes Mr. Rees as the
former President and CEO (and current Chairman
of the Board) of Think Finance and the current CEO
of Elevate Credit, Inc. He is alleged to maintain a
“controlling interest and operational role in Think
Finance.” (Id. ¶ 10.) Plaintiffs allege that Mr. Rees and
Think Finance “created the whole [Plain Green] enterDakota, Delaware, and four other states were home to national
banks holding approximately 70% of all credit card debt in the
United States.).
20

See also Marquette Nat 7 Bank of Minneapolis v. First of
Omaha Serv. Corp., 439 U.S. 299, 313 (1978) (under the National
Bank Act, 12 U.S.C. § 85, bank located in Nebraska could charge
out-of-state credit-card customers the lending rate allowed by
Nebraska).

73a
prise and ran its operation through an assortment of
subsidiaries and affiliates like Defendants Tailwind
Marketing, TC Loan, and TC Decision Sciences.” (Id.
¶ 101.)
Rees and the Think Defendants describe their role
in less colorful terms. Mr. Recs describes himself as
a former Chairman of the Board of Think Finance
from September 2005 until May 2015 and a former
President and CEO of TC Loan Service during the
same period. (Doc. 67-1, Affidavit of Kenneth Rees,
¶¶ 2-3.) He denies having been a majority shareholder
and as of the date of his affidavit in September 2015,
did not have an “operational role” in Think Finance.
The Think Defendants are described as companies
providing services through “the usual relationship
between a lender and its service providers.” (Doc. 65
at 3.) One might recall the words of the police officer,
“Nothing to see here, folks. Move along.”
Determining which side is right is beyond the scope
of a motion to dismiss. But in weighing plausibility,
the court finds the FAC to be a plausible and coherent
account of otherwise inexplicable facts. No defendant
offers a reason why Think Finance would join with a
tribe in Montana to form an internet lending business
except as a means of avoiding financial regulation
under the flag of sovereign immunity. There may be
other reasons, but they do not appear on this record.
The Tribal Defendants offer no reason why their
tribe would form an internet lender in exchange for a
4.5% share of revenue. One plausible reason is that by
adopting a tribal lending code tailored to the needs of
Think Finance and Mr. Rees, they could offer some
measure of immunity from state regulation. It may be
that the adoption of the tribal lending law in 2013 had
no connection with the confidential “Term Sheet for

74a
Think Finance-Chippewa Cree Transaction” signed in
2011. Such a proposition appears unlikely since the
second paragraph of the term sheet calls for the Tribe
to “adopt a finance code that is acceptable to all parties
and provide for the licensing of an arm of the tribe to
engage in consumer lending.” (Doc. 18-1 at 1.) In short,
whether Plaintiffs can prove their allegations is a
question for another day, but the allegations are specific and plausible in their description of a plan to
avoid financial regulation of consumer lending.
The court also finds that the claim of “group pleading” does not require dismissal of the case. The FAC
contains specific allegations against Tailwind Marketing
and TC Decision Sciences. Tailwind Marketing provides approved borrowers for Plain Green. (Doc. 18
¶ 89.) TC Decision Sciences provides “customer service, verification and collections of customer accounts”
for Plain Green. (Id. ¶ 90.) Both are controlled by
Mr. Rees and Think Finance. There is no uncertainty
about the allegations against these two companies
which would support dismissal.
VI. Substantive Claims
We have arrived, at last, in the world of Rule 12(b)(6).
To survive a Rule 12(b)(6) motion, a complaint “must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S.
at 570); see also Fed. R. Civ. P. 8(a)(2). Dismissal is
appropriate when “it is clear from the face of the complaint, and matters of which the court may take
judicial notice, that the plaintiff’s claims are barred as
a matter of law.” Conopco, Inc. v. Roll Int’l, 231 F.3d
82, 86 (2d Cir. 2000). In addition to considering the
pleadings, the court may refer to “statements or documents incorporated into the complaint by reference”

75a
and to “documents possessed by or known to the
plaintiff and upon which [she] relied in bringing the
suit.” ATSI Commc’ns, Inc. v. Shaar Fund, Ltd., 493
F.3d 87, 98 (2d Cir. 2007). Applying that standard, the
court addresses below the motions to dismiss specific
substantive claims.
A. Consumer Financial Protection Act (Count
One)
Defendants are correct in their claim that the Consumer Financial Protection Act (“CFPA”), 12 U.S.C.
§ 5481 et seq., does not provide for a private cause of
action, Although reported cases on this issue are
scarce, the structure and specific provisions of the
CFPA makes it clear that Congress did not intend to
create a private cause of action. It is Congressional
intent which determines whether a statute, otherwise
silent on the point, authorizes private lawsuits. See
M.F. v. State of NY. Exec. Dep’t Div. of Parole, 640 F.3d
491, 495 (2d Cir. 2011) (analysis focuses on congressional intent). The CFPA is explicit in the creation
of a new federal agency, the Bureau of Consumer
Financial Protection, which acts as both the rulemaking body and the federal enforcement agency for federal
consumer laws previously entrusted to multiple agencies. See 12 U.S.C. § 5491(a) (“There is established in
the Federal Reserve System, an independent bureau
to be known as the ‘Bureau of Consumer Financial
Protection’, which shall regulate the offering and provision of consumer financial products or services under
the Federal consumer financial laws.”). The Bureau
has broad authority to file civil actions in federal court
to enforce the provisions of the federal consumer
protection laws. Id. § 5564.
The CFPA contains no express authority for its
enforcement through private lawsuits. It authorizes

76a
enforcement actions by state attorneys general and
state regulators. Id. § 5552. But it is entirely silent
regarding private remedies. Legislative silence on
such an issue is most frequently regarded by courts as
an expression of legislative intent to exclude private
remedies. See Bellikoff v. Eaton Vance Corp., 481 F.3d
110, 116 (2d Cir. 2007) (courts “cannot ordinarily conclude that Congress intended to create a right of action
when none was explicitly provided”). Courts in this
circuit have held that the CFPA creates no private
right of action. See Nguyen v. Ridgewood Sav. Bank,
Nos. 14-CV-1058 (MKB), 14-CV-3464 (MKB), 14-CV3989 (MKB), 2015 WL 2354308, at *11 (E.D.N.Y. May
15, 2015) (“Plaintiffs provide no statutory basis, and
the Court can find none, for finding a private right of
action under these provisions of the statute, which
outlines duties, authorities and enforcement powers of
the CFPB.”).
The absence of a private remedy is unsurprising
because the CFPA’s primary purpose is to place
responsibility for enforcing many different federal
consumer protection statutes with a single newly
formed regulator. 12 U.S.C. § 5492. The CFPA itself
contains few new substantive protections. Plaintiffs
direct the court’s attention to one: section 5533 which
provides in part that “[s]ubject to rules prescribed by
the Bureau, a covered person shall make available to
a consumer, upon request, information . . . concerning
[any consumer transaction].” Id. § 5533(a). To date
the Bureau has not issued rules to implement this
provision. The obvious intent of the provision is to
prompt the adoption of a detailed regulatory system
for placing information about a financial transaction
in the hands of the consumer. The court sees no
indication that this provision was enacted in order
to create a new private right to sue for damages

77a
whenever information is withheld by an entity subject
to the CFPA.
For these reasons, the court concludes that the
CFPA does not create a new private cause of action.
Count One of the FAC is DISMISSED.
B. Federal Trade Commission Act (Count Two)
For similar reasons, it has long been settled that the
Federal Trade Commission Act, 15 U.S.C. § 41 et seq.,
does not authorize a private cause of action. Like the
CFPA, the FTCA creates an enforcement agency and
delegates specific powers to the agency to define the
scope of unfair methods of competition through its
rule-making authority, to conduct administrative hearings to punish and prevent unfair practices, and to file
civil actions for violations of its rules and orders. 15
U.S.C. §§ 57a and 57b. The Second Circuit has long
held that this grant of authority to the federal agency
does not also create a private cause of action. See
Alfred Dunhill Ltd. v. Interstate Cigar Co., 499 F.2d
232, 237 (2d Cir. 1974) (“[T]he provisions of the
Federal Trade Commission Act may be enforced only
by the Federal Trade Commission. Nowhere does the
Act bestow upon either competitors or consumers
standing to enforce its provisions.”); see also Naylor v.
Case & McGrath, Inc., 585 F.2d 557, 561 (2d Cir.
1978).
Since the FTCA does not authorize a private cause
of action, Count Two of the FAC is DISMISSED.
C. Electronic Funds Transfer Act (Count Three)
In contrast to the CFPA and FTCA, the Electronic
Funds Transfer Act (“EFTA”), 15 U.S.C. § 1693 et seq.,
creates individual rights and provides a private
remedy. The EFTA specifically authorizes private

78a
lawsuits, including class action lawsuits as ruled
appropriate by the courts hearing those cases.
15 U.S.C. § 1693m. Congress included a specific statement of purpose for the statute at section 1693: “It is
the purpose of this title to provide a basic framework
establishing the rights, liabilities, and responsibilities
of participants in electronic fund and remittance
transfer systems. The primary objective of this title,
however, is the provision of individual consumer rights.”
Id. § 1693(b). Section 1693m authorizes lawsuits for
damages in the federal courts. The provision specifically contemplates class actions to the extent ruled
appropriate by individual courts. Id. § 1693m(a).
The specific claim is that Defendants violated
§ 1693k(1) by conditioning the extension of short-term
credit to Plaintiffs on their authorization of electronic
fund withdrawals from their accounts as the mandatory method of making repayment. (Doc. 18 ¶¶ 182193.) Such conduct would violate the EFTA and
related regulations. Defendants contend, however,
that Plaintiffs’ claims under the EFTA are too late and
are foreclosed by the language of the loan agreement.21

21

The Tribal Defendants also assert that the EFTA does not
apply substantively to the Tribe (or to them, by extension)
because tribal sovereigns “are not expressly included among the
‘persons’ or entities subject” to the EFTA, (Doc. 66 at 20 n.7.)
Section 1693k prohibits conduct by “person[s].” The EFTA itself
does not define “person,” but the regulations implementing the
EFTA define “person” as “a natural person or an organization,
including a corporation, government agency, estate, trust, partnership, proprietorship, cooperative, or association.” 12 C.F.R.
§ 1005.2(j). That broad interpretation is entitled to deference,
and—for reasons similar to those discussed below regarding
“persons” suable under RICO—the court concludes that the
Tribal Defendants may be sued under the EFTA.

79a
Defendant Rees argues that he cannot be held vicariously liable for the actions of the lender.
1. Statute of Limitations
The EFTA provides a one-year statute of limitations
for private lawsuits. 15 U.S.C. § 1693m(g). Plaintiffs
do not dispute that they filed suit in May 2015—more
than a year after the loans at issue were made. But the
limitations period is subject to equitable tolling.
Apostolidis v. JP Morgan. Chase & Co., No. 11-CV5664(JFB)(WDW), 2012 WL 5378305, at *7 (E.D.N.Y.
Nov. 2, 2012). Plaintiffs contend that equitable tolling
is appropriate in this case. (Doc. 85 at 83.)
Equitable tolling is a fact-specific doctrine. Plaintiff
Gingras offer no reason for the application of equitable
tolling to her claim. Plaintiff Given, on the other hand,
claims that Plain Green blocked access to her account
during the limitations period and that there are other
facts which would support tolling the limitations
period so as to preserve her claim.
The EFTA claim of Plaintiff Gingras is DISMISSED
as beyond the statute of limitations. The court cannot
rule on the timeliness of Plaintiff Givens’ EFTA claim
because she has raised facts which may support a
determination that her claim is timely.
2. Conditioning the Loan on Electronic
Fund Withdrawals
The loan agreements signed by Plaintiffs include
two ways in which the loan may be funded and repaid.
The first is by electronic fund authorization. Funding
by electronic transfer (“as soon as the next business
day”) is conditioned on ACH Authorization (electronic
withdrawal from the customer’s account). (Doc. 13-5 at
31.) Funding by postal mail (“up to 7 to 10 days” in the

80a
language of the loan agreement) is conditioned on
payments by money order or certified check. (Id.)
Plaintiffs allege that the choice offered to consumers
between funding “as soon as the next business day”
which is conditioned on electronic fund authorization
and the much longer process offered for people electing
to pay by mail is a false choice. Defendants respond
that since electronic fund authorization was not the
only way to obtain a loan, the EFTA does not apply.
The court sees this issue as fact-specific and not one
which can be resolved through a motion to dismiss. It
is possible that Plaintiffs are correct that Defendants
have so obstructed the choice of repayment by check
with delay (“up to 7 to 10 days” plus the expiration of
a “right of rescission”) that the option is a false choice.
Given the nature of the loan itself—immediate cash at
very high interest rates—it seems unlikely that
Defendants ever funded a loan to any borrower with
repayment by check. It remains for discovery and for
fact-finding to determine if the loan agreement is
drafted so as to skate around the restrictions of EFTA.
3. Mr. Rees’s Role
Mr. Rees contends that Plaintiffs seek to hold him
vicariously liable for the actions of Plain Green. The
court reads the FAC differently. Plaintiffs seek to hold
Mr. Rees liable for any EFTA violation because they
claim that he developed the entire scheme, including
the alleged violation of EFTA, and is responsible as the
principal in an unlawful business arrangement. This
is an issue which cannot be resolved on a motion to
dismiss.
The EFTA claim of Plaintiff Gingras only is
DISMISSED because she does not assert that her
claim is subject to equitable tolling or for some other

81a
reason timely. The motion to dismiss the EFTA claim
of Plaintiff Given is DENIED.
D. Vermont Consumer Fraud Act (Count Four)
In contrast to the FTCA, the Vermont Consumer
Fraud Act (“VCFA”), 9 V.S.A. § 2451 et seq., provides
a private cause of action. Section 2461(b) of Title 9
authorizes suits for damages including attorneys’ fees
and punitive damages. A violation of the FTCA is
one of the potential bases for liability under the VCFA.
In defining “unfair methods of competition in commerce and unfair or deceptive acts or practices in
commerce”—which may form the basis for liability—
the Vermont legislature stated: “It is the intent of the
Legislature that in construing [this provision,] the
courts of this State will be guided by the construction
of similar terms contained in Section 5(a)(1) of the
Federal Trade Commission Act . . . .” Id. § 2453(b).
In effect, the VCFA provides a state-law private
remedy for violations of the FTCA (as well as for
claims of fraud in businesses beyond the scope of the
FTCA). In the setting of this case, the VCFA restores
the claims which the court dismissed under the FTCA
for lack of a private cause of action. See Vt. Mobile
Home Owners’ Ass’n, Inc. v. Lapierre, 131 F. Supp. 2d
553, 558 (D. Vt. 2001) (court applying VCFA would be
guided by the construction given to the FTCA). The
FTC itself has filed enforcement actions in other states
against other payday lenders which seek to avoid
regulation by locating themselves on Indian reservations. See, e.g., FTC v. AMG Servs., Inc., No. 2:12-CV00536-GMN, 2014 WL 910302, at *6 (D. Nev. Mar. 7,
2014) (holding, in case where FTC alleged violations of
the FTCA, the Truth in Lending Act, and the EFTA,
that “the FTC Act is a federal statute of general
applicability that . . . grants the FTC authority to

82a
regulate arms of Indian tribes, their employees, and
their contractors”). These claims are similar to the
claims made by the private plaintiffs in this case. The
determination of the FTC that internet lending of this
nature violates the FTCA is a strong indication that
these practices also violate the VCFA.
Although the VCFA follows the FTCA in many
respects, it is not limited to federal violations. As the
amicus brief submitted in this case by the State of
Vermont through the Vermont Attorney General’s Office
demonstrates, Vermont has enacted its own measures
which define unfair and deceptive actions for purposes
of the VCFA. These include 9 V.S.A. § 2481w(b), which
addresses loans by unlicensed lenders and loans with
interest rates in excess of Vermont’s usury limits of
12-24%. See 8 V.S.A. § 2201 (requiring lenders to be
licensed) and 9 V.S.A. § 41a(b) (setting interest rate
limits).
Vermont consumer law specifically identifies internet
lenders as subject to state regulation. 8 V.S.A. § 2233(b).
In a 2014 report, the Vermont Attorney General’s
Office describes the harm caused by unlicensed, highinterest loans.22 In the case of Plain Green, the
Vermont attorney general sent a cease and desist
letter which failed to change the company’s lending
practices. (Doc. 91 at 3.)
The court therefore rejects the Tribal Defendants’
contention (Doc. 66 at 43) that Plaintiffs have failed to
allege any unfair or deceptive acts.

22

See Illegal Lending: Facts and Figures (Report by Vermont
Attorney General’s Office, Apr. 23, 2014), at 3, available at
http://ago.vermont.gov/assets/files/Consumer/Illegal_Lending/Ill
egal%20Lending%20Report%20April%202014.pdf.

83a
Mr. Rees argues that any potential liability is vicarious and not based upon actionable conduct by him.
The short answer is two-fold:
1. Plaintiffs have alleged Rees was a critical
participant in an unlawful plan. Mr. Rees provided the
leadership and experience in the payday lending
business. Plaintiffs allege that he is the principal
architect of the business built around Plain Green.
(Doc. 18 ¶ 23 (describing Mr. Rees as “the mastermind
of this illegal scheme”).) There could have been little
doubt that the business was one of doubtful legality.
See Bay Mills, 134 S. Ct. at 2052 (Thomas, J.,
dissenting) (noting “questionable legality”). Internet
lenders providing loans at these interest rates and on
these terms are the subject of suit and enforcement
action by prosecutors and regulators. See Indictment,
United States v. Hallinan, No. 2:16-er-130-ER-1 (E.D.
Pa. Mar. 31, 2016) (charges against individuals involved
in alleged “rent-a-tribe” payday lending scheme);
Indictment, United States v, Tucker, No. 1:16-cr-91PKC (S.D.N.Y. Feb. 8, 2016) (same).23
2. At the stage of the motion to dismiss, the court
accepts the allegations described above as true.
Plaintiffs have come forward with detailed, plausible
allegations of wrongdoing. Whether these can be proved
is an issue for another day. The motion to dismiss fails
because the FAC contains plausible allegations that
Mr. Rees developed Plain Green, negotiated the term

23

The Office of the Vermont Attorney General says that it
“specifically sent a cease-and-desist letter to Plain Green Loans,
LLC . . . advising the company to immediately cease making and
collecting on all loans made to Vermont Customers.” (Doc. 91
at 3.)

84a
sheet which governs the business arrangements, and
enabled the alleged violations of Vermont law to occur.
E. Unjust Enrichment (Count Seven)
In Count Seven, Plaintiffs allege that “Defendants
have been unjustly enriched by their continued possession of funds illegally taken from people in financially
challenged positions.” (Doc. 18 ¶ 224.) Mr. Rees argues
that Plaintiffs have failed to state a claim for unjust
enrichment. (Doc. 67-2 at 49.)24
In Vermont, [a] claim for unjust enrichment requires that (1) a benefit was conferred on defendant;
(2) defendant accepted the benefit; and (3) it would be
inequitable for defendant not to compensate [plaintiff]
for its value.” Unifund CCR Partners v. Zimmer, 2016
VT 33, ¶ 21.25 “Unjust enrichment applies if in light of
the totality of the circumstances, equity and good
conscience demand’ that the benefitted party return
that which was given.” Kellogg v. Shushereba, 2013 VT
76, ¶ 22, 194 Vt. 446, 82 A.3d 1121 (quoting Gallipo v.
City of Rutland, 2005 VT 83, ¶ 41, 178 Vt. 244, 882
24

The Think Defendants and the Tribal Defendants do not
appear to join this argument. Rees argues that Count Seven only
recites the bare elements of a claim without any factual allegations. (Doc. 67-2 at 49; Doc. 77-1 at 21.) The court rejects that
argument because Count Seven explicitly incorporates by reference all of the factual allegations in the FAC. (Doc. 18 ¶ 223.)
25

These are the elements for what has also been termed a
claim on a contract “implied in law.” Mount Snow Ltd. v. ALLI,
the Alliance of Action Sports, No. 1:12-cv-22-jgm, 2013 WL
4498816, at *8 (D. Vt. Aug. 21, 2013). A separate claim, for
“contract implied in fact,” requires different elements, including
“mutual intent to contract and acceptance of the offer.” Id.
Plaintiffs raise the former claim here, and the court therefore
rejects TCV’s contention (Doc. 76 at 21) that Plaintiffs must prove
“mutual intent.”

85a
A.2d 1177). “The common remedy for unjust enrichment is imposition of a constructive trust, where the
person with the legal title cannot enjoy the beneficial
interest without violating the rules of honesty and fair
dealing.” Mueller v. Mueller, 2012 VT 59, ¶ 29, 192 Vt.
85, 54 A.3d 168 (internal quotation marks omitted).26
Rees asserts that the FAC fails to allege that he
received or accepted any benefit from Plaintiffs. He
contends that Plaintiffs obtained a loan from Plain
Green and repaid those loans to Plain Green. (Doc. 672 at 49.) Plaintiffs say that they have alleged that
Rees received a benefit as an investor-owner of Think
Finance, which retains 95% of the revenue from the
lending operation. (Doc. 85 at 139.)
The court concludes that the FAC adequately alleges
that Rees benefitted from Plain Green’s transactions
with Plaintiffs. The FAC alleges that he is a substantial investor in Think Finance, and that Think Finance
retained almost all of the revenue produced from
Plain Green’s lending operation. That is a sufficient
“benefit” for the purposes of unjust enrichment. See
Powell v. H.E.F. P’Ship, 793 F. Supp. 91, 92-93, 96 (D.
Vt. 1992) (declining to dismiss unjust enrichment
claim against major lender for its role in allegedly fraudulent development project); see also Restatement (Third)
of Restitution and Unjust Enrichment § 1 cmt. d
(“Restitution is concerned with the receipt of benefits
that yield a measurable increase in the recipient’s
wealth. Subject to that limitation, the benefit that is

26

As described above, Plaintiffs’ remedies against the Tribal
Defendants are limited to prospective injunctive or declaratory
relief. That would rule out the constructive trust remedy for any
unjust-enrichment claim.

86a
the basis of a restitution claim may take any form,
direct or indirect.”).
Rees further contends that unjust enrichment does
not apply where the parties have entered into an
express contract, and that Plaintiffs in fact did enter
into contracts—namely, the loan agreements with
Plain Green. (Doc. 67-2 at 50.) The Vermont Supreme
Court has recognized that “it can hardly be equitable
to impose a contract on the parties that completely
undermines the contractual relationships that the
parties themselves have created.” DJ Painting, Inc. v.
Baraw Enters., Inc. 172 Vt. 239, 245, 776 A.2d 413, 419
(2001); see also Restatement (Third) of Restitution and
Unjust Enrichment § 2(1) (“A valid contract defines
the obligations of the parties as to matters within
its scope, displacing to that extent any inquiry into
unjust enrichment.”). However, Plaintiffs have plausibly alleged that the loan agreements are not valid
because they are unlawful, as part of a plan to avoid
financial regulation. If Plaintiffs prove that, then
relief under an unjust enrichment theory is not foreclosed. See Restatement (Third) of Restitution and
Unjust Enrichment § 32.
F. Civil RICO Claims (Counts Five and Six)
Plaintiffs allege that Defendants are liable under
the federal RICO statute, 18 U.S.C. § 1961 et seq.,
because they took part in “collection of unlawful debt”
as well as “racketeering” activities. See 18 U.S.C.
§ 1962(c) (“It shall be unlawful for any person employed
by or associated with any enterprise engaged in, or the
activities of which affect, interstate or foreign commerce, to conduct or participate, directly or indirectly,
in the conduct of such enterprise’s affairs through a
pattern of racketeering activity or collection of unlawful

87a
debt.”). “The requirements of section 1962(c) must be
established as to each individual defendant.” DeFalco
v. Bernas, 244 F.3d 286, 306 (2d Cir. 2001). There are
multiple elements required to state a RICO claim; and
Defendants raise challenges related to almost every
element.28
27

1. Equitable Relief is Available in Private
RICO Actions
As against the Tribal Defendants, Plaintiffs seek
only equitable relief for the alleged RICO violations.
(Doc. 18 ¶¶ 207, 215.) The Tribal Defendants argue
that RICO’s civil remedies provision, 18 U.S.C. § 1964,
authorizes recovery for money damages only—not equitable relief. (Doc. 66 at 21.) It is true that 18 U.S.C.
§ 1964(c) authorizes recovery of damages without
mentioning injunctive relief. But the court disagrees
with the Tribal Defendants’ narrow reading of the
relief available in private RICO actions.
The Tribal Defendants concede that the Second
Circuit has not expressly decided whether equitable
relief is available in private RICO actions. (Doc. 66 at
27

Plaintiffs’ two RICO counts both appear to be claims under
§ 1962(c): one claim premised on an alleged pattern of racketeering activity (Count Five), and one claim premised on alleged
collection of unlawful debt (Count Six). Plaintiffs assert (Doc. 85
at 108) that the FAC alleges a RICO conspiracy under § 1962(d),
but also concede that the FAC does not contain a count alleging
such a conspiracy. The court accordingly limits its analysis to
§ 1962(c).
28

Some elements—for example, that Plain Green is an “enterprise” or that it is engaged in or affects interstate commerce—are
not challenged by any Defendant. The discussion that follows is
organized according to the elements that are contested, with
analysis of each individual Defendant’s argument on each of
those elements.

88a
21) Other circuits have reached differing conclusions
on the issue.30 District courts within the Second Circuit
are also divided.31 For largely the reasons stated by
Judge Kaplan in Chevron Corp. v. Donziger, 974 F.
Supp. 2d 362 (S.D.N.Y. 2014), this court concludes
that equitable relief is available in private RICO
actions. The court must read the subsections of § 1964
together, and that reading reveals that subsections (b)
and (c) “provide remedies in addition to, and not in
place of, the remedies provided for in Section 1964(a).”
Donziger, 974 F. Supp. 2d at 569.
29

2. “Persons” Suable under RICO
The Tribal Defendants assert that RICO does not
apply substantively to the Tribe (or to them, by
29

In dicta, the Second Circuit has expressed “doubts as to the
propriety of private party injunctive relief’ under RICO. Trane
Co. v. O’Connor Sec., 718 F.2d 26, 28 (2d Cir. 1983). See also
Sedima, S.P.R.L. v. Imrex Co., 741 F.2d 482, 489 n.20 (2d Cir.
1984) (“It . . . seems altogether likely that § 1964(c) as it now
stands was not intended to provide private parties injunctive
relief.”), rev’d on other grounds, 473 U.S. 479 (1985).
30

Compare Religious Tech. Ctr. v. Wollersheim, 796 F.2d 1076,
1080-89 (9th Cir. 1986) (concluding that RICO’s legislative history forecloses injunctions for private plaintiffs), with Nat’l Org.
for Women, Inc. v. Scheidler, 267 F.3d 687, 695 (7th Cir. 2001)
(concluding that “the text of the RICO statute, understood in the
proper light, itself authorizes private parties to seek injunctive
relief’), rev’d on other grounds, 537 U.S. 393 (2003).
31

Compare Chevron Corp. v. Donziger, 974 F. Supp. 2d 362,
568-70 (S.D.N.Y. 2014) (concluding that equitable relief is available in private RICO actions), with Am. Med. Ass’n v. United
Healthcare Corp., 588 F. Supp. 2d 432, 446 (S.D.N.Y. 2008) (“Based
upon the weight of Second Circuit authority and Congress’s
failure to address the issue within the statutory language itself,
this Court will not infer that the right to injunctive and
declaratory relief exists for private litigants under Section 1964
of RICO.”).

89a
extension) because tribal sovereigns “are not expressly
included among the ‘persons’ or entities subject” to
RICO. (Doc. 66 at 20 n.7.) Section 1962(c) applies to
“person[s].” The statute defines “person” to include
“any individual or entity capable of holding a legal or
beneficial interest in property.” 18 U.S.C. § 1961(3)
(emphasis added). That broad definition contains no
specific exemption for tribes. Cf. 42 § 2000e(b) (specifically excluding Indian tribes from the definition of
“employer” for the purposes of Title VII of the Civil
Rights Act).
According to one prominent treatise, governmental
entities “are not subject to RICO liability as defendants.” Gregory P. Joseph, Civil RICO: A Definitive
Guide § 11(A). “There is some disparity in the case law
as to whether governmental entities should be deemed
not to be ‘persons’ or should be recognized as ‘persons’
but simply immune ones.” Id. For most purposes,
“[t]he result is the same: they cannot successfully be
sued.” Id. The Tribal Defendants’ argument, however,
requires a decision on the precise rationale.32
The court concludes that, for the purposes of RICO,
tribes are “persons” but that they enjoy immunity.
This follows from the natural reading of the broad
definition of “person” in § 1961(3)—it includes any
“entity” capable of holding an interest in property.
Sovereign governments like state governments are
governmental entities. Entity, Black’s Law Dictionary
32

In many contexts, it may be sensible to conclude that it is
unnecessary to determine the precise rationale for immunity
because, absent immunity, a successful RICO claim against a
governmental entity could heap duplicative financial harm on
taxpayers who might already have been harmed. See id. That
concern plays no role in this case, however, because the Tribal
Defendants cannot be liable for money damages.

90a
(10th ed. 2014). It follows that tribal governments are
also “entities.” And there is no dispute that such
entities are capable of holding an interest in property.
As discussed above, tribes enjoy immunity. But, as
also discussed above, the immunity of tribal officials
in their official capacity is limited by the analogy to Ex
Parte Young. The court therefore concludes that tribal
officials in their official capacity may be sued for
injunctive relief for conduct occurring outside of
Indian lands that violates 18 U.S.C. § 1962.
3. Mens Rea
The mens rea requirement in RICO is coextensive
with the mens rea requirement found in the predicate
crimes. United States v. Biasucci, 786 F.2d 504, 512
(2d Cir. 1986). The Tribal Defendants contend that
Plaintiffs cannot establish the requisite mens rea for a
RICO violation. (Doc. 66 at 46.) Plaintiffs maintain
that the Tribal Defendants’ argument is “irrelevant”
and “based on several incorrect premises.” (Doc. 85 at
127-28.)
The Tribal Defendants’ argument might be persuasive if the rationale for the Tribe’s immunity were
that, as a governmental entity, the Tribe is incapable
of forming the mens rea necessary for a predicate
RICO act. Some courts have indeed rested on similar
rationales. See Lancaster Cmty. Hosp. v. Antelope
Valley Hosp. Dist., 940 F.2d 397, 404 (9th Cir. 1991)
(RICO claims failed because “government entities are
incapable of forming a malicious intent”); Andrade v.
Chojnacki, 65 F. Supp. 2d 431, 449 (W.D. Tex. 1999)
(same; quoting Lancaster); see also Gregory P. Joseph,
Civil RICO: A Definitive Guide § 11(A) (“Most courts
reason that state and local governments are immune
from RICO liability because they are incapable of

91a
forming the mens rea necessary to commit a predicate
act.” (collecting cases)). That rationale, however, is
unpersuasive. As the Third Circuit has observed, it
“does not distinguish adequately those situations where
municipal corporations are indeed held liable for the
tortious or criminal acts of [their] officials, even where
such acts require a malicious, willful or criminal
intent.” Genty v. Resolution Trust Corp., 937 F.2d 899,
909 (3d Cir. 1991).
The Tribal Defendants also contend that the FAC
fails to allege that any of them “intended to defraud
the Plaintiffs as required by the mail and wire fraud
statutes.” (Doc. 66 at 48 n.36.) According to the Tribal
Defendants, the FAC alleges that Mr. Rees and Think
Finance entered into agreements with the Tribal
Defendants’ predecessors, not the Tribal Defendants
themselves. (See id. (citing FAC ¶ 209).) That argument, however, ignores the fact that the Tribal
Defendants are sued in their official capacity—as the
individual official representatives who, according to
the FAC, have authority to stop the allegedly illegal
conduct. The “intent” to be analyzed is the intent of the
entity that the Tribal Defendants represent.
4. Injury; Causation
To establish a RICO claim, a plaintiff must prove,
among other things, that she suffered “an injury to
business or property.” DeFalco v. Bernas, 244 F.3d
286, 305 (2d Cir. 2001). The Tribal Defendants argue
that Plaintiffs cannot demonstrate that they have
suffered any such injury. (Doc. 66 at 45.) Mr. Rees
argues the same. (Doc. 67-2 at 34.) The court rejects
those arguments for the same reasons that it concludes that Plaintiffs have constitutional standing:
they have a direct, personal stake in the dispute. They
explicitly claim that they paid excessive interest. (Doc.

92a
18 ¶ 115.) Their claims demonstrate their interest in
the subject matter of this lawsuit and the clear potential for relief in their individual cases.
The “by reason of language in § 1964(c) “require[s] a
showing that the defendant’s violation not only was a
‘but for’ cause of his injury, but was the proximate
cause as well.” Sergeants Benevolent Ass’n Health &
Welfare Fund v. Sanofi-Aventis U.S. LLP, 806 F.3d 71,
86 (2d Cir. 2015) (alteration in original) (quoting Holmes
v. Sec. Inv’r Prot. Corp., 503 U.S. 258, 268 (1992)). The
proximate cause requirement “mandates ‘some direct
relation between the injury asserted and the injurious
conduct alleged’ that is not ‘too remote.’ Id. (quoting
Holmes, 503 U.S. at 268).
Mr. Rees contends that Plaintiffs have failed to
allege that their harm was proximately caused by any
alleged RICO violation. (Doc. 67-2 at 35.) He argues
that [n]owhere in the FAC is it alleged that Plaintiffs
or anyone else relied upon any misrepresentations by
Rees in deciding to enter into the loans.” (Id. at 36.)
“And, nowhere in the FAC are there facts alleged
demonstrating that it was a misrepresentation or
fraudulent conduct by Rees that caused plaintiffs to
suffer their injury.” (Id.) Plaintiffs insist that, as
borrowers of usurious debt, they meet the proximate
cause test for RICO. (Doc. 85 at 133.)
Here, the FAC alleges that “Plaintiffs would not
have had their bank accounts debited with illegal ACH
transactions in excess of any legal amount of interest
but for Defendants Rees and Think Finance establishing and running the corrupt enterprise of Plain
Green.” (Doc. 18 ¶ 115.) Of course, alleging but-for causation does not necessarily establish proximate causation.
But the allegations of the FAC sufficiently claim a
relation between the allegedly injurious conduct and

93a
the injury that is not “too remote.” The conduct at
issue includes the alleged marketing and collection of
usurious interest rates. The injury is the alleged
payment of interest at excessive rates. That is a
sufficiently direct relationship to satisfy proximate
cause. Mr. Rees’s argument that Plaintiffs have failed
to allege reliance on any misrepresentation does not
alter that conclusion and, as discussed below, fails to
address the core of the scheme alleged in the FAC.
5. Enterprise; Distinctiveness
The FAC alleges that Plain Green is an “enterprise”
within the meaning of 18 U.S.C. § 1961(4). (Doc. 18
¶ 76.) That is a legal conclusion, not a factual allegation. But no Defendant challenges the “enterprise”
element of Plaintiffs’ RICO claim insofar as Plaintiffs
claim that Plain Green is the “enterprise” at issue.
The Tribal Defendants do contend, however, that
Plaintiffs’ RICO theory violates the “distinctiveness”
requirement. (Doc. 66 at 47 n.35.) According to the
Tribal Defendants, by suing them in their official
capacities as officers and directors of Plain Green,
Plaintiffs are functionally suing Plain Green. Thus,
according to the Tribal Defendants, Plaintiffs have
designated Plain Green as both the RICO defendant
and enterprise, which the Tribal Defendants say is
fatal to Plaintiffs’ RICO theory. (Id.)
It is true that, “[u]nder section 1962(c), a defendant
and the enterprise must be distinct.” DeFalco, 244
F.3d at 307. However, Plaintiffs are suing the Tribal
Defendants not solely as directors of Plain Green, but
also as official representatives of the Tribe. (See Doc.
18 ¶ 209.) The Tribal Defendants concede that the
Tribe and Plain Green are distinct entities. (Doc. 92
at 19 n.14.) The court concludes that the allegations

94a
in the FAC do not violate RICO’s distinctiveness
requirement.
6. Management and Operation
A necessary element for liability under § 1962(c) is
that the defendant “conduct[ed] or participate[d], directly
or indirectly, in the conduct of [the] enterprise’s
affairs.” 18 U.S.C. § 1962(c). Interpreting that provision, the Supreme Court has held that such conduct or
participation requires that a defendant “participate in
the operation or management of the enterprise itself.”
Reyes v. Ernst & Young, 507 U.S. 170, 185 (1993).
Under that “operation or management” test, “participation” requires a defendant to have “some part in
directing” the enterprise’s affairs, and thus RICO
liability for “participation” is “not limited to those with
primary responsibility for the enterprise’s affairs.”
Id. Liability under § 1962(c) is not limited to “upper
management”; an enterprise may be “operated” “not
just by upper management but also by lower rung
participants in the enterprise who are under the
direction of upper management.” Id. at 184. The court
discusses whether each set of Defendants meets this
test.33
a. Mr. Rees and the Think Defendants
Mr. Rees and the Think Defendants contend that
the FAC does no more than allege that they provided
services to the alleged enterprise, and that such
allegations fall short of alleging their “operation or
management.” (Doc. 65 at 14; see also Doc. 67-2 at 46.)
It is true that, in the term sheet, Think Finance
33

The Tribal Defendants raise no argument on this RICO
element; presumably because, as directors of Plain Green, they
would indisputably meet the operation or management test.

95a
described what it brought to the deal with the Tribe as
“services”;
TF will license its software to the Tribe
pursuant to a software license agreement
acceptable to the parties. TF will also provide
risk management, application processing,
underwriting assistance, payment processing, and ongoing customer service support
coterminous with the software license agreement and market and/or identify access
channels for consumer loans on the Tribe’s
behalf (jointly “Services”).
(Doc. 18-1 at 1.) Plaintiffs note that the FAC explicitly
asserts that Think Finance did more than provide
“services.” (See Doc. 18 ¶ 101 (“Defendants Rees and
Think Finance hoped to avoid liability by falsely
claiming that they only provided services to Plain
Green, when in reality they created the whole enterprise and ran its operation through an assortment of
subsidiaries and affiliates like Defendants Tailwind
Marketing, TC Loan, and TC Decision Sciences.”).)
According to the Think Defendants, that allegation is
merely conclusory. (Doc. 96 at 4.)
Evaluating the factual allegations in the FAC, the
court concludes that Plaintiffs have plausibly alleged
that Rees and Think Finance “participated” in the
operation or management of the enterprise. The FAC
alleges that Rees and Think Finance prepared the
term sheet (Doc. 18 ¶ 78), which required the Tribe to
“adopt a finance code that is acceptable to all parties
and provide for the licensing of an arm of the tribe to
engage in consumer lending” (id. ¶ 79).34 The FAC
34

Rees points out that he is not a party to the term sheet, nor
is he a signatory to it. (Doc. 98 at 16.) Inspection of the term sheet

96a
further asserts that Rees and Think Finance “intentionally and willfully dominated and still dominate the
operations of Plain Green” and “provided everything
that the enterprise needed to operate.” (Id. ¶ 80.) Rees
and Think Finance also “defined precisely the type of
loan Plain Green would offer to customers and the
terms on which the loan would be offered,” (id. ¶ 83),
and required the enterprise to enter into certain
banking and attorney-client relationships (id. ¶¶ 85,
87). The court concludes that Plaintiffs have plausibly
alleged that both Think Finance and Mr. Rees have
played at least some part in directing the affairs of the
enterprise.
The court cannot reach the same conclusion with
respect to TC Loan Service, LLC, TC Decision Sciences,
LLC, and Tailwind Marketing, LLC. The FAC alleges
that Mr. Rees and Think Finance created those
entities as subsidiaries (id. ¶ 99), and that Mr. Rees
and Think Finance “control and dominate” them (see
id. ¶¶ 89, 90). No allegations in the FAC describe those
entities as having any role in directing the affairs of
the enterprise. The court will accordingly DISMISS
the RICO claim against those Defendants.
b. TCV and Sequoia
TCV and Sequoia each argue that the FAC fails to
allege that they conducted or participated in the
enterprise’s affairs. (Doc. 76 at 22; Doc. 77-1 at 19.)
The principal factual allegations against these two
Defendants are as follows:

(Doc. 18-1) reveals that to be true, but does not foreclose the
plausible allegation that Rees prepared the term sheet (or caused
it to be prepared) for execution by the parties to that document.

97a
Defendants Sequoia and Technology Crossover Ventures provide money that is used to
start the illegal lending process. They reap
rewards through obtaining significant returns
on the investment of their funds in the
enterprise. Sequoia and Technology Crossover
were fully aware of the practices of the enterprise and knew that the practices violated the
law. Sequoia and Technology Crossover do
not make investments without substantial
due diligence into their investments, including legal review of the activities of their
investment vehicle.
(Doc. 18 ¶ 154.) The FAC also asserts that Sequoia and
TCV “executed a series of agreements that documented their relationship with Defendants Rees and
Think Finance” but that “[t]hey have concealed these
arrangements through confidentiality clauses in the
agreements” and have refused to comment on their
role in the RICO enterprise. (Id. ¶ 155.) None of those
allegations describe TCV or Sequoia as having any role
in directing the affairs of the enterprise.
Allegations that TCV and Sequoia provided financing to the RICO enterprise are not sufficient to show
that they conducted or participated in the enterprise’s
affairs.35 Allegations that TCV and Sequoia are “inves35

See Alkhatib v. NY. Motor Grp. LLC, No. CV-13-2337(ARR),
2015 WL 3507340, at *18 (E.D.N.Y. June 3, 2015) (bank did not
satisfy operation or management test where its only alleged
activities were “summarily granting the loan applications created
by the dealership defendants, failing to investigate the plaintiffs’
claims of fraud, and collecting the payments due under the
allegedly fraudulent loans”); Berry v. Deutsche Bank Tr. Co.
Americas, No. 07 Civ. 7634(WHP), 2008 WL 4694968, at *6
(S.D.N.Y. Oct. 21, 2008) (“Lending money to an enterprise does
not establish a role in ‘directing the enterprise’s affairs.’”); Rosner

98a
tors” (shareholders) in Think Finance, or obtained
returns on those investments, are similarly insufficient. Neither would TCV and Sequoia be RICO
“participants” just because they were “fully aware” of
Plain Green’s practices. See Rosner v. Bank of China,
528 F. Supp. 2d 419, 423, 431 (S.D.N.Y. 2007) (despite
allegations that bank “knew about the fraudulent
scheme and its role in the fraudulent scheme,” bank’s
provision of banking services did not qualify as
participation in a RICO enterprise); Dep’t of Econ. Dev.
v. Arthur Andersen & Co. (U.S.A.), 924 F. Supp. 449,
468 (S.D.N.Y. 1996) (“One can ‘knowingly participate’
in fraud without having ‘some part in directing the
affairs of the enterprise.’).
Plaintiffs argue that Sumitomo and Rosner—cited
in the footnote above—actually support their position.
The court disagrees, in Sumitomo, the plaintiff,
Sumitomo Corporation, sued two major banks, alleging that they participated in a scheme to defraud
Sumitomo “by structuring certain transactions so
that they appeared to be normal copper transactions
without disclosing other related transactions that transformed these transactions into bank loans of which
plaintiff was unaware.” Sumitomo, 2000 WL 1616960,
at *1. The “enterprise” in that case was a former
Sumitomo employee, Hamanaka, and each of the two
banks. The court recognized that merely providing
v. Bank of China, 528 F. Supp. 2d 419, 431 (S.D.N.Y. 2007) (Bank
of China’s alleged provision of banking services that aided in the
perpetration of a fraudulent scheme did not qualify as participation in a RICO enterprise); Sumitomo Corp. v. Chase Manhattan
Bank, No. 99 Civ. 4004 (JSM), 2000 WL 1616960, at *1 (S.D.N.Y.
Oct. 30, 2000) (“[M]erely providing financing to a RICO enterprise did not constitute participation in the affairs of the enterprise.” (citing Schmidt v. Fleet Bank, 16 F. Supp. 2d 340, 347
(S.D.N.Y. 1998))).

99a
financing to a RICO enterprise would not constitute
“participation” in the affairs of the enterprise, but held
that the complaints sufficiently alleged “participation”
because “it is the fraudulent financing operation which
is itself the RICO enterprise, and the complaints
sufficiently allege the particular defendant’s participation in its affairs.” Id. Here, the FAC does allege a
fraudulent financing operation (Plain Green), but that
operation extends financing to consumers like Plaintiffs. TCV and Sequoia are not themselves alleged to
be the RICO “enterprise”; nor are they alleged to
directly make loans to consumers.
Rosner is similarly unpersuasive. The court in that
case referenced an earlier related action—Commodity
Futures Trading Commission v. International Financial
Services (New York), Inc., 323 F. Supp. 2d 482
(S.D.N.Y. 2004)—in which Sociedade Comercial Sin
Lap Limitada (Siu Lap) was a defendant held liable for
fraudulently and without authorization engaging in
transactions in foreign currency futures contracts.36
Siu Lap’s role in the fraudulent scheme involved
funding codefendant International Financial Services,
Inc. See Rosner, 528 F. Supp. 2d at 422. That was not
Siu Lap’s only role,37 but even assuming it was, Siu
Lap was held liable not under RICO, but under the
Commodity Exchange Act (CEA). Int’l Fin. Servs., 323
36

The claims against Siu Lap were not resolved in the 2004
decision. The court had entered default judgment against Siu Lap
in 2002. See Order of Default Judgment, Int’l Fin. Servs., No.
1:02-cv-5497-GEL (S.D.N.Y. Aug. 15, 2002), ECF No. 19.
37

Siu Lap also “hired inexperienced currency traders as
independent contractors, grouped the traders by their ethnicity,
and encouraged them to solicit customers from their respective
ethnic communities.” Id. The independent contractors then
misled customers. See id.

100a
F. Supp. 2d at 485. Plaintiffs do not explain how Siu
Lap’s liability under the CEA has any bearing on the
“operation or management” element that appears in
RICO.
Plaintiffs say they have “additional allegations” (not
appearing in the FAC) regarding TCV and Sequoia’s
“participation” in the affairs of the enterprise. (Doc. 85
at 101, 107; Doc. 85-1.) Plaintiffs assert that TCV
General Partner John Rosenberg has served on the
Think Finance Board since 2009. (Doc. 85-1 ¶ 1.)
Plaintiffs also say that Sequoia General Partner Michael
Goguen previously served as a director of Think Finance.
(Id. ¶ 3.) Plaintiffs allege that both Rosenberg and
Goguen were “fully aware” of the Plain Green enterprise (id. ¶¶ 1, 3), and that they both “directed the
strategy that Think Finance followed, including its
domination and control of Plain Green” (id. ¶¶ 2, 4).
TCV and Sequoia both contend that Plaintiffs’ reliance
on allegations not appearing in the FAC is procedurally improper. (Doc. 97 at 12; Doc. 99 at 8.) The court
agrees. See Sherman v. Ben & Jerry’s Franchising,
Inc., No. 1:08-CV-207, 2009 WL 2462539, at *8 (D. Vt.
Aug. 10, 2009) (supplementary allegations that did
not appear in the Amended Complaint were improper
because “parties may not amend the complaint through
supportive memoranda” (citing Wright v. Ernst &
Young UP, 152 F.3d 169, 178 (2d Cir. 1998))). The
court’s analysis is limited to the FAC as it stands
currently.
However, since the court is permitting discovery
as to TCV and Sequoia’s minimum contacts with
Vermont, the court will also permit Plaintiffs to
discover facts related to the “additional allegations.”
To defeat a jurisdiction-testing motion after such discovery, Plaintiffs will be required to aver “facts that, if

101a
credited by the trier, would suffice to establish jurisdiction” over TCV and Sequoia. Dorchester, 722 F.3d
at 85 (quoting Ball v. Metallurgie Hoboken-Overpelt,
S.A., 902 F.2d 194, 197 (2d Cir. 1990)). Meanwhile, the
court will defer ruling on any of the claims against
Sequoia and TCV.
7. Racketeering
Under RICO, “racketeering activity” includes “any
act which is indictable under . . . [18 U.S.C.] section
1341 (relating to mail fraud), [or] section 1343 (relating to wire fraud).” 18 U.S.C. § 1961(1)(B). “A complaint
alleging mail and wire fraud must show (1) the existence of a scheme to defraud, (2) defendant’s knowing
or intentional participation in the scheme, and (3) the
use of interstate mails or transmission facilities in
furtherance of the scheme.” S.Q.K.F.C., Inc. v. Bell Atl.
TriCon Leasing Corp., 84 F.3d 629, 633 (2d Cir. 1996).
Defendants argue that Plaintiffs have failed to state a
racketeering claim for a variety of reasons.
a. Scheme to Defraud
“The mail and wire fraud statutes do not define
‘scheme to defraud,’ but it has been described as a plan
to deprive a person ‘of something of value by trick,
deceit, chicane or overreaching.’ United States v.
Autuori, 212 F.3d 105, 115 (2d Cir. 2000) (quoting
McNally v. United States, 483 U.S. 350, 358 (1987)).
“It is characterized by a departure from community
standards of ‘fair play and candid dealings.’ Id. (quoting United States v. Ragosta, 970 F.2d 1085, 1090 (2d
Cir. 1992)). “[M]ateriality of falsehood” is an element
of a scheme to defraud. Neder v. United States, 527
U.S. 1, 25 (1999).
Plaintiffs’ theory is that Mr. Rees and Think
Finance “had a plan or scheme to defraud thousands

102a
of people in a financially challenged position by extending loans at illegally high and extortionate interest
rates, while at the same time claiming that the
business was legitimate and in compliance with the
law.” (Doc. 18 ¶ 101.) According to Plaintiffs, Rees and
Think Finance used Plain Green and the Tribal
Defendants as “intermediaries” and Tailwind, TC
Loan, and TC Decision Sciences as “subsidiaries and
affiliates” to advance the scheme. (Id.) The FAC
outlines alleged misrepresentations in furtherance of
the alleged scheme as including: (1) that Plain Green
was the lender; (2) that Chippewa Cree law governed;
(3) that the lender was not subject to any state or
federal laws; (4) that Plain Green loans are less
expensive than a payday loan; (5) that Plain Green
charges low fees. (Doc. 18 ¶¶ 106, 107, 124, 125, 126.)
According to the FAC, those alleged misrepresentations appear on Plain Green’s website and in the
arbitration agreements. (See id.)
The parties devote considerable energy to discussing
whether those five statements are true, whether they
are material, and whether they are sufficiently specific
under Rule 9(b). All of those arguments distract from
the real question. Representations that Think Green’s
business model is legal or that it offers a good deal are
not at the core of the alleged scheme. Rather, the
alleged plan—as the court understands it—was to
avoid financial regulation of consumer lending. That
is the alleged “falsehood” at issue; the court need not
focus on any specific alleged false statements. See
United States v. Woods, 335 F.3d 993, 999 (9th Cir.
2003) (concluding that the Supreme Court in Neder
“addressed the materiality of misrepresentation, not
the specificity”), cert. denied, 540 U.S. 1025 (2003). As
the court concluded above, the allegations of the FAC

103a
are specific and plausible in their description of such a
plan.
b. Fraudulent Intent; Participation in
Scheme
Mr. Rees and Think Finance contend that the FAC
fails to allege that they had any fraudulent intent.
(Doc. 65 at 16; Doc. 67-2 at 42.) Plaintiffs do not
dispute that they need to plead fraudulent intent, but
assert that such intent may be alleged generally under
Rule 9(b), and that the FAC alleges Think Finance’s
direct knowledge and also that it had motive and
opportunity. (Doc. 85 at 114.)
Although Rule 9(b) permits intent to be alleged
generally, Plaintiffs must still “allege facts that give
rise to a strong inference of fraudulent intent.” First
Capital Asset Mgmt., Inc. v. Satinwood, Inc., 385 F.3d
159, 179 (2d Cir. 2004) (quoting Moore v. PaineWebber,
Inc., 189 F.3d 165, 173 (2d Cir. 1999)). “The requisite
‘strong inference’ of fraud may be established either
(a) by alleging facts to show that defendants had both
motive and opportunity to commit fraud, or (b) by
alleging facts that constitute strong circumstantial
evidence of conscious misbehavior or recklessness.”
Shields v. Citytrust Bancorp, Inc., 25 F.3d 1124, 1128
(2d Cir. 1994).
The court concludes that the FAG pleads sufficient
facts to give rise to a strong inference of fraudulent
intent. The FAC alleges that Rees, the Think Defendants, and the Tribal Defendants had motives to
commit the alleged fraud. According to the FAC,
federal regulators had shut down Rees’s former “renta-bank” internet payday business. (Doc. 18 ¶¶ 23, 3741.) Rees’s new venture, Think Finance, is allegedly a
different kind of law-avoidance scheme that uses a

104a
“rent-a-tribe” model. (Id. ¶ 42; see also id. ¶ 82.) Thus,
as the FAC puts it, the motive for Rees and the Think
Defendants was to find a business model that would
be profitable and that would avoid the legal issues that
doomed the previous “rent-a-bank” model. According
to the FAC, the Tribe (represented by the Tribal
Defendants) also had a motive: it would receive 4.5%
of the revenues from the operation. (Id. ¶ 23.) The
opportunity for Rees, the Think Defendants, and the
Tribal Defendants arose in March 2001 when, according to the FAC, Rees and Think Finance approached
the Tribe regarding formation of a tribal entity to
conduct an internet-lending operation. (Id. ¶ 77.)
Mr. Rees contends that the FAC fails to allege that
he “participated” in any mail or wire fraud. (Doc. 67-2
at 38.) He asserts that a RICO claim against him
“cannot be based on allegations that the enterprise
simply engaged in acts of mail fraud, wire fraud, or the
collection of unlawful debt.” (Doc. 98 at 22 (emphasis
added).) Citing Mills v. Polar Molecular Corp., 12 F.3d
1170, 1175 (2d Cir. 1993), Rees argues that “[c]onclusory allegations that Rees somehow controlled the
individual Tribal Defendants to take unspecified actions
do not suffice.” (Doc. 67-2 at 40)
It is true that “[t]he focus of section 1962(c) is on the
individual patterns of racketeering engaged in by a
defendant, rather than the collective activities of the
members of the enterprise, which are proscribed by
section 1962(d) [RICO’s conspiracy provision].” United
States v. Persico, 832 F.2d 705, 714 (2d Cir. 1987). But
the FAC alleges that Rees (and Think Finance),
“through their control over” the Tribal Defendants,
wired money into and out of Plaintiffs’ bank accounts
(Doc. 18 ¶¶ 53, 54, 68, 69, 100), and used the mail to
collect payments and communicate with other parts of

105a
the Plain Green enterprise (id. ¶ 100). The FAC
includes more than just bare allegations that Rees was
in “control”—it alleges that he (and Think Finance)
actually designed the system under which the wire
and mail transactions occurred. (See Doc. 18 ¶¶ 23,
81.)38 If that is not an allegation of “participation,” it is
hard to imagine what might be.
c. Use of Mails or Wires
The Tribal Defendants contend that the FAC
“wholly fails” to establish their liability under a mail
fraud theory, and that the FAC “fails to state how the
mails were used to further the scheme to defraud.”
(Doc. 66 at 50 & n.37.) The PAC does indeed allege
relatively few facts about the mail; perhaps the
most detailed factual allegation is that Defendants
Rees and Think Finance “use[d] the mail to collect
payments and communicate with other parts of the
Plain Green enterprise.” (Doc. 18 ¶ 100.) Plaintiffs
have clarified that they do not allege that any
misstatements were communicated through the mail,
but allege mail fraud “solely based on it advancing the
fraudulent scheme.” (Doc. 85 at 22 n.2.) Therefore, “a
detailed description of the underlying scheme and the
connection therewith of the mail and/or wire communications, is sufficient to satisfy Rule 9(b).” In re
Sumitomo Copper Litig., 995 F. Supp. 451, 456 (S.D.N.Y.
1998). The court concludes that Plaintiffs have alleged
a connection between the scheme and the mails. The
38

Rees describes as “ludicrous” and “incredible” any allegation
that he personally deposited funds into or withdrew funds from
Plaintiffs’ accounts. (Doc. 98 at 16.) The court does not read the
FAC as alleging that, but instead as alleging that he designed a
system under which such transactions would occur. (See Doc. 18
¶ 10 (alleging that Rees “personally designed and directed the
business activity described in this Complaint”).)

106a
court therefore rejects the Tribal Defendants’ argument that the FAC is insufficiently detailed with
respect to the allegations of mail fraud.
Plaintiffs assert that they allege wire fraud “based
both on Defendants’ fraudulent statements and based
on the wiring being merely incidental to a larger
fraudulent scheme.” (Doc. 85 at 22 n.2.) For the
reasons stated above, the court concludes that the
inquiry need not focus on the five alleged misrepresentations that Plaintiffs say were transmitted over
wires. However, Plaintiffs have alleged a detailed
description of the scheme, and have also alleged a
connection between the scheme and the wires.
8. Collection of Unlawful Debt
Section 1962(c) of Title 18 identifies “collection of
unlawful debt” as one of the specific offenses which
may give rise to civil liability under the RICO statute.
Unlawful debt is defined as a debt:
(A) incurred or contracted in gambling activity
which was in violation of the law of the
United States, a State or political subdivision
thereof, or which is unenforceable under State
or Federal law in whole or in part as to
principal or interest because of the laws
relating to usury, and (B) which was incurred
in connection with the business of gambling
in violation of the law of the United States, a
State or political subdivision thereof, or the
business of lending money or a thing of value
at a rate usurious under State or Federal law,
where the usurious rate is at least twice the
enforceable rate.
18 U.S.C. § 1961(6). To state a claim for collection of
an unlawful debt, Plaintiffs must allege that:

107a
[1] the debt was unenforceable in whole or in
part because of state or federal laws relating
to usury, [2] the debt was incurred in connection with the “business of lending money . . .
at a [usurious] rate,” . . . [3] the usurious rate
was at least twice the enforceable rate . . . [4]
as a result of the above confluence of factors,
it was injured in its business or property.
Sundance Land Corp. v. Cmty. First Fed. Sav. & Loan
Ass’n, 840 F.2d 653, 666 (9th Cir. 1988) (alterations
and omissions in original) (quoting Durante Bros. &
Sons, Inc. v. Flushing Nat’l Bank, 755 F.2d 239, 248
(2d Cir. 1985)).
a. Unenforceable Debt
The Tribal Defendants assert that there was no
“unlawful debt” in this case because the Tribe’s governing law imposes no interest rate cap. (Doc. 66 at
52.)39 The Tribal Defendants further contend that no
state usury laws can be enforced against them because
doing so “would amount to an improper state regulation of on-reservation activity in contravention of wellestablished preemption and infringement principles.”
(Id.)
The court rejects the Tribal Defendants’ arguments.
For the reasons stated above, the court has concluded
that, at least on the present record, the relevant
conduct occurred outside of the Tribe’s lands. See OtoeMissouria, 769 F.3d at 115. The interest rates charged
may not have violated Chippewa Cree law, but under
Bay Mills the Tribal Defendants can be sued for
injunctive relief if their off-reservation commercial
activities violate state law.
39

TCV joins this argument. (Doc. 76 at 22.)

108a
b. Business of Lending Money at a
Usurious Rate
The Think Defendants contend that the FAC fails to
allege that any Defendant was in the “business of
lending money at a usurious rate.” (Doc. 65 at 19.)
According to the Think Defendants, the only entity
alleged to be in the “business” of lending money is the
alleged RICO enterprise (and non-party) Plain Green.
(Id. at 19 n.9.) Plaintiff’s argue that they do not have
to show that every defendant lent money because
RICO only requires that a defendant “conduct or
participate, directly or indirectly” in the enterprise’s
affairs. (Doc. 85 at 96.) In their reply, the Think
Defendants return to the refrain that Plaintiffs have
failed to satisfy Reve’s “operation and management”
test. (Doc. 96 at 7.) For the reasons stated above, the
court agrees that TC Loan Service, LLC, TC Decision
Sciences, LLC, and Tailwind Marketing, LLC do not
satisfy the “operation and management” test, but that
Mr. Rees and Think Finance do.
Mr. Rees and Think Finance also assert that the
FAC fails to allege that they themselves acted to
“collect” any unlawful debt.40 Think Finance relies on
Durante, in which the Second Circuit—tracking the
40

Rees and the Think Defendants assert that the proper
definition of “collection” for purposes of § 1962(c) is “to induce in
any way any person to make repayment thereof.” United States
v. Pepe, 747 F.2d 632, 674 (11th Cir. 1984). Plaintiffs object that
the Think Defendants are inappropriately seeking to add an
additional “inducement” element onto RICO. (Doc. 85 at 95.)
Plaintiffs argue that, in any case, they have alleged that the
Think Defendants “induced” repayment. (Id. at 96.) To the extent
that there is an “inducement” element, the court concludes that
it is alleged in the FAC by the allegations that funds were
actually electronically collected directly from Plaintiffs’ bank
accounts. (See Doc. 18 ¶¶ 30, 54, 69, 100.)

109a
language of § 1962(c)—listed as an element that “the
individual defendants participated in the conduct of
the affairs of the enterprise through collection of
unlawful debt.” Durante, 755 F.2d at 248 (emphasis
added). Rees contends that a RICO claim against him
“cannot be based on allegations that the enterprise
simply engaged in acts of mail fraud, wire fraud, or the
collection of unlawful debt.” (Doc. 98 at 22 (emphasis
added).) Thus, both Rees and Think Finance argue
that the FAC fails to allege that they individually took
any actions constituting collection of unlawful debt.
Plaintiffs insist that “[t]here is no requirement that
each defendant personally lend any money, only that
they participate, directly or indirectly.” (Doc. 85 at
96)41
As noted above, “[t]he focus of section 1962(c) is on
the individual [acts] engaged in by a defendant, rather
than the collective activities of the members of the
enterprise, which are proscribed by section 1962(d)
[RICO’s conspiracy provision].” Persico, 832 F.2d at
714. For largely the same reasons stated above regarding racketeering, the court concludes that the FAC
adequately alleges that Rees and Think Finance
participated in the collection of allegedly unlawful
debt. The FAC alleges that Rees and Think Finance
designed the system under which borrowers would be

41

Plaintiffs also assert that they have alleged that Rees and
Think Finance “took many acts that were designed to induce the
repayment of an unlawful debt.” (Doc. 85 at 93.) Referring to the
allegations that Rees and Think Finance controlled the Tribal
Defendants (Doc. 18 ¶¶ 54, 69), Plaintiffs maintain that the FAC
does allege that Rees and Think Finance “collected unlawful debt
multiple times from both Jessica Gingras and Angela Given.”
(Doc. 85 at 94, 96.)

110a
charged allegedly usurious interest rates. That is
plainly an allegation of “participation.”
c. Twice the Enforceable Rate
This element does not appear to be in dispute. The
FAC alleges that the rates charged were between 198
and 376% annually—well in excess of twice the rate
enforceable under Vermont law.
d. Injury to Business or Property
For the reasons discussed above, the FAC alleges
the requisite injury.
Conclusion
All Defendants’ motions to compel arbitration (Docs.
64, 66, 67, 77, 76) are DENIED.
The Tribal Defendants’ Motion to Dismiss (Doc. 66)
is GRANTED IN PART and DENIED IN PART. On all
counts against the Tribal Defendants, Plaintiffs can
obtain only prospective injunctive or declaratory relief.
Counts One and Two are DISMISSED. Count Three is
DISMISSED as to Plaintiff Gingras; but remains as
to Plaintiff Givens. The Vermont state-law claims
(Counts Four and Seven) survive against the Tribal
Defendants. The RICO claims (Counts Five and Six)
remain in the case. The unjust enrichment claim
(Count Seven) also remains.
The Think Defendants’ Motion to Dismiss (Doc. 65)
is GRANTED IN PART and DENIED IN PART.
Counts One and Two are DISMISSED. Count Three is
DISMISSED as to Plaintiff Gingras, but remains as to
Plaintiff Givens. The VCFA claim (Count Four)
remains against the Think Defendants. The RICO
claim (Count Six) as against TC Loan, TC Decision,
and Tailwind Marketing is DISMISSED, but remains
as against Think Finance. The Think Defendants have

111a
not sought dismissal of the unjust enrichment claim
(Count Seven), so that claim remains against them.
Kenneth Rees’s Motion to Dismiss (Doc. 67) is
GRANTED IN PART and DENIED IN PART. Counts
One and Two are DISMISSED. Count Three is
DISMISSED as to Plaintiff Gingras, but remains as
to Plaintiff Givens. The VCFA claim (Count Four)
remains against Mr. Rees. The RICO claims (Counts
Five and Six) remain against Mr. Rees. The unjust
enrichment claim (Count Seven) remains.
TCV and Sequoia’s Motions to Dismiss (Docs. 76, 77,
respectively) are DENIED without prejudice, and
may be renewed following discovery on the issue of
personal jurisdiction.
Plaintiffs’ Motion for Jurisdictional Discovery (Doc.
43) on the issues of subject-matter jurisdiction and
arbitration is MOOT.
Dated at Rutland, in the District of Vermont, this
18 day of May 2016.
/s/ Geoffrey W. Crawford
Geoffrey W. Crawford, Judge
United States District Court

112a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
————
Docket Nos: 16-2019 (L),
16-2132 (Con), 16-2135 (Con),
16-2138 (Con), 16-2140 (Con)
————
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 13th day of June, two
thousand nineteen.
————
JESSICA GINGRAS, ON BEHALF OF HERSELF AND OTHERS
SIMILARLY SITUATED, ANGELA C. GIVEN, ON BEHALF OF
HERSELF AND OTHERS SIMILARLY SITUATED,
Plaintiffs-Appellees,
v.
THINK FINANCE, INC., TC LOAN SERVICE, LLC,
KENNETH E. REES, FORMER PRESIDENT AND CHIEF
EXECUTIVE OFFICER AND CHAIRMAN OF THE BOARD OF
THINK FINANCE, TC DECISION SCIENCES, LLC,
TAILWIND MARKETING, LLC, SEQUOIA CAPITAL
OPERATIONS, LLC, TECHNOLOGY CROSSOVER
VENTURES, JOEL ROSETTE, OFFICIAL CAPACITY AS
CHIEF EXECUTIVE OFFICER OF PLAIN GREEN, TED
WHITFORD, OFFICIAL CAPACITY AS A MEMBER OF PLAIN
GREEN’S BOARD OF DIRECTORS, TIM MCINERNEY,
Defendants-Appellants.
————

113a
ORDER
Appellants, Sequoia Capital Operations, LLC, and
Technology Crossover Ventures, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk
/s/ Catherine O’Hagan Wolfe

114a
APPENDIX D
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF VERMONT
————
Docket No. 1:15-cv-101
————
JESSICA GINGRAS AND ANGELA C. GIVEN, ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,
Plaintiffs,
v.
JOEL ROSETTE, TED WHITFORD, TIM MCINERNEY,
THINK FINANCE, INC., TC LOAN SERVICE, LLC,
KENNETH E. REES, TC DECISION SCIENCES, LLC,
TAILWIND MARKETING, LLC, SEQUOIA
CAPITAL OPERATIONS, LLC AND
TECHNOLOGY CROSSOVER VENTURES,
Defendants.
————
JURY TRIAL DEMANDED
————
FIRST AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF
Nature of Action
1. This is a class action for equitable relief against
a payday lender that has taken advantage of people
who are struggling financially by charging extortionate interest rates and engaging in illegal lending
practices. The First Amended Complaint adds two
RICO claims for racketeering and for collection of an
unlawful debt and a claim for unjust enrichment.

115a
2. Plain Green, LLC (“Plain Green”) purports to be
a “tribal lending entity wholly owned by the Chippewa
Cree Tribe of the Rocky Boy’s Indian Reservation.”
(https://www.plaingreenloans.com). The officers and
directors of Plain Green are sued in their official
capacity for equitable relief. See Michigan v. Bay Mills
Indian Community, 134 S. Ct. 2024 (2014).
3. Plain Green was created after existing payday
lenders approached the Chippewa Cree Tribe of the
Rocky Boy’s Reservation (the “Tribe”) and requested
that the Tribe become involved in a payday lending
scheme. In the United States, stringent laws have
been enacted to prescribe how loans can be made and
to prevent lenders from preying on indigent people. By
involving the Tribe in the payday lending scheme, the
lenders hoped to circumvent these laws and take
advantage of legal doctrines, such as tribal immunity,
to avoid liability for their actions. After its creation,
Plain Green engaged in and continues to engage in a
series of predatory loan practices that violate the law
and that have injured numerous people who are
struggling financially.
Parties
4. Jessica Gingras is a citizen of Vermont who took
out payday loans from Defendants.
5. Angela Given is a citizen of Vermont who took out
payday loans from Defendants.
6. Defendant Joel Rosette is the Chief Executive
Officer of Plain Green and is sued in his official capacity. Rosette is responsible for all operations of Plain
Green. Article 7.6 of the current Articles of Organization
of Plain Green, LLC grants Rosette the power “to
manage the Company on a daily basis.” Rosette also
has the authority to “hire and terminate employees

116a
when necessary.” Id. As a result, Rosette is responsible
for and can stop the illegal activity described in this
Complaint. In his position as Chief Executive Officer,
Rosette has the authority to prevent the credit reporting and illegal keeping of a loan balance for the
Plaintiffs. Rosette is a citizen of Montana and not a
citizen of Vermont.
7. Defendant Ted Whitford is a member of Plain
Green’s Board of Directors and is sued in his official
capacity. The Board of Directors has the power to
fire the CEO of Plain Green and appoint a new CEO
who will comply with the law. Whitford is a citizen of
Montana and not a citizen of Vermont.
8. Defendant Tim McInerney is a member of Plain
Green’s Board of Directors and is sued in his official
capacity. The Board of Directors has the power to fire
the CEO of Plain Green and appoint a new CEO who
will comply with the law. McInerney is a citizen of
Montana and not a citizen of Vermont.
9. Defendant Think Finance, Inc. (“Think Finance”)
is a Delaware corporation headquartered at 4150
International Plaza, Suite 400, Fort Worth, Texas
76109. It formerly had the name ThinkCash, Inc. Its
principal place of business is outside the State of
Vermont.
10. Defendant Kenneth E. Rees is the former President and Chief Executive Officer and current Chairman
of the Board of Think Finance. He is currently the
Chief Executive Officer of Elevate Credit, Inc. Mr. Rees
maintains a controlling interest and operational role
in Think Finance. He has personally designed and
directed the business activity described in this Complaint.
He is a citizen of Texas and not a citizen of Vermont.

117a
11. Defendant TC Loan Service, LLC (“TC Loan”) is a
Delaware limited company located at 4150 International
Plaza, Suite 400, Fort Worth, Texas 76109. Its principal place of business is outside the State of Vermont.
12. Defendant TC Decision Sciences, LLC (“TC
Decision Sciences”) is a Delaware limited liability company with offices at 4150 International Plaza, Suite
400, Fort Worth, Texas 76109. Its principal place of
business is outside the State of Vermont.
13. Defendant Tailwind Marketing, LLC (“Tailwind
Marketing”) is a Delaware limited liability company
with offices at 4150 International Plaza, Suite 400,
Fort Worth, Texas 76109. Its principal place of business is outside the State of Vermont.
14. Defendant Sequoia Capital Operations, LLC
(“Sequoia”) is a Delaware limited liability company
with its principal place of business at 3000 Sand Hill
Road, Building 4, Suite 180, Menlo Park, California.
Its principal place of business is outside the State of
Vermont.
15. Defendant Technology Crossover Ventures (“Technology Crossover”) is a Delaware corporation with offices
at 528 Ramona Street, Palo Alto, California. Its principal place of business is outside the State of Vermont.
Jurisdiction and Venue
16. This Court has jurisdiction over this dispute
pursuant to the Consumer Financial Protection Act
of 2010 (“CFPA”), 12 U.S.C. §§ 5531(a) and 5536(a),
and the Federal Trade Commission Act, 15 U.S.C. § 45
(the “FTC Act”). This Court has federal question jurisdiction under 28 U.S.C. § 1331. The Court also has
jurisdiction because this case is brought under “Federal
consumer financial law,” 12 U.S.C. § 5565(a)(1). The

118a
Court has jurisdiction over this action pursuant to 18
U.S.C. § 1965.
17. In addition, this Court has diversity jurisdiction
because diversity of citizenship exists between Plaintiffs
and Defendants and the amount in controversy exceeds
$75,000. 28 U.S.C. § 1332. Plain Green paid approximately $13 million to a loan servicer that participated
in its payday loan scheme. These payments demonstrate that the amount of the payday loans is in excess
of $13 million.
18. Additionally, this Court also has jurisdiction
under the Class Action Fairness Act. 28 U.S.C. § 1332.
The Court has supplemental jurisdiction pursuant to
28 U.S.C. § 1367.
19. This Court may enter a declaratory judgment
pursuant to the Declaratory Judgment Act, 28 U.S.C.
§ 2202.
20. Venue is proper in this Court under 18 U.S.C.
§ 1965 and 28 U.S.C. § 1391(b)(2).
Facts
21. Plaintiffs Jessica Gingras and Angela Given
fell victim to a sophisticated loan sharking operation
that was specifically designed by the Defendants to
ensnare unsuspecting victims. Ms. Gingras and Ms.
Given visited a bright and cheerful website, https://
www.plaingreenloans.com, which promised to help
them secure a loan. This website informs visitors that
with an easy online application, they can obtain an
answer within a matter of seconds:

119a

22. The website proclaims that Plain Green is a
better option than a payday loan:

23. However, the cheerful cartoon characters do not
tell the whole story. The reality of Defendants’ operation is far different than these shiny, innocent looking
characters suggest. The Plain Green enterprise was
created when Kenneth Rees, the mastermind of this
illegal scheme, had his former business, ThinkCash,
shut down by federal regulators. Rees was undeterred
by this setback and sought a new way to prey on
unsuspecting people. Rees believed that tribal immunity was the answer. So, Rees and his rebranded company,
Think Finance, approached the Chippewa Cree Tribe
with a deal. Rees and Think Finance would provide
everything the Tribe needed to run a successful payday loan enterprise if the Tribe would let them use the
concept of tribal immunity to stymie state and federal
regulators. In return, the Tribe would receive 4.5% of
the revenues.

120a
The Payday Lending Industry
24. Payday lending takes advantage of people’s need
for money. While marketed as a short term loan for
emergency cash, the loans are usually not short term
at all. A typical borrower cannot repay the entire amount
of the loan right away. Instead, to avoid default, the
borrower will often roll the loan over into another loan
or take out a loan from an alternative lender. As interest continues to accrue on these loans, borrowers get
stuck in a vicious debt trap from which they cannot
escape. More of the borrowers’ limited resources are
diverted to interest on the payday loans, and borrowers struggle to meet their basic needs, such as food,
shelter, and medical care.
25. A typical payday loan has an extortionate interest rate of 200% or more. For example, Plain Green’s
website states that it lends at rates of 299.17 to 378.95%
for first time borrowers. This type of loan causes people
who are struggling financially to pay more in interest
within one year than they originally borrowed in
principal.
26. Payday lenders justify these exceptionally high
interest rates by pointing to the allegedly short term
nature of the loans and the supposedly higher risk
profile of poor borrowers.
27. However, payday lenders, like Plain Green, do
not examine the borrower’s ability to repay the loan in
a short period of time.
28. Instead, payday lenders, such as Plain Green,
create a repayment plan that is designed to extend the
repayment period so that the lender can obtain
substantial amounts from the high interest payments.

121a
29. The risk to payday lenders, like Plain Green,
has been exaggerated because payday lenders take
advantage of a variety of techniques to insure that
they are repaid.
30. For example, Plain Green creates financial
arrangements so that it has automatic access to a
borrower’s bank account and can withdraw money
without further action from the borrower. Defendants
require that borrowers agree to Automatic Clearing
House (“ACH”) withdrawals from their accounts before
extending credit. This financial arrangement substantially reduces the risk of non-payment.
31. Plain Green also lends to people who have established periodic payments that are deposited into bank
accounts, such as social security, disability, and veterans’ benefits. After Plain Green has access to a borrower’s
bank account, it can simply remove these deposits
from the account and insure that it is paid.
32. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney use various contractual provisions to keep
these usurious practices from review. These contract
provisions include phony choice of law provisions and
provisions claiming tribal immunity. These contractual provisions are unconscionable and unenforceable.
33. In some cases, Defendants Rees and Think
Finance through their control over Defendants Rosette,
Whitford, and McInerney have blocked borrowers’ access
to their Plain Green accounts so that the borrowers
cannot determine what they have paid. In these cases,
these Defendants have refused to allow the borrowers
to have access to the documents that purportedly
create a binding contractual relationship between the
borrowers and Plain Green.

122a
34. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney also misrepresent that their loans are
intended to be short term loans. For example, the
Defendants state that “Plain Green loans are designed
to help you meet your emergency borrowing needs.”
Contrary to these representations, the loan repayment
schedule is not designed to be a short term loan.
35. Rees and Think Finance through their control
over Rosette, Whitford, and McInerney also misrepresent that their loans are legitimate loans by reporting
loan information to credit rating agencies. When certain borrowers fail to make payments, even on illegal
loans, these Defendants report the failure to make a
payment as if it were a failure to make a payment on
a legitimate loan.
Defendants’ Efforts to Avoid Liability
36. Defendants have gone to great lengths to avoid
any responsibility for their actions and have created
structures to try to prevent the proper application of
law.
37. In fact, Plain Green’s very existence is an effort
to avoid liability. Plain Green’s predecessors in interest were not tribal entities. ThinkCash, Inc. (n/k/a
Think Finance, Inc.) is a Delaware corporation.
ThinkCash was formed in or around 2001 as a payday
lender that operated over the Internet.
38. To avoid state limits on interest rates, ThinkCash
used a lending model known in the money lending
industry as “rent-a-bank.” Payday lenders that were
prohibited by state laws from making extortionate
loans partnered with a bank so that the bank was the
nominal lender. At the same time, the payday lender
would market, fund, and collect the loan. The payday

123a
lender also performed other lending functions. Because
the banks were insulated from state laws by federal
bank preemption, the payday lenders were able to use
the rent-a-bank scheme to avoid state laws.
39. During this time, First Bank of Delaware (“FBD”)
developed a specialty in providing banking services to
payday lenders. FBD developed a relationship with
ThinkCash that enabled ThinkCash to offer high
interest rate loans and represent itself as “ThinkCash
by First Bank of Delaware.”
40. ThinkCash and FBD continued this relationship despite enforcement and regulatory efforts to stop
the activity. The FDIC instituted an enforcement
action in 2008 that culminated in a consent order.
That consent order required FBD to end its relationship with a number of entities that had used it in the
rent-a-bank scheme, including ThinkCash.
41. FBD is no longer in business. In 2012, its shareholders voted to dissolve the bank. Soon thereafter,
the United States Department of Justice announced a
$15 million civil penalty to be paid by FBD.
42. After its “rent-a-bank” scheme ended, ThinkCash
developed plans for another law avoidance scheme
called “rent-a-tribe.”
43. The concept behind the “rent-a-tribe” scheme is
to take advantage of tribal immunity in the same
way that ThinkCash attempted to take advantage of
federal bank preemption. Under the scheme, the loans
are made in the name of a lender affiliated with the
tribe, but ThinkCash provides the marketing, funding,
underwriting, and collection of the loans.
44. Using the “rent-a-tribe” scheme, ThinkCash
exploits its customer base to generate future loans.

124a
The first “rent-a-tribe” scheme that ThinkCash started
involved Plain Green. ThinkCash transferred the existing ThinkCash loans and the ThinkCash customer
database to Plain Green. In addition, ThinkCash
designed the web platform used by Plain Green so that
existing ThinkCash customers visiting the ThinkCash
website would be routed automatically to the Plain
Green website.
Jessica Gingras’s Payday Loans from Plain Green
45. Jessica Gingras has taken out a number of
payday loans, but has an incomplete record of those
loans.
46. Defendants Rosette, Whitford, and McInerney
have blocked Jessica Gingras’s access to her Plain
Green account. The following descriptions are based
on her reconstruction of the loans from other information that is available to her and recently filed loan
documents.
47. Jessica Gingras took out a payday loan from
FBDLoans.com on March 16, 2000 in the amount of
$1,200. She made a total of 30 payments. The payments were $97.09, except that the last payment was
$137.15. She paid a total of $2,952.76. FBDLoans.com
transferred her loan to ThinkCash. ThinkCash transferred her loan again to Plain Green.
48. Defendants Rosette, Whitford, and McInerney
gave Jessica Gingras a payday loan on July 6, 2011 for
$1,050. She made a total of 13 payments in the amount
of $110.31. She paid a total of $1,434.03. The loan
documents indicate that these Defendants charged her
an annual percentage interest rate of 198.17%.
49. Defendants Rosette, Whitford, and McInerney
gave Jessica Gingras a payday loan on July 24, 2012

125a
for $500. She made two payments for $92.25 before she
took out an additional loan for $2,400. She then made
payments in the amount of $131.90. She paid a total
of $4,801. The loan documents indicate that these
Defendants charged her an annual percentage interest
rate of 371.82%.
50. An outstanding balance remains on Ms.
Gingras’s loan. Ms. Gingras is suffering irreparable
injury because if she pays off the loan, she is likely to
never see her funds returned from Defendants because
they have claimed and likely will claim tribal immunity. Moreover, Ms. Gingras is suffering irreparable
injury because her loan continues to be reported to
credit rating agencies as a legitimate and open loan.
This reporting negatively impacts her ability to obtain
financing from other lenders.
51. Ms. Gingras has suffered these injuries due to
the illegal conduct of the Defendants described in this
Complaint. A declaration that the loans are illegal and
an injunction ordering Defendants to correct their
statements concerning the legal nature of these loans
and to stop defaming the credit of Ms. Gingras will
alleviate the infliction of irreparable harm.
52. Defendants Rosette, Whitford, and McInerney
required Jessica Gingras to agree to ACH withdrawals
from her bank account before it would give her a loan.
Defendants Rees and Think Finance through their control over Defendants Rosette, Whitford, and McInerney
had automatic access to her bank account and continued to withdraw money from her account even after
they had recouped the principal and a reasonable
amount of interest.
53. Jessica Gingras has never been to the Rocky
Boy’s Reservation. She applied for the loans at her

126a
residence in Vermont. Defendants Rees and Think
Finance through their control over Defendants Rosette,
Whitford, and McInerney wired the money into her
account in Vermont.
54. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney withdrew money from her account in
Vermont by ACH withdrawal.
55. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney negotiated the purported and fraudulent
contract with Jessica Gingras in Vermont.
56. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney directed their fraudulent representations
to Jessica Gingras in Vermont.
57. None of Plain Green’s loan activity actually
occurs on the Rocky Boy’s Reservation. Plain Green
uses third parties to carry out all of the administrative
tasks. The third party performs all of these tasks off of
the reservation.
58. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney have extended similar loans to thousands
of people.
Angela Given’s Payday Loans from Plain Green
59. Defendants Rosette, Whitford, and McInerney
gave Angela Given a number of payday loans. Because
they have blocked access to her Plain Green account,
the following descriptions are based on Ms. Given’s
reconstruction of the loans from other information that
is available to her and recently filed loan documents.

127a
60. Defendants Rosette, Whitford, and McInerney
gave Angela Given a payday loan on July 19, 2011 for
$1,250. She made payments every two weeks for 26
weeks. She paid off the loan on July 19, 2012 with a
final payment of $197.67. She paid a total of $2,968.75.
The loan documents indicate that these Defendants
charged her an annual percentage interest rate of
198.45%
61. Defendants Rosette, Whitford, and McInerney
gave Angela Given a payday loan on July 24, 2012 for
$2,000. The payments were $138.12 every two weeks.
She made 14 payments and paid one lump sum in the
amount of $1,801.73 on July 20, 2013. She paid a total
of $3,735.41. The loan documents indicate that these
Defendants charged her an annual percentage interest
rate of 159.46%.
62. Defendants Rosette, Whitford, and McInerney
gave Angela Given a payday loan on May 20, 2013 for
$250. The payments were $56.43 every two weeks. She
made three payments of $56.43. She paid off the loan
with a lump sum payment of $203.50. She paid a total
of $372.34. The loan documents indicate these Defendants charged her an annual percentage interest rate of
376.13%.
63. Defendants Rosette, Whitford, and McInerney
gave Angela Given a payday loan on July 17, 2013 for
$3,000. The payments were $119.68. She made 25
payments. With the 15th payment, she included an
extra $600 toward the principal. She still had five
payments remaining when she called Plain Green. The
loan documents indicate that these Defendants charged
her an annual percentage interest rate of 59.83%
64. Angela Given has taken out other loans from
Defendants and their predecessors in interest. A

128a
predecessor entity gave Angela Given’s borrowing
history and contact information to Plain Green for the
purpose of evading the law.
65. Defendants Rosette, Whitford, and McInerney
required Angela Given to agree to ACH withdrawals
from her bank account before they would give her a
loan. They had automatic access to Ms. Given’s bank
account and continued to withdraw money from her
account even after they had recouped the principal
and a reasonable amount of interest.
66. An outstanding balance remains on Ms. Given’s
last loan. Ms. Given is suffering irreparable injury
because if she pays off the loan, she is likely to never
see her funds returned from Defendants because they
have claimed and will claim tribal immunity. Moreover,
Ms. Given is suffering irreparable injury because her
loan continues to be reported to credit rating agencies
as a legitimate and open loan. This reporting negatively impacts her ability to obtain financing from
other lenders.
67. Ms. Given has suffered these injuries due to the
illegal conduct of the Defendants described in this
Complaint. A declaration that the loans are illegal and
an injunction ordering Defendants to correct their
statements concerning the legal nature of these loans
and to stop defaming the credit of Ms. Gingras will
alleviate the infliction of irreparable harm.
68. Angela Given has never been to the Rocky Boy’s
Reservation. She applied for the loans at her residence
in Vermont. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney wired the money into her account in Vermont.
69. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and

129a
McInerney withdrew money from Ms. Given’s account
in Vermont by ACH withdrawal.
70. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney negotiated the purported and fraudulent
contract with Ms. Given in Vermont.
71. Defendants Rees and Think Finance through
their control over Defendants Rosette, Whitford, and
McInerney directed their fraudulent representations
to Ms. Given in Vermont.
Additional Loans
72. On July 24, 2013, Patricia Aim Booth of Garnet
Valley, Pennsylvania took a loan from Plain Green.
The amount of the loan was $1,000. The annual
percentage rate was 299.17%. In less than a year, Ms.
Booth paid finance charges of $1,847.96. Ms. Booth’s
transactions were by ACH transfer.
73. On April 11, 2013, Christopher Anthony Grahm
of Moodus, Connecticut took a loan from Plain Green.
The amount of the loan was $1,200. The annual
percentage rate was 277.20%. In a little over a year,
Mr. Graham paid finance charges of $2,953.26. Mr.
Graham’s transactions were by ACH transfer.
74. On March 18, 2013, Lisa Flagg of Decatur,
Georgia took a loan from Plain Green. The amount of
the loan was $1,600. The annual percentage rate was
219.38%. In approximately a year and a half, Ms.
Flagg paid finance charges of $3,659.09. Ms. Flagg’s
transactions were by ACH transfer.
75. On December 17, 2011, Jessica Parm of Lafayette,
Georgia took a loan from Plain Green. The amount of
the loan was $800. The annual percentage rate was
354.20%. In less than a year, Ms. Parm paid finance

130a
charges of $1,693.97. Ms. Parm’s transactions were by
ACH transfer.
RICO
The Enterprise
76. Plain Green, Great Plains Lending, and Mobiloans
are all enterprises within the meaning of 18 U.S.C.
§ 1961(4). As described below, Great Plains Lending
and Mobiloans are also schemes to defraud that attempt
to take advantage of tribal immunity by associating
with Native American tribes.
77. In or around March 2001, Defendants Rees and
Think Finance approached the Chippewa Cree Tribe
of the Rocky Boy’s Reservation about forming a tribal
entity to conduct an illegal lending scheme over the
Internet.
78. As part of those negotiations, Defendants Rees
and Think Finance prepared a term sheet that reflected
the essentials of the transaction (the “Term Sheet”).
(Exhibit A.) The scope of the enterprise was to be “on
a nationwide basis through the internet.” Id. at 1.
79. The Term Sheet required that the Tribe adopt
new law that would be favorable to Defendants Rees
and Think Finance and the practice of illegal payday
lending. The Term Sheet required that: “The Tribe will
adopt a finance code that is acceptable to all parties
and provide for the licensing of an arm of the tribe to
engage in consumer lending.” Id. at 1.
80. Defendants Rees and Think Finance intentionally and willfully dominated and still dominate the
operations of Plain Green. Other than the sovereignty
that they attempted to purchase, Rees and Think
Finance provided everything that the enterprise needed
to operate. They provided software to determine whether

131a
a particular loan would be profitable. They provided
“risk management, application processing, underwriting
assistance, payment processing, and ongoing customer
service support coterminous with the software license
agreement and market[ing] and/or identif[ication of]
access channels for consumer loans on the Tribe’s
behalf (jointly ‘Services’)”.
81. In his positions as Chief Executive Officer and
Chairman of the Board of Think Finance, Defendant
Kenneth Rees intentionally and willfully dominated
and still dominates the operations of Plain Green. He
established the plan to create Plain Green. Defendant
Rees also established the web of different companies
designed to insulate Think Finance and himself from
liability.
82. In public comments, Defendant Rees has stated
that he closed his former company, ThinkCash, because
of the burden of complying with various state laws
regulating and banning payday lending. Rees created
the Plain Green enterprise to take advantage of the
doctrine of tribal immunity for the express purpose of
trying to avoid these various state law restrictions.
83. Defendants Rees and Think Finance defined
precisely the type of loan Plain Green would offer to
customers and the terms on which the loan would be
offered. They required the loans to be an installment
loan with a maximum amount of $2,500 and a
minimum repayment period of two months and a
maximum repayment period of two years. Id. at 1.
84. The Term Sheet created by Rees and Think
Finance dictated that Plain Green would charge
interests rates that were illegal and usurious. The
interest rates were to vary from an annual percentage
rate of 60% to 360%. Id. at 1.

132a
85. Defendants Rees and Think Finance required
that Plain Green enter into a relationship with a U.S.
bank to process loan transactions using the ACH
system. In addition, they required that Plain Green
develop the capacity to process remote checks. Id. at 2.
86. Defendants Rees and Think Finance also
directed Plain Green to establish a reserve account to
“deal with any regulatory issues, lawsuits or other
controversies involving the Tribe or its lending activities.” Id. at 2. Defendants Rees and Think Finance,
however, did not allow Plain Green to control the
account. Instead, the account was under the control of
Jones & Keller, PC, a law firm that the Term Sheet
required Plain Green to use. Id. at 3.
87. Defendants Rees and Think Finance also
arranged for 99% of the loans made by Plain Green to
be purchased within two days by a Cayman Islands
loan servicing company, GPL Servicing, Ltd. (“GPL”).
GPL was incorporated in February 2011, a month
before Think Finance agreed to work with the
Chippewa Cree Tribe. Id. at 2.
88. Defendants Rees and Think Finance established GPL in the Cayman Islands as an offshore
haven for funds generated from the RICO enterprise.
The Cayman Islands has a well-known reputation for
being an offshore tax and financial haven.
89. Plain Green pays $100 for every approved
borrower that Defendant Tailwind Marketing provides. Defendants Rees and Think Finance have said
that Tailwind Marketing is one of their entities.
Defendants Rees and Think Finance control and
dominate Tailwind Marketing.
90. Plain Green pays $5 a month for each active
account that TC Decision Sciences administers. TC

133a
Decision Sciences provides services like customer service, verification, and collections of customer accounts
for Plain Green. Defendants Rees and Think Finance
control and dominate TC Decision Sciences.
91. The Term Sheet created by Rees and Think
Finance required that Plain Green enter into an
attorney client relationship. It stated that: “Pepper
Hamilton, LLP (“Pepper”) and Jones & Keller, PC
(“J&K”) shall be counsel to the Tribe.” Id. at 3.
92. Defendants Rosette, Whitford, and McInerney
entered into payday lending relationships with banks
to process ACH transactions. Those bank relationships
enabled Plain Green to process ACH transactions for
Ms. Gingras and Ms. Given. The ACH transactions
involved interstate commerce because they flowed
through Defendants Rosette, Whitford, and McInerney
in Montana, Plaintiffs in Vermont, other targets of the
illegal lending scheme in Pennsylvania, Connecticut,
and Georgia, and different intermediaries in different
parts of the United States.
93. Plain Green operates a website at https://www.
plaingreenloans.com. The website furthers the illegal
financial transactions. The website allows individuals
to enter information to execute ACH wire transfers to
the individual and to debit the person’s account in the
purported repayment of the illegal debt. The website
involves transactions in interstate commerce.
94. Defendants Rees and Think Finance have
established relationships with other Native American
Tribes, including the Otoe-Missouria Tribe of Indians
located in Red Rock, Oklahoma and the Tunica-Biloxi
Tribe of Louisiana.

134a
95. The Otoe-Missouria Tribe maintains a payday
lending website at the web address: www.greatplains
lending.com. The lending front company is known as
Great Plain Lending (“Great Plains”).
96. The Tunica-Biloxi Tribe maintains a payday
lending website at the web address: www.mobiloans.
com. The lending front company is known as Mobiloans.
97. Great Plains and Mobiloans offer payday loans
and other loans at interest rates that are more than
double the legal limits set by states. For example,
Great Plains states on its website, under the title “Easy,
Affordable Payments”: “With a Great Plains loan, you’ll
repay your loan with easy, affordable installment payments! Your terms can range from 4 to 15 months,
depending on your loan amount, and there’s no prepayment penalty. For example, a $500 loan at 448.78%
APR, will have 12 biweekly payments of $101.29.”
98. Mobiloans offers “lines of credit” that include
fixed finance charges and transaction fees. The effective annual percentage rate for these loans is in the
hundreds of percent a year.
99. Plain Green is distinct from Defendants Rees
and Think Finance. Despite their actual control of the
Enterprise, Defendants Rees and Think Finance have
attempted to create the appearance of separate corporate forms and attempted to distance themselves from
the enterprise through the execution of various legal
documents. Defendants Rees and Think Finance have
also created a number of different subsidiaries like
Defendants Tailwind Marketing, TC Decision Sciences,
and TC Loan, to isolate and decrease any legal liability
they may face.

135a
Racketeering Activity
100. Defendants Rees and Think Finance intentionally and willfully committed mail fraud and wire fraud
through the use of ACH transactions to put money into
Plaintiffs’ and putative class members’ bank accounts,
by withdrawing funds from the accounts of Plaintiffs
and putative class members while maintaining that
those withdrawals were legitimate, by using the Internet to obtain consent to a fraudulent lending agreement
and arbitration agreement, and by using the mail to
collect payments and communicate with other parts of
the Plain Green enterprise.
101. Defendant Rees and Think Finance had a
plan or scheme to defraud thousands of people in a
financially challenged position by extending loans at
illegally high and extortionate interest rates, while at
the same time claiming that the business was legitimate and in compliance with the law. To advance this
scheme, Defendants Rees and Think Finance established intermediaries like the Plain Green enterprise
and Defendants Rosette, Whitford, and McInerney to
initiate wire transfers and mailings and to operate the
website through which information was collected from
the victims of the scheme and purported agreements
were exchanged with targets of the scheme. Defendants Rees and Think Finance hoped to avoid liability
by falsely claiming that they only provided services to
Plain Green, when in reality they created the whole
enterprise and ran its operation through an assortment of subsidiaries and affiliates like Defendants
Tailwind Marketing, TC Loan, and TC Decision Sciences.
102. Defendants Rees and Think Finance intended
to defraud the victims of the scheme.

136a
103. The use of the mail and wires was reasonably
foreseeable because the form documents that Defendant Rees and Think Finance created specifically called
for the use of ACH transactions or mail to make payments on the illegal loans.
104. The racketeering activity is related and continuous. The thousands of ACH transactions served
and continue to serve the central scheme created by
Defendants Rees and Think Finance to make illegal
loans at extortionate interest rates. The thousands of
ACH transactions served the common scheme of
evading state laws, defrauding people in financially
challenged positions, and making profits. The scheme
to evade state laws was carried out by Defendants
Rees and Think Finance through their control and
domination of Plain Green and an assortment of
subsidiaries and affiliates like Defendants Tailwind
Marketing, TC Loan, and TC Decision Sciences.
105. The use of the Plain Green website is also
related and continuous. The website was used and is
used to deceive the victims into believing that the
transactions were and are legitimate and consistent
with the law. The website collects personal data that
is then used to take money from individuals who have
fallen victim to the fraudulent scheme. The website
transmits and transmitted the lending and arbitration
agreements to potential victims through the wires.
106. The website also makes a number of misrepresentations. For example, the website creates the
impression that the loans are a good option for short
term financing by making the claim that the loans are
“less expensive than a payday loan.”
107. The website also makes a deceptive comparison between the interest rates paid to the Defendants

137a
and the payment of various late fees, such as reconnect
fees from utilities or overdraft fees from banks. The
website compares its loans, which have repayment
periods of months or years, to the reconnect and overdraft fees, which Defendants arbitrarily state have a
14 day repayment period. This is not an accurate
comparison. The comparison makes the misleading
claim that the interest rates charged by the Defendants are actually cheap. This is false and misleading.
108. Defendants Rees and Think Finance exercise
control over and operate all elements of the website.
Their software determines which loan requests generated through the website will be accepted by Plain
Green and which loan requests will be declined.
109. Defendants Rees and Think Finance also
perform the function of customer service, verification
of accounts. and collection of debt on behalf of Plain
Green.
110. Defendants Rees and Think Finance exercised
control over the drafting of the lending and arbitration
agreements through their close association with the
attorneys drafting the documents. Defendants Rees
and Think Finance did so in order to ensure that
victims of Plain Green would opt for ACH transfers to
accept money and then Defendants would be able to
take money from the victims’ bank accounts. Directing
the targets of the fraudulent scheme to choose ACH
transfers increases the chances of being able to take
money from the targets of the scheme on a regular
basis. With an authorization to take money from the
bank accounts, Defendants Rees and Think Finance
did not have to rely on the targets sending money to
them. In addition, by creating an ACH authorization,
Defendants Rees and Think Finance forced the targets
of the fraudulent scheme to take many actions to stop

138a
the transfers. The additional time needed to complete
these tasks meant that Defendants Rees and Think
Finance could extract additional periodic payments
before their authorization was revoked.
111. The Term Sheet reflects the control that
Defendants Rees and Think Finance had over the use
of ACH transactions as part of the scheme to defraud
and the control that they exercised over the process.
112. Defendants Rees and Think Finance used a
lending agreement and an arbitration agreement as
tools to further deceive Plaintiffs. They used both the
website and the ACH transactions in conjunction with
each other to further the enterprise and the fraudulent
schemes.
113. The illegal activity started in or around March
2011 and has continued to the present. Plain Green
has used the above described ACH system and website
for over four years.
114. Had Defendants Rees and Think Finance not
established and ran the corrupt enterprise of Plain
Green, they would not have ensnared Plaintiffs in the
illegal scheme and obtained Plaintiffs’ personal information, including access to their bank accounts,
through Plain Green’s website.
115. Plaintiffs would not have had their bank accounts
debited with illegal ACH transactions in excess of any
legal amount of interest but for Defendants Rees and
Think Finance establishing and running the corrupt
enterprise of Plain Green.
116. Plaintiffs were injured when Defendants Rees
and Think Finance chose to defraud them and collect
extortionate and usurious interest rates far in excess
of the legal limit. The withdrawal of money by

139a
Defendants Rees and Think Finance, part of the
Racketeering activity and itself a predicate act, caused
Plaintiffs’ injury.
117. Defendants Rees and Think Finance chose
Plaintiffs as the intended targets for the enterprise
and the racketeering activity. Defendants Rees and
Think Finance targeted Plaintiffs because they met
sophisticated underwriting criteria that showed they
badly needed money in the short term, but could pay
off small amounts over the long term. Defendants Rees
and Think Finance used sophisticated computer
algorithms to make that determination.
The Arbitration Agreement
118. Another device that Defendants Rees and
Think Finance have employed to try to avoid legal
liability is a purported arbitration agreement, see
Exhibit B to Mot. to Dismiss, (the “Purported Arbitration Agreement”). To be clear, none of the Plaintiffs in
this action can access any of the records relating to
their loans from Plain Green, including any purported
arbitration agreement with Defendants.
119. That Purported Arbitration Agreement is unenforceable because it is unconscionable, its purpose has
been frustrated, and it is fraudulent.
120. The Purported Arbitration Agreement does not
waive and attempts to preserve tribal immunity, and
it claims to give all Defendants the ability to void any
arbitration award by simply asserting tribal immunity
after the fact. Thus, the Purported Arbitration Agreement provides a remedy that is entirely illusory.
121. For this reason alone, the Purported Arbitration
Agreement is unconscionable. There are, however,

140a
several additional indications that the agreement is
unconscionable, including the following:
a. Because the monetary damages suffered by
each Plaintiff and other members of the Class is
small, the individual incentive to bring an action is
extremely limited, particularly since payday loans
target people who have few resources to bring a
claim.
b. The doctrine of tribal immunity is a complicated legal doctrine with which the vulnerable
people in this Class are unfamiliar.
c. The terms of the purported contract are not
easily discovered on the Plain Green website. The
terms of the Purported Arbitration Agreement change
from when a person applies for the loan to when the
terms are presented after the application process.
The terms are presented on a take it or leave it basis
with no possibility of negotiation.
d. The parties also have a great imbalance in
negotiating leverage. Defendants have highly paid
attorneys from Pepper Hamilton LLP and Hogan
Lovells US LLP representing them in litigation.
Plaintiffs lack the resources to hire such esteemed
counsel.
e. When there is a hint of litigation, Plain Green
cuts off access to the borrower’s account, so that the
borrower can no longer access the documents that
purport to structure the relationship with Plain
Green.
f. The Purported Arbitration Agreement has a
provision for shifting costs. That provision effectively prohibits borrowers from making low dollar
claims.

141a
g. Defendants will only agree to have arbitration
where the borrower resides if the borrower reaffirms
that tribal immunity applies.
122. A dispute about who is the appropriate chief
judge of the Tribe will frustrate the intent of the
Purported Arbitration Agreement for a swift resolution. The Purported Arbitration Agreement states that
arbitration procedures are simpler and more limited
than court procedures. However, the Purported Arbitration Agreement requires that certain matters be
resolved by tribal courts. Due to the corruption described
below, there is no guarantee that Plaintiffs will receive
fair, complete, simple, or final resolution from the
tribal courts.
123. The Purported Arbitration Agreement is fraudulent and an important part of the scheme to defraud
because it aims to deter victims from filing claims and
to prevent federal court review of the illegal practices
of the enterprise. The Purported Arbitration Agreements makes several material misstatements of fact.
124. First, the Purported Arbitration Agreement
states that the Lender was Plain Green, LLC. The
Term Sheet reveals that this statement is false. Plain
Green only received 4.5% of revenues from 99% of the
loans. Exhibit A at 2. Plain Green also did not provide
any of the actual money that was loaned: “Hayes will
arrange to provide funding to the Tribe to enable it to
make each of the Loans.” Id. at 1.
125. Second, the Purported Arbitration Agreement
represented that the agreement “shall be governed by
the law of the Chippewa Cree Tribe.” However, the
Term Sheet reveals that “law of the Chippewa Cree
Tribe” was bought and paid for by non-members of the
Tribe and was not “law” at all. Under the Term Sheet,

142a
Chippewa Cree law became whatever Rees and Think
Finance dictated. Specifically, the Term Sheet stated
that: “The Tribe will adopt a finance code that is acceptable to all parties and provide for licensing of an arm of
the tribe to engage in consumer lending.” Id. at 1. The
Term Sheet further provided that the Tribe must
“[r]evise the Tribal Credit Transaction Code to provide
for a broader array of lending products.” Id. at 3.
126. Third, the Purported Arbitration Agreement
states that “[n]either this Agreement nor the Lender
is subject to the laws of any state of the United States.”
This statement is false because the loans involve off
reservation activity and are thus subject to state law.
127. Defendants Rees and Think Finance required
that Defendants Rosette, Whitford, and McInerney
adopt laws that were favorable to the Defendants Rees
and Think Finance and the fraudulent scheme that
they sought to perpetrate. Defendants Rosette, Whitford,
and McInerney did adopt those laws.
128. Defendants Rosette, Whitford, and McInerney
restricted access to the laws of the Chippewa Cree
Tribe by not making the law available to the general
public through the Internet or other means. Organizations – like law school libraries – will not provide a
copy of the Chippewa Cree law by remote access
because Defendants Rosette, Whitford, and McInerney
have not granted them the right to do so.
129. Plaintiffs actually believed that the representations in the arbitration agreement and the lending
agreement were true, including that their loans were
legitimate “short term” loans, that Plain Green was
the lender of the funds, and that Plain Green was a
legitimate enterprise of the Chippewa Cree Tribe of
the Rocky Boy’s Reservation. Plaintiffs also actually

143a
believed that their loans were legitimate and legal
loans.
130. Plaintiffs relied on these representations by
failing to take legal action against the responsible parties and continuing to make payments on the illegal
loans.
131. The delegation provision of the Purported Arbitration Agreement is also fraudulent. That provision
attempts to include within the scope of the arbitration
agreement “any issue concerning the validity, enforceability, or scope of this loan or the Agreement to
Arbitrate.” Defendants planned that delegation provision to shield Defendants’ widespread fraudulent
practices from federal court review. Defendants furthered that plan by purporting to give the right to
enforce an arbitration award to the tribal court. The
Purported Arbitration Agreement states that: “The
arbitrator will make written findings and the arbitrator’s award may be filed with the tribal court. The
arbitration award . . . may be set aside by the tribal
court upon judicial review.” By attempting to force any
review of the arbitration into tribal court, Defendants
Rees and Think Finance sought to prevent any federal
court from reviewing any arbitration decision. By
adding multiple steps prior to federal court review,
Defendants Rees and Think Finance made any claim
against them economically impossible to pursue and
tried to ensure that no one could prevail against them.
Through the terms of their arrangement with Defendants Rosette, Whitford, and McInerney, Defendants
Rees and Think Finance had the ability to control the
Tribe’s law and presumably could control actions
taken by the tribal court. As a result, any review by
the tribal court would be nothing more than a sham.

144a
Governance of the Tribe and Plain Green
132. The governance of the Tribe and Plain Green
is in substantial flux and turmoil. Widespread corruption has gripped the Tribe. There is a large federal
investigation into bribery at the Tribe, and several
former tribal officials have been convicted of, or pled
guilty to, embezzlement and bribery.
133. John Chance Houle (former Chairman of Plain
Green), Tony James Belcourt, Tammy Kay Leischner,
James Howard Eastlick, Mark Craig Leischner, and
Haily Lee Belcourt were indicted in a 17 count indictment on April 18, 2013. The indictment relates to the
spending of federal funds from the stimulus bill or the
American Recovery and Reinvestment Act of 2009
(“ARRA”). At the time, Houle was also a member of the
Chippewa Cree Business Committee, which purportedly runs the Tribe. Houle was recently sentenced to
five and a half years in prison for his corruption.
134. In connection with that case, Tony James
Belacourt, as an agent of the tribal government (CEO
of the Chippewa Cree Construction Company), pled
guilty to embezzlement of federal funds, Tammy Kay
Leischner pled guilty to theft from an Indian Tribal
Government receiving federal funds, and James
Howard Easterlick pled guilty to the same offense.
135. In a separate case, John Chance Houle pled
guilty to embezzling funds from the Chippewa Cree
Rodeo Association. In yet another case, John Chance
Houle pled guilty to theft from an Indian tribal organization, obstruction of justice, and impeding a grand
jury investigation related to embezzlement and kickback schemes involving the ARRA and Chippewa Cree
Rodeo Association funds. Finally, in a different case,
John Chance Houle pled guilty to income tax evasion

145a
related to the illegal money that he received from his
various embezzlement and bribery schemes.
136. Interestingly, John Chance Houle signed the
Term Sheet with Think Finance that established the
Plain Green criminal enterprise.
137. The federal investigation is continuing.
138. The corruption extends to Plain Green. In an
arbitration involving Plain Green, an arbitrator found
that its former Chief Executive Officer, Neal Rosette,
and its former Chief Operating Officer, Billi Anne
Morsette, were involved in a fraudulent kick-back
scheme with an entity called Encore Services, LLC
(“Encore”). Encore manages payday lending business
for the Tribe.
139. In the scheme, Encore charged a 15% management fee of all gross revenues of the tribal online
lending business, but immediately sent 5% of those
revenues to Rosette and Morsette. The purpose of the
structure was to conceal the payments to Rosette or
Morsette.
140. It is presently uncertain who is actually the
head of both the Tribe and the Tribal Judiciary. Ken
Blatt-St. Marks had been elected Chairman until the
Business Committee dismissed him. Before he was
removed, Blatt-St. Marks fired the acting Chief Judge
Micelle Ereaux and unilaterally appointed Duane
Gopher. In addition, Blatt-St. Marks also apparently
terminated several other judges of the tribal courts.
141. Based on the actions with respect to the Chief
Judge and other serious charges of embezzlement, the
Business Committee removed Blatt-St. Marks on
March 2, 2015.

146a
142. Blatt-St. Marks won election for a fourth time
on June 30, 2015, but it remains unclear if the
Business Committee will attempt to remove him
again.
143. The Tribe has apparently tried to remove
Blatt-St. Marks in the past. In March 2013, the
Business Committee fired him, but the United States
Department of the Interior said that the Tribe had to
reinstate him because he was protected by federal
whistleblower statutes.
144. The question of who is actually running the
Tribe and its judicial system is in flux and is not likely
to be resolved in the near future.
Unlawful Debt
145. The debts incurred by Ms. Given and Ms.
Gingras are unenforceable under Vermont law. The
interest rates on the debt that they incurred exceed
the Vermont limit under 9 V.S.A. § 41a. In fact, the
interest charged was more than twice the interest rate
allowed under Vermont law.
146. Other jurisdictions have limits on the amount
of interest that a lender may charge. See, e.g., Conn.
Gen. Stat. § 36a-563; Md. Code Ann. Com. Law § 12306; 209 Mass. Code Regs. § 26.01; N.C. Gen. Stat.
§ 53-173; N.H. Rev. Stat. Ann. § 399-A:12.
147. The interest rates charged to class members
exceed the rate caps in these states by more than twice
the legal limit.
148. Plain Green is in the business of lending
money at a usurious rate. The Term Sheet demonstrates that Plain Green’s entire existence is for the
purpose of lending at usurious rates with the goal of
avoiding state laws related to usury. Plain Green’s

147a
website demonstrates that it is continuing in the
business of lending at usurious rates. The website
states that Plain Green lends at rates of 299.17 to
378.95% for first time borrowers. The Plain Green
website details how its other loans range from 60% to
378.95% based on the amount of money taken out.
149. Ms. Given and Ms. Gingras were injured in
their property by the collection of unlawful debt in
violation of 18 U.S.C. § 1962(c) in that Defendants took
their money from them through ACH transactions to
pay loans that were illegal under Vermont law.
150. Each of the Defendants was associated with
the enterprise through the collection of unlawful debt
as described below.
151. Think Finance created the entire enterprise
and continues to run all aspects of the enterprise
through a number of shell companies, including the
companies listed below.
152. At the direction of Think Finance and Rees, TC
Decision Sciences provides customer service, verification, and collections of customer accounts.
153. At the direction of Think Finance and Rees,
Tailwind Marketing provides information on potential
targets for the illegal lending scheme. As discussed
above, Defendants Rosette, Whitford, and McInerney
pay Tailwind Marketing a fee for each of the targets it
provides to the enterprise.
154. Defendants Sequoia and Technology Crossover
provide money that is used to start the illegal lending
process. They reap rewards through obtaining significant returns on the investment of their funds in the
enterprise. Sequoia and Technology Crossover were
fully aware of the practices of the enterprise and knew

148a
that the practices violated the law. Sequoia and
Technology Crossover do not make investments without substantial due diligence into their investments,
including legal review of the activities of their investment vehicle.
155. Defendants Sequoia and Technology Crossover
executed a series of agreements that documented their
relationship with Defendants Rees and Think Finance.
They have concealed these arrangements through
confidentiality clauses in the agreements. Sequoia and
Technology Crossover have refused to comment on
their role in the RICO enterprise when people have
asked questions about it.
Class Allegations
156. Plaintiffs bring this action on behalf of themselves and as a class action under Fed. R. Civ. P. 23(a)
and 23(b)(1), (b)(2), and (b)(3) on behalf of all members
of the following Class:
All persons who took out payday loans from
Defendants.
157. Plaintiffs do not know the exact number of
class members because such information is in the
exclusive control of Defendants. Based on information
and belief and information obtained from publicly
available sources, Plaintiffs believe that there are
thousands of members of the Class as a whole. The
exact number of class members and their identities is
known or may be ascertained by Defendants.
158. The Class is so numerous that joinder of all
members is impracticable.
159. There are questions of law and fact common to
the Class, including:

149a
a. Whether Defendants have a practice of
investigating a borrower’s ability to repay a loan
before extending credit;
b. Whether Defendants set the periodic repayment amounts to maximize collection of interest on
loans;
c. Whether the interest rates charged by Defendants violate the CFPA’s prohibition on “unfair,
deceptive, or abusive act[s] or practice[s]”;
d. Whether Defendants’ other payday lending
practices violated the CFPA’s prohibition on “unfair,
deceptive, or abusive act[s] or practice[s]”;
e. Whether Plain Green, LLC is an enterprise;
f. Whether Defendants Rees and Think Finance
engaged and/or are engaging in a pattern of racketeering in violation of 18 U.S.C. § 1962(c);
g. Whether Defendants Rees, Think Finance, TC
Loan, TC Decision Sciences, Tailwind Marketing,
Sequoia, and Technology Crossover engaged and/or
are engaging in the collection of an unlawful debt in
violation of 18 U.S.C. § 1962;
h. Whether Defendants are liable to Plaintiffs
and other class members for disgorgement or other
equitable remedies and, if so, in what amount; and
i. Whether Defendants are liable to Plaintiffs and
other class members for reasonable attorney’s fees.
160. Plaintiffs are members of the Class. Their
claims are typical of the claims of the Class, and they
will fairly and adequately protect the interests of the
Class.
161. Plaintiffs are represented by counsel who is
competent and experienced in handling Ex Parte

150a
Young cases, financial actions, and class action
litigation.
162. The prosecution of separate actions by individual members of the Class would create a risk that
adjudications with respect to individual members would,
as a practical matter, be dispositive of the interests of
the other members who are not parties to the individual adjudications, or it would substantially impair or
impede the class members’ ability to protect their
interests.
163. The questions of law and fact common to the
members of the Class predominate over any questions
affecting only individual members, including legal and
factual issues relating to liability and damages.
164. A class action is superior to other methods for
the fair and efficient adjudication of this controversy.
The Class is readily definable and is one for which
records should exist. Prosecution of class member
claims as a class action will eliminate the possibility
of repetitious litigation. Treatment of the controversy
as a class action will permit a large number of
similarly situated persons to adjudicate their common
claims in a single forum simultaneously, efficiently,
and without the duplication of effort and expense that
numerous individual actions would entail. This class
action presents no difficulties in management that
would preclude maintenance as a class action.
COUNT ONE
Consumer Financial Protection Act of 2010
165. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
166. Defendants’ extension of credit under the
terms provided without examining the ability to repay

151a
is a violation of the CFPA’s prohibition on “unfair,
deceptive, or abusive act[s] or practice[s].”
167. The exorbitant interest rates charged by Defendants combined with automatic access to and deduction
from a consumer’s bank account are a violation of the
CFPA’s prohibition on “unfair, deceptive, or abusive
act[s] or practice[s].”
168. Defendants have falsely reported the status of
consumer’s illegal debts to credit rating agencies as if
they were legitimate debts.
169. Defendants’ representation of the loans as
short term emergency loans is deceptive and false.
170. Defendants’ representation of the loans as
legitimate loans to credit rating agencies is deceptive.
171. Defendants’ violations of the CPFA are
ongoing.
172. As a result of Defendants’ violations of the
CFPA, Plaintiffs were damaged.
COUNT TWO
Federal Trade Commission Act
173. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
174. The FTC Act bars the use of “unfair methods of
competition.”
175. Defendants’ extension of credit under the terms
provided without examining the ability of borrowers to
repay is a violation of the FTC Act’s prohibition on
unfair methods of competition.
176. The exorbitant interest rates charged by Defendants combined with automatic access to a consumer’s

152a
bank account are a violation of the FTC Act’s prohibition on unfair methods of competition.
177. Defendants’ representation of the loans as
short term emergency loans is deceptive and an unfair
method of competition.
178. Defendants’ representation of the loans as
legitimate loans to credit rating agencies is deceptive
and an unfair method of competition.
179. Defendants’ violations of the FTC Act are
ongoing.
180. As a result of Defendants’ violations of the FTC
Act, Plaintiffs were damaged.
COUNT THREE
Electronic Funds Transfer Act
181. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
182. Defendants are “persons” as this term is
defined in Section 1005.2(j) of Regulation E, 12 C.F.R.
§ 1005.2(j).
183. Section 913(1) of EFTA, 15 U.S.C. § 1693k(1),
provides that no person may condition the extension of
credit to a consumer on such consumer’s repayment by
means of preauthorized electronic fund transfers.
184. Section 1005.10(e)(1) of Regulation E, 12 C.F.R.
§ 1005.10(e)(1), provides that “[n]o financial institution or other person may condition an extension of
credit to a consumer on the consumer’s repayment by
preauthorized electronic fund transfers, except for
credit extended under an overdraft credit plan or
extended to maintain a specified minimum balance in
the consumer’s account.”

153a
185. The Official Interpretation of Regulation E,
Section 1005.10(e)(1), 12 C.F.R § 1005.10(e)(1)-1, Supp. I,
provides that creditors may not require repayment of
loans by electronic means on a preauthorized recurring basis.
186. Under Section 918(c) of EFTA, 15 U.S.C.
§ 1693o(c), every violation of EFTA and Regulation E
constitutes a violation of the FTC Act.
187. In numerous instances, in connection with
offering payday loans to consumers, Defendants have
conditioned the extension of credit on recurring preauthorized electronic fund transfers, thereby violating
Section 913(1) of EFTA, 15 U.S.C. § 1693k(1), and
Section 1005.10(e)(1) of Regulation E, 12 C.F.R
§ 1005.10(e)(1).
188. Defendants’ violations of the EFTA are ongoing.
189. The Defendants conditioned the loans on the
acceptance of ACH as the transaction method. If the
loan recipient requested a paper check, the loan documents required the recipients to make a payment on
the principal before receiving the principal.
190. One example from the loan documents shows
how the economic disincentives worked. One loan was
originated on July 16, 2013. Under the purported loan
documents, the lender did not send the funds until
after the “Right of Recission” expired five days later.
Thus, the lender would have sent the check on July 24.
The lending documents state that the borrower should
allow 7 to 10 business days for delivery of the check.
Thus, the check might arrive on August 5, 2013.
191. The borrower, on the other hand, was required
to make the first payment on August 2, 2013. Allowing
the same ten days for delivery, the borrower would

154a
have to send the check on July 23, 2013, about two
weeks before the borrower received the principal.
192. The purported lending documents also create
significant penalties for a late payment. If the borrower misses a single payment under the documents,
the borrower owes the entire balance. In addition,
Defendants can take that entire balance immediately
from a borrower’s bank account by ACH transaction.
Thus, under the lending documents, the borrower
must pay Defendants a payment before he or she
receives the loan principal or Defendants can take the
entire amount of the loan from the borrower’s bank
account even before the borrower receives the funds
that are purportedly being lent.
193. The choice is a false choice and in any event,
the agreement conditions the borrower to accept transfers by ACH transfer, which is prohibited by the EFTA.
194. By engaging in the violations of EFTA and
Regulation E set forth in this Complaint, Defendants
have violated the FTC Act.
195. As a result of Defendants’ violations of the
EFTA, Plaintiffs were damaged.
COUNT FOUR
Vermont Consumer Fraud Act
196. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
197. Under section 2481w of the Consumer Fraud
Act, “it is an unfair and deceptive act and practice in
commerce” for any lender to make a loan to a consumer
unless that lender is in compliance with all provisions
of 8 V.S.A. Chapter 73 (Licensed Lenders laws). In
relevant part, 8 V.S.A. § 2201 requires that all lenders
obtain a license from the Vermont Department of

155a
Financial Regulation before loaning any money in
Vermont. Any unlicensed lender providing payday
loans to Vermont consumers is in violation of the CFA.
198. Defendants are not licensed lenders in Vermont.
199. It is a violation of the CFA to charge interest
in excess of the legal rates set under 9 V.S.A. § 41a
(generally 18-21% for the type of loan at issue here).
See Consumer Protection Rule 104.05 (making any
collection or attempt to collect interest in excess of the
legally chargeable rate an unfair and deceptive act
under section 2453(a) of the CPA).
200. Defendants’ violations of the Vermont Consumer Fraud Act are ongoing.
201. Defendants charge interest in excess of the
statutory maximum.
202. Defendants have falsely reported the status of
consumers’ illegal debts to credit rating agencies as if
the debts were legitimate debts.
203. Defendants’ representation of the loans as short
term emergency loans is deceptive and false.
204. Defendants’ representation of the loans as
legitimate loans to credit rating agencies is deceptive
and false.
205. Defendants’ lending practices also violate the
CFA’s bar on deceptive and unfair business practices,
including without limitation the mail and wire fraud
described above, the creation of an enterprise to avoid
the application of state law, the use of a front company
to shield the true managers of the enterprise from
liability, the use of economic incentives to force people
to use ACH transactions to accept cash, the automatic
deductions of funds from a personal account to make
illegal and excessive interest deduction, and the use of

156a
sophisticated data mining to find targets for the illegal
schemes.
COUNT FIVE
RICO § 1962(c)
206. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
207. This Count is against Defendants Rees and
Think Finance for damages and against Defendants
Rosette, Whitford, and McInerney for equitable relief
208. Plain Green is an enterprise engaged in and
whose activities affect interstate commerce. Defendants Rees and Think Finance and Defendants Rosette,
Whitford, and McInerney are associated with the
enterprise.
209. Defendants Rees and Think Finance agreed to
and did conduct and participate in the conduct of the
enterprise’s affairs through a pattern of racketeering
activity and for the unlawful purpose of intentionally
defrauding Plaintiffs. Defendant Rees and Think Finance
agreed with the predecessors of Rosette, Whitford, and
McInerney, official representatives of Plain Green and
the Chippewa Cree Tribe.
210. Pursuant to and in furtherance of their fraudulent scheme, Defendants Rees and Think Finance and
Defendants Rosette, Whitford, and McInerney committed multiple acts of wire fraud in violation of 18
U.S.C. § 1343 and mail fraud in violations of 18 U.S.C
§ 1341. These acts of wire fraud include the wires
made into and out of the accounts of Plaintiffs in
Vermont described in paragraphs 45 to 71, 85, and 92.
The wire fraud occurred thousands of additional times
on a nationwide basis to other borrowers around the
country. The acts of wire fraud include the use of the

157a
Internet to transmit the lending agreement and the
arbitration agreements as described in paragraphs
105, 110, 112, and 118 to 131.
211. The acts set forth above constitute a pattern of
racketeering activity pursuant to 18 U.S.C. § 1961(5).
212. Defendants Rees and Think Finance and Defendants Rosette, Whitford, and McInerney have directly
and indirectly conducted and participated in the
conduct of the enterprise’s affairs through the pattern
of racketeering and activity describe above, in violation of 18 U.S.C. § 1962(c).
213. As a direct and proximate result of Defendants
Rees and Think Finance and Defendants Rosette,
Whitford, and McInerney’s racketeering activities and
violations of 18 U.S.C. § 1962(c), Plaintiffs have been
injured in their property in that they paid extortionate
and illegal interest rates. Plaintiffs have also been
injured in that their credit ratings have been damaged
and their ability to obtain credit has been damaged.
COUNT SIX
RICO (Illegal Debt)
214. Plaintiffs reassert and incorporate by reference each of the above paragraphs.
215. This Count is against Defendants Rees, Think
Finance, TC Loan, TC Decision Sciences, Tailwind
Marketing, Sequoia, and Technology Crossover for
damages and against Defendants Rosette, Whitford,
and McInerney for equitable relief.
216. Defendants Rees, Think Finance, TC Loan, TC
Decision Sciences, Tailwind Marketing, Sequoia, and
Technology Crossover, as well as Defendants Rosette,
Whitford, and McInerney, have collected an unlawful
debt as that term is defined in 18 U.S.C. § 1961(6).

158a
217. Defendants Rees, Think Finance, TC Loan, TC
Decision Sciences, Tailwind Marketing, Sequoia, and
Technology Crossover, as well as Defendants Rosette,
Whitford, and McInerney, are associated with the
enterprise.
218. Defendants Rees, Think Finance, TC Loan, TC
Decision Sciences, Tailwind Marketing, Sequoia, and
Technology Crossover, as well as Defendants Rosette,
Whitford, and McInerney, knowingly and willfully participated in the conduct of the affairs of the enterprise
through the collection of unlawful debt.
219. The debts incurred by Plaintiffs and other
class members are unenforceable.
220. Plain Green is engaged in the business of
lending money at usurious rates of more than twice
the legal limit in several states, including without
limitation the State of Vermont.
221. The usurious rates charged by Rees, Think
Finance, TC Loan, TC Decision Sciences, Tailwind
Marketing, Sequoia, and Technology Crossover, as
well as Defendants Rosette, Whitford, and McInerney,
were more than twice the enforceable limit.
222. As a result of the unlawful collection of illegal
debt, Plaintiffs have been injured. Plaintiffs have been
injured in their property in that they paid extortionate
and illegal interest rates. Plaintiffs have also been
injured in that their credit ratings have been damaged
and their ability to obtain credit has been damaged.
COUNT SEVEN
Unjust Enrichment
223. Plaintiffs reassert and incorporate by reference each of the above paragraphs.

159a
224. Defendants have been unjustly enriched by
their continued possession of funds illegally taken
from people in financially challenged positions.
225. In equity and good conscience, those funds
should be returned to the people who fell victim to
Defendants’ illegal scheme.
Claims for Relief
WHEREFORE, Plaintiffs respectfully seek the
following relief:
A. A declaration that Defendants have violated the
Consumer Financial Protection Act of 2010;
B. A declaration that Defendants have violated the
Federal Trade Commission Act;
C. A declaration that Defendants have violated the
Vermont Consumer Fraud Act;
D. A declaration that Defendants have violated the
Electronic Funds Transfer Act;
E. A permanent injunction barring Defendants from
providing, collecting on, and servicing illegal loans;
F. A permanent injunction barring Defendants from
conditioning loans on agreeing to ACH withdrawals;
G. Preliminary and temporary injunctive relief as
the Court deems appropriate;
H. Equitable surcharge seeking return of all interest charged above a reasonable rate and any financial
charges associated with the loan;
I. A constructive trust over funds obtained illegally;
J. For Defendants other than Rosette, Whitford,
and McInerney, actual damages;

160a
K. For Defendants other than Rosette, Whitford,
and McInerney, tremble damages under 18 U.S.C.
§ 1964;
L. An order awarding attorneys’ fees and costs; and
M. Any other relief the Court deems just and proper.
JURY DEMAND
Plaintiffs demand trial by jury of all issues so
triable.
Dated: Burlington, Vermont
August 4, 2015
/s/ Matthew B. Byrne
Matthew B. Byrne, Esq.
Gravel & Shea PC
76 St. Paul Street, 7th Floor, P.O. Box 369
Burlington, VT 05402-0369
(802) 658-0220
mbyrne@gavelshea.corn
For Plaintiff

161a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF VERMONT
————
Docket No. 1:15-cv-101
————
JESSICA GINGRAS AND ANGELA C. GIVEN, ON BEHALF OF
THEMSELVES AND ALL OTHERS SIMILARLY SITUATED,
Plaintiffs,
v.
JOEL ROSETTE, TED WHITFORD, TIM MCINERNEY,
Defendants.
————
CERTIFICATE OF SERVICE
I, Matthew B. Byrne, Esq., attorney for Plaintiffs,
certify that, on August 4, 2015, I served Plaintiffs’
Amended Complaint electronically by e-mail on Andre
D. Bouffard, Esq., abouffard@drm.com.
Dated: Burlington, Vermont
August 4, 2015
/s/ Matthew B. Byrne
Matthew B. Byrne, Esq.
Gravel & Shea PC
76 St. Paul Street, 7th Floor, P. 0. Box 369
Burlington, VT 05402-0369
(802) 658-0220
mbyrne@gravelshea.com
For Plaintiffs

162a
EXHIBIT A
Term Sheet For Think Finance-Chippewa Cree
Transaction
Parties
Chippewa Cree Tribe of the Rocky Boy’s Indian
Reservation, Montana, or its Tribal entity to be known
as “Plain Green, LLC” (“Tribe”)
Think Finance, Inc, (“TF”)
Haynes Investments, Inc. its successors and assigns
(“Haynes”)
GPL Servicing Ltd, a Cayman Islands company
(“GPLS”)
Transaction
TF will license its software to the Tribe pursuant to
a software license agreement acceptable to the parties.
TF will also provide risk management, application processing, underwriting assistance, payment processing,
and ongoing customer service support coterminous with
the software license agreement and market and/or identify access channels for consumer loans on the Tribe’s
behalf (jointly “Services”).
The Tribe will adopt a finance code that is acceptable to all parties and provide for the licensing of an
arm of the tribe to engage in consumer lending. The
Tribe will also obtain a computer server and develop a
call center to mu the software provided by TF and to
enable the Tribe to provide call center services to
customers.
The Tribe will implement underwriting criteria to
approve loans that it decides to offer to consumers on
a nationwide basis through the Internet. The initial
product Will be an installment loan with a maximum

163a
amount of $2,500 and a minimum repayment period of
two months and a maximum repayment term of two
years (a “Loan”). Interest rates on the loans will vary
from an APR of 60% to 360% based upon the repayment history of the borrower and term of the loan.
The Tribe will develop documentation for the lending
process including an application, a loan agreement, an
adverse action letter, and other related documents
that comply with the federal consumer credit coda
including the Truth In Lending Act, the Equal Credit
Opportunity Act, and the Electronic Funds Transfer
Act. The Tribe will enter into an agreement with a U.S
bank to process loan transactions using the ACH system and will also develop the capability to process
remote checks.
Haynes will arrange to provide funding to the Tribe
to enable it to make each of the Loans. ‘IF shall agree
that the services provided by Haynes are exclusive
as they relate to the Tribe and they shall not enter
into any other relationship with the Tribe except as
described herein.
GPLS may from time to time purchase participation
interests in each Loan that meets agreed upon criteria
within two business days of the funding of the Loan at
100% par value.
Mechanics
The Tribe shall establish an account at a U.S.
financial institution that will enable it to fund loans
made and to receive payments from customers on each
business day. Haynes shall fund an account at such
Institution with sufficient monies to fund one business
day of Loans based upon average Loan volumes for the
preceding month.

164a
Reserve Account
The Tribe shall establish a reserve account at a U.S.
financial institution under the control of its law firm
that will be available solely to deal with any regulatory
issues, lawsuits or other controversies involving the
Tribe and its lending activities. Such reserve account
shall be funded by Tribe and TF equally out of the
income earned from the Loans until the account has a
balance of not less than $50,000 which amount shall
be replenished from time to time to the extent it is
drawn upon.
Revenues
GPLS shall pay the Tribe 4.5% of cash revenue
received on account of the Loans for which GPLS has
acquired a participation interest each month and will
advance to the Tribe as a prepayment on revenue,
$50,000 each month for the first six months or until
such time that the amount received exceeds $50,000.
Additionally, the Tribe will be reimbursed for all outof-pocket expenses.
GPLS shall pay a fee to Haynes equal to 1% of the
cash revenue received on account of the Loans for
which GPLS has acquired a participation interest each
month.
For the 1% of the loan portfolio retained by the
Tribe, the Tribe will receive 100% of the cash revenue
minus 100% of the losses.
Other Matters
TF commits that it will train and utilize not less
than 10 members of the Tribe as customer service
representatives on the Tribe’s reservation within nine
months after lending activity has begun.

165a
The Tribe commits that it will use its best efforts
to have completed the following critical path items
within the next 14 days:
1. Establish “Plain Green, LLC” (or an entity with
some other agreed upon name)
2. Revise the Tribal Credit Transaction Code to
provide for a broader array of lending products
3. Obtain a license pursuant to the Chippewa Cree
Tribal Credit Transaction Code if required
4. Setup bank account for “Plain Green, LLC”
5. Setup ACH processing for “Plain Green, LLC”
6. Get SSL for URL
7. Obtain 2 separate originating and servicing
addresses for Plain Green, LLC and GPLS.
Legal Representation
Pepper Hamilton LLP (“Pepper”) and Jones & Keller,
PC (“J&K”) shall be counsel to the Tribe. All fees of
Pepper (including a success fee) shall be paid by TF at
the closing of the transaction (and will pay the fees in
the event the transaction does not close), plus reimbursement for all costs.
J&K shall be paid as follows: an amount of $20,000
shall be wired by TF or Haynes to J&K’s trust account
on Thursday, March 10, 2011 which shall be applied
by J&K in payment for all legal work performed by
J&K (but not expense disbursements, if any, which
shall be separately billed to TF or Haynes) during the
week ending on March 18, 2011, and an additional
amount of $7,500 shall be wired by Haynes to J&K’s
trust account which shall be applied by J&K in
payment for all legal work performed by J&K provided
that all action by the Tribe or on behalf of the Tribe

166a
that is necessary to complete the items contemplated
above for the Tribe to complete have been accomplished in all material respects by March 18, 2011.
In addition to the above legal fees, an amount of
$50,000 for the payment of other tribal legal and professional fees, as well as set up, administration, travel,
and supplies shall be wired by TF or Haynes to J&K’s
trust account on Thursday, March 10, 2011 which shall
be transferred by J&K (1) to the Tribe or as directed
by the Tribe or by the Board of Directors of the tribal
entity known as Plain Green, LLC provided that all
action by the Tribe or on behalf of the Tribe that is
necessary to complete the items contemplated above
for the Tribe to complete have been accomplished in
all material respects by March 18, 2011, or otherwise
at the direction of the Tribe (2) to Haynes as directed
by Steven Haynes.
This term sheet does not set forth all the terms and
conditions of the transaction described herein. Rather,
it is only an outline, in summary format, of major
points of understanding, which will form the basis of
the definitive documentation.
Except for obligations in respect of the “Legal
Representation” paragraph above, in this paragraph
and in the immediately succeeding paragraph, this
term sheet is not, and shall not be deemed to be, a
binding agreement by any of the parties hereto to
consummate the transaction described herein. Such
agreement will arise only upon the execution and
delivery by the parties hereto of definitive documentation satisfactory in form and substance to each of the
parties and the fulfillment, to the satisfaction of the
parties, of the conditions precedent set forth herein
and in such definitive documentation. In the event
the transaction described herein shall not have been

167a
consummated on or before the day that is
days
after the date of this executed term sheet, this term
sheet shall automatically terminate on such 45th day
(unless extended in writing by the parties).
This term sheet and the terms set forth herein are
confidential, and none of the parties shall disclose the
terms of this term sheet, or the fact that negotiations
amongst the parties are ongoing, to any third party,
Including, without limitation, any other source of
potential financing for the transaction described
herein; provided, that the parties may provide a copy
of this term sheet to their attorneys end financial
advisors, in each case, for use only in connection with
the proposed transaction and on a confidential basis.
Agreed to by the below signatories.
CHIPPEWA CREE TRIBE OF THE ROCKY BOY’S
INDIAN RESERVATION, MONTANA, or its Tribal
entity to be known as “Plain Green, LLC”
By: /s/ [Illegible]
THINK FINANCE, INC.
By:
HAYNES INVESTMENTS, INC., its successors and
assigns
By: /s/ [Illegible]
GPL SERVICING LTD., a Cayman Islands company
By:
Dated: March 11, 2011

168a
Except for obligations in respect of the “Legal
Representation” paragraph above, in this paragraph
and in the immediately succeeding paragraph, this
term sheet is not, and shall not be deemed to be, a
binding agreement by any of the parties hereto to
consummate the transaction described herein. Such
agreement will arise only upon the execution and
delivery by the parties hereto of definitive documentation satisfactory in form and substance to each, of the
parties and the fulfillment, to the satisfaction of the
parties, of the conditions precedent set forth herein
and in such definitive documentation. In the event the
transaction described herein shall not have been
consummated on or before the day that is
days
after the date of this executed term sheet, this term
sheet shall automatically terminate on such 45th day
(unless extended in writing by the parties).
This term sheet and the terms set forth herein are
confidential, and none of the parties shall disclose the
terms of this term sheet, or the fact that negotiations
amongst the parties are ongoing, to any third party;
including, without limitation, any other source of potential financing for the transaction described herein;
provided, that the parties may provide a copy of this
term sheet to their attorneys and financial advisors,
In each case, for use only in connection with the
proposed transaction and on a confidential basis.
Agreed to by the below signatories.
CHIPPEWA CREE TRIBE OF THE ROCKY BOY’S
INDIAN RESERVATION, MONTANA, or its Tribal
entity to be known as “Plain Green, LLC”
By: /s/ [Illegible]

169a
THINK FINANCE, INC.
By: /s/ [Illegible]
HAYNES INVESTMENTS, INC., its successors and
assigns
By:
GBL SERVICING LTD., a Cayman Islands company
By: /s/ [Illegible]
Dated: March 11, 2011

